<html>
<title> - DEPARTMENT OF TRANSPORTATION AND GENERAL SERVICES ADMINISTRATION: FISCAL YEAR 2002 BUDGET</title>
<body><pre>[Senate Hearing 107-323]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 107-323
 
                    DEPARTMENT OF TRANSPORTATION AND
                    GENERAL SERVICES ADMINISTRATION:
                        FISCAL YEAR 2002 BUDGET
=======================================================================

                                HEARING

                               BEFORE THE

           SUBCOMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                                 OF THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                                   ON

OVERSIGHT OF THE PROGRAMS OF THE U.S. DEPARTMENT OF TRANSPORTATION AND 
          GENERAL SERVICES ADMINISTRATION FOR FISCAL YEAR 2002

                               __________

                              MAY 10, 2001

                               __________

  Printed for the use of the Committee on Environment and Public Works




                       U. S. GOVERNMENT PRINTING OFFICE
78-074                          WASHINGTON : 2002
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001






               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                      one hundred seventh congress
                             first session
                   BOB SMITH, New Hampshire, Chairman
             HARRY REID, Nevada, Ranking Democratic Member
JOHN W. WARNER, Virginia             MAX BAUCUS, Montana
JAMES M. INHOFE, Oklahoma            BOB GRAHAM, Florida
CHRISTOPHER S. BOND, Missouri        JOSEPH I. LIEBERMAN, Connecticut
GEORGE V. VOINOVICH, Ohio            BARBARA BOXER, California
MICHAEL D. CRAPO, Idaho              RON WYDEN, Oregon
LINCOLN CHAFEE, Rhode Island         THOMAS R. CARPER, Delaware
ROBERT F. BENNETT, Utah              HILLARY RODHAM CLINTON, New York
BEN NIGHTHORSE CAMPBELL, Colorado    JON S. CORZINE, New Jersey
                Dave Conover, Republican Staff Director
                Eric Washburn, Democratic Staff Director
                                 ------                                

           Subcommittee on Transportation and Infrastructure

                  JAMES M. INHOFE, Oklahoma, Chairman

JOHN W. WARNER, Virginia             MAX BAUCUS, Montana
CHRISTOPHER S. BOND, Missouri        BOB GRAHAM, Florida
GEORGE V. VOINOVICH, Ohio            JOSEPH I. LIEBERMAN, Connecticut
LINCOLN CHAFEE, Rhode Island         BARBARA BOXER, California
                                     RON WYDEN, Oregon

                                  (ii)





 
                            C O N T E N T S

                              ----------                              
                                                                   Page

                              MAY 10, 2001
                           OPENING STATEMENTS

Baucus, Hon. Max, U.S. Senator from the State of Montana.........     2
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     1
Reid, Hon. Harry, U.S. Senator from the State of Nevada..........     5
Smith, Hon. Bob, U.S. Senator from the State of New Hampshire....     7
Warner, Hon. John W., U.S. Senator from the Commonwealth of 
  Virginia.......................................................    19

                               WITNESSES

Davis, Thurman, Sr., Acting Administrator, General Services 
  Administration.................................................    28
    Prepared statement...........................................    49
    Responses to additional questions from:
        Senator Clinton..........................................    56
        Senator Inhofe...........................................    52
        Senator Reid.............................................    58
        Senator Warner...........................................    51
Dearie, Hon. Raymond J., District Judge, Eastern District of New 
  York, prepared statement.......................................    48
Mineta, Hon. Norman, Secretary, Department of Transportation.....     9
    Prepared statement...........................................    29
    Responses to additional questions from:
        Senator Inhofe...........................................    38
        Senator Reid.............................................    40
        Senator Smith............................................    37
        Senator Warner...........................................    42
Roth, Hon. Jane R. Judge, U.S. Court of Appeals for the Third 
  Circuit, Washington, DC........................................    26
    Prepared statement...........................................    43
    Responses to additional questions from Senator Inhofe........    46


                    DEPARTMENT OF TRANSPORTATION AND



                    GENERAL SERVICES ADMINISTRATION:
                        FISCAL YEAR 2002 BUDGET

                              ----------                              


                         THURSDAY, MAY 10, 2001

                                       U.S. Senate,
Committee on Environment and Public Works, Subcommittee on 
                         Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:15 a.m. in 
room 628, Senate Dirksen Building, Hon. James M. Inhofe 
(chairman of the subcommittee) presiding.
    Present: Senators Inhofe, Warner, Chafee, Baucus, Reid, and 
Smith [ex officio].

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. The meeting will come to order.
    Today, the subcommittee will receive testimony regarding 
the President's budget for fiscal year 2002 for the Department 
of Transportation and General Services Administration.
    I do have a statement. Rather than go into detail in the 
statement, I will place it into the record, because I want to 
get started on this. We have an unfortunate thing today. We 
have at the same time as this hearing, even though we timed 
this one first, we set this one first, we have the Senate Armed 
Services Committee where we have all three Service Secretaries 
up for confirmation. So I am going to be going back and forth. 
Senator Smith is on both committees also. So we will be trading 
back and forth. I will be trying to get Senator Reid or Senator 
Baucus or others who come along to Chair in our absence so we 
can just keep this hearing going.
    Let me just mention one thing, since I am the only 
Republican here and confession is good for the soul, I would 
advise both of my colleagues over here that one of the things 
this President did was nobody knew who he was appointing for 
the very top key positions. I did not have any idea that Norm 
Mineta was going to be considered or was going to be interested 
in this job until I heard about it. So I immediately called and 
I said, ``Norm, do you remember in the years that you were in 
the House the only Republican that came to all of your 
fundraisers and considered you among their best friends?'' He 
said, ``This must be Jim Inhofe.''
    [Laughter.]
    Senator Inhofe. We are just so honored to have you in this 
position. I would say to my colleagues who perhaps have not 
worked as closely with him as I have, for the 8 years I was 
over in the House, I have never worked with anyone who was more 
dedicated and more committed and who worked harder than 
Secretary Mineta. So we are delighted to have you here.
    [The prepared statement of Senator Inhofe follows:]
       Statement of Hon. James M. Inhofe, U.S. Senator from the 
                           State of Oklahoma
    Today, the subcommittee will receive testimony regarding the 
President's budget request for fiscal year 2002 for the Department of 
Transportation and the General Services Administration. I understand 
that in recent years it has not been the practice of the subcommittee 
to conduct oversight on the Department of Transportation budget 
request; however as we approach reauthorization of TEA-21, I believe it 
is critical that we carefully scrutinize how the program is being 
administered. Likewise, the subcommittee has a responsibility to make 
sure that the stewardship of Federal real estate assets are being seen 
to and we welcome the opportunity to hear from GSA and the Courts on 
their space needs.
    I want to extend a special welcome to Secretary Mineta because we 
served together on what was then the House Public Works and 
Transportation Committee. It was during that time that ISTEA 
[Intermodal Surface Transportation Efficiency Act] was enacted and 
Secretary Mineta was the chairman of the Surface Transportation 
Subcommittee. It is very fitting that you are now administering the 
second generation of ISTEA . . . I cannot think of a better qualified 
individual.
    With that said, I want to advise you that there are some areas of 
the President's budget that has caused some concern with respect to 
what appears to be a diversion of funds from the TEA-21 formula. I look 
forward to hearing what you have to say about how this proposal will 
protect the delicate TEA-21 funding balance . . . and I know I do not 
need to school you on how delicate that balance is.
    Also, as you are aware, the Environment and Public Works Committee 
has been very concerned with the progress of environmental streamlining 
implementation. Our disappointment with the proposed rule of last 
summer has not necessarily been abated. I hope that in your comments 
will give the subcommittee the assurances it seeks regarding this 
important TEA-21 reform.
    Finally, I want today's hearing to be the first of many 
conversations we have over the next several month on laying the 
groundwork for reauthorization. I have some new ideas on how I believe 
we can ensure States have more money to spend on their infrastructure. 
I appreciate my views may not be shared by others but I believe that if 
we are going to continue to build on the progress that has been 
accomplished by ISTEA and TEA-21, we need to not shy away from bold 
ideas. Specifically, I want to explore the option of giving States the 
opportunity to opt out of a portion of the Federal highway program by 
keeping their gas tax dollars in the State and sending only that 
portion to Washington that is needed to fund national priorities. I 
recognized as someone who was taught at the feet of Chairman Bob Roe 
and Congressman John Paul Hammerschimdt this is a radical idea but one 
that I believe has merit and deserves discussion.
    I am also pleased to have GSA Acting Administrator Thurman Davis to 
discuss GSA's Public Building program and Judge Jane Roth to update the 
subcommittee on the housing needs of the U.S. Courts. I had the 
opportunity to visit with Judge Roth yesterday and she highlighted for 
me the space requirements of the courts. As I told Judge Roth then, it 
would be my goal to work diligently with the courts and GSA to address 
those needs to the greatest extent possible.

    With that, I will yield to Senator Baucus for his opening 
statement.

             OPENING STATEMENT OF HON. MAX BAUCUS, 
             U.S. SENATOR FROM THE STATE OF MONTANA

    Senator Baucus. Thank you, Mr. Chairman. I think we all 
have the highest regard for the Secretary. Each of us has known 
him in different capacities, in different times, different 
situations, but for a long period of time. And in each of 
those, he has just been one super great guy. I first knew the 
Secretary, I hate to admit it, it was a good number of years 
ago, but we were both Watergate babies. We came to the Congress 
together in 1974, and I might say it was probably one of the 
best classes. We are very proud of our group.
    Anyway, Norm and I worked on a lot of projects over in the 
House, particularly on ISTEA, I might say, because he was very 
active in the Intermodal Transportation Efficiency Act. Was Bud 
Shuster the chairman then? I have forgotten.
    Mr. Mineta. Bob Roe.
    Senator Baucus. That is right, Bob Roe was chairman at the 
time.
    Senator Inhofe. How could you forget that?
    Senator Baucus. Well, it is pretty hard to forget Bud 
Shuster, too.
    [Laughter.]
    Senator Baucus. And then later on, he became Commerce 
Secretary, Transportation Secretary. It really shows that a lot 
of people have so much faith in Mr. Mineta in so many different 
capacities, so many different ways. He was elected to Congress, 
and then serving as Commerce and then Transportation 
Secretaries, and in different Administrations. It is quite a 
mark. I am thinking, frankly, of somebody from Montana years 
ago who was in somewhat the same capacity, and that was Mike 
Mansfield, former Senator representing Montana, who was 
appointed by President Carter to be Ambassador to Japan. And 
when President Reagan became President, President Reagan 
recognized that Ambassador Mansfield was such a solid person 
that he carried over Senator Mansfield to continue to be 
Ambassador to Japan. I think he is one of the best Ambassadors 
we have had to represent the United States of America. And Mr. 
Mineta is in the same capacity.
    Mr. Chairman, this hearing though is about more than 
Secretary Mineta, so I will go on to the substance of the 
hearing.
    The very basic point I want to make is that I deeply 
appreciate the ideas and the programs that the Administration 
is suggesting to improve our highway system. They are a lot of 
good ideas and I think that we should look at them very 
closely. But at the appropriate time. I very, very firmly 
believe that it does not make sense to open up TEA-21. If the 
programs suggested are adopted, that would mean that our States 
would receive about $430 million less in direct highway 
funding. That is not something I think we should do.
    I have worked very hard, as has Senator Reid, and I know 
you have, too, Mr. Chairman, on these highway bills. They have 
worked. They have worked well. I think because the highway 
users and Members of Congress know that we are going to take 
these up, spend a lot of time trying to figure out the 
formulas, the provisions, and then enact them, and not reopen 
these bills for another 6, 8, 10 years. And the same applies 
here with respect to the current highway program. It is 
working. It is working well. And if we start to reopen TEA-21, 
then many other groups are going to come in and say ``Hey, what 
about me? What about our program?'' And a lot of them are going 
to be very worthwhile programs. But, again, they take money 
away from the States under the formula.
    That makes it difficult for States to plan. My State of 
Montana has a devil of a time, I might say, Mr. Chairman, 
trying to find the matching funds to match the Federal dollars 
that Montana receives. And if it is on again, off again--that 
is, if the amounts that Montana receives goes up and down like 
a yo-yo--as a consequence of different programs that we may or 
may not be enacting, that is, reopening TEA-21, it makes it 
very difficult for States to plan. It also makes it very 
difficult for contractors to plan. These jobs are not something 
you put together in a week or a month or a year. They take many 
years to plan. And not to belabor the point, but just to say 
that I feel very strongly, having worked with Senator Chafee, 
Senator Warner, in particular, Senator Byrd, Senator Graham, 
and others as the principal architects of TEA-21, that now is 
not the time. Next year would be the time to start looking at 
programs when we do reenact the next highway bill in the 
following year.
    So, Mr. Chairman, I will stop at that point. I notice that 
Judge Roth is in the audience. I do not know if I will be able 
to stay for her testimony. But I have a very long association 
with Judge Roth with respect to our courts and the courthouses 
and the Administrative Office of the Courts, and certainly her 
husband, Senator Roth. They are two wonderful people. I just 
want to thank Judge Roth for the great progress we have made on 
this issue of how we finance and plan courthouse construction. 
I deeply appreciate the Judge's very good, hard work.
    [The prepared statement of Senator Baucus follows:]
  Statement of Hon. Max Baucus, U.S. Senator from the State of Montana
    Mr. Chairman, I would like to make an opening statement before 
Secretary Mineta speaks and then a separate one before our second 
panel.
    I am pleased that for the first time before the Transportation 
Subcommittee, we will be hearing from our newest Secretary of 
Transportation--Norman Mineta. Mr. Mineta is well known to many of us. 
We had the opportunity to work with him not only at the Department of 
Commerce but when he served as chairman of the House Committee on 
Public Works during the development of the Intermodal Surface 
Transportation Efficiency Act or ISTEA. I welcome Mr. Mineta here this 
morning.
    I'd like to start off this morning by mentioning how much TEA-21 
has helped our Nation address our infrastructure needs and our 
employment needs. This is especially true in my State of Montana. TEA-
21 has been a crucial tool for us. The bill is not perfect, but it's a 
very good bill that an overwhelming majority agreed upon, at the end of 
the day. Along with Senators John Chafee and John Warner, I was 
directly involved in drafting TEA-21 in the Senate. I consider it a 
priority to make sure that TEA-21 is implemented intact until it 
expires in 2003.
    I must point out that the documents provided by the Department of 
Transportation assert that the Bush Administration's budget proposal 
actually funds TEA-21 intact. The Administration claims that their 
budget funds the guaranteed levels for surface transportation as 
prescribed in TEA-21. I do not agree. The Bush budget includes several 
new statutory proposals which, if enacted, would change TEA-21 in 
several fundamental ways. Taken together, these proposals have the 
effect of prioritizing research programs and discretionary grant 
programs at the expense of highway construction dollars to the States. 
Under this budget, the States would receive almost $430 million less in 
direct highway construction funds than they would under TEA-21. I 
cannot and will not support proposals that would take critical highway 
construction dollars, guaranteed by TEA-21, away from the States and 
divert those dollars to other programs. When we enacted TEA-21 we said 
that we were putting the trust back into the Highway Trust Fund, and 
I'm not prepared to change TEA-21 in ways that would detract from that 
promise.
    I can understand why the Administration feels the need to fund 
these programs. They have merit. They're good programs. In fact there 
are additional programs out there that are meritorious. However, all 
these worthy programs have one thing in common--they are not part of 
TEA-21 or at least not consistent with the prescribed funding levels in 
TEA-21. Any deviation, regardless of its merit, is outside the scope of 
a bill that achieved a delicate balance. Any small change could open 
the door to an even bigger one.
    I emphasize that I don't reserve this criticism solely for this 
year's budget proposal. I have been equally critical of budget 
proposals in recent years that only loosely resembled TEA-21. In fact, 
one thing I can say about this year's budget proposal is that it shows 
some restraint. Past proposals by the Administration have called for 
even fewer construction dollars to the States in exchange for other 
programs. Thankfully, those budgets were not enacted.
    I'd like to quickly mention two other areas in which I intend to 
question the Secretary about after his statement. First is the concept 
of repealing all or part of the Federal gas tax. Bad Idea. If the 4.3-
cent fuel tax is repealed, there will be terrible consequences to this 
country again.
    I am against repeal for two main reasons. First, any repeal would 
undermine TEA-21 which is so important to economic development in 
Montana and throughout the country. Second, repeal of the gas tax will 
not reduce the price of gas at the pump.
    On this subcommittee Senators Voinovich, Warner, Reid and I fought 
repeal on the Senate floor on three separate occasions last year. On 
each occasion, reason prevailed. There was no gas tax repeal. I hope 
that we can count on Secretary Mineta to help us prevent repeal if this 
issue comes up.
    The next issue I'd like to speak about is environmental 
streamlining. To your credit, Mr. Secretary, you have made repeated 
statements regarding the need to streamline the process by which 
environmental approvals are obtained to construct new runways for 
airports. I applaud this initiative but I emphasize that equal 
attention should be spent on streamlining the approval process for 
highways. At present, the process for allowing highway projects to move 
forward is painfully long. The rule that was issued last year missed 
the mark. It is my hope that you will go back to the drawing board, as 
they say, and issue a regulation that will help States expedite the 
project approval process without and I emphasize without weakening 
environmental protections.
    Thank you for being here today Secretary Mineta. I look forward to 
your remarks.

    Senator Inhofe. Thank you, Senator Baucus.
    I should have mentioned that we will have a second panel 
with Judge Roth, and I hold her in the highest esteem, as I am 
sure we all do up here, as well as Thurman Davis, who is the 
Acting Administrator of GSA. That will be Panel II.
    Senator Reid.

             OPENING STATEMENT OF HON. HARRY REID, 
             U.S. SENATOR FROM THE STATE OF NEVADA

    Senator Reid. Thank you very much, Mr. Chairman. When you 
talked about the ``unfortunate thing,'' I was surprised when 
you talked about the unfortunate thing in your mind today was 
the Armed Services Committee meeting at the same time we are 
meeting. I thought you were talking about the budget we were 
going to have to vote on.
    Senator Baucus. We thought that was the confession of the 
soul.
    Senator Reid. Mr. Chairman, we all hold Secretary Mineta in 
the highest regard. I had the good fortune to serve with the 
Secretary as a Member of the House of Representatives and 
worked with him during the time that he was moving the last 
transportation bill. Like you, when I first heard he was being 
selected, I reached out to tell him that I hoped he would take 
the job. He is certainly qualified to do so. As I have 
indicated, and we have all indicated, there are few people as 
well qualified to handle the job as Secretary Mineta. And it is 
a difficult job that he has.
    For example, Las Vegas has tremendous traffic problems with 
their being the fastest growing area and the fastest growing 
State. Just this week a new study by the Texas Transportation 
Institute estimated that in 1999 traffic congestion cost $78 
billion in just wasted fuel and productivity. And to no one's 
surprise, the study confirmed that traffic congestion has 
tripled since 1982, with the average person now spending 36 
hours a year stuck in traffic. I have experienced this, as I 
have indicated, in Nevada. We have growth that has changed the 
traffic patterns in Nevada.
    As the new ranking member on this full committee, I take 
this issue seriously and look forward to working with Senator 
Baucus and this most important subcommittee on the TEA-21 
reauthorization process.
    One issue that I find we may need to take a look at is 
magnetic levitation. In this year's budget, there has been a 
decision made not to fund this and not to have funding that we 
have had in the past. I think, Mr. Secretary, this is something 
you need to take a look at. I just left an appropriations 
subcommittee hearing with Secretary Paige, who is the new 
Secretary of Education. I am very impressed with this man 
because he is saying we need to do things differently. I think 
in transportation you need to take a look at doing things 
differently. Carrying people 250 miles, we cannot continue 
doing that with cars and with airplanes. It is so inefficient 
to travel these short distances by airplane or by car. We have 
to look at something else. And the only area that I think that 
we can look--the highways are jammed, we cannot build more 
roads, we cannot build more airports--we need to look at ways 
of traveling on high-speed rail, and I think one of the ways we 
need to look is with this magnetic levitation, which was 
invented in this country but yet the technology, because of the 
Federal Government dropping the ball as we did in the 1970's, 
it is now being done in Japan and Germany.
    So I would ask, Mr. Secretary, that you personally take a 
look at magnetic levitation, high-speed rail, because I think 
it is the only way that we can efficiently carry people for 
these short hops that most of the passengers are now being 
carried by car and by airplane. So I would hope that you would 
do that and report back to the committee at the subsequent 
time.
    We cannot ignore transportation infrastructure problems 
generally. I know that you know as well as anyone within this 
Administration, if not better, that we cannot close our eyes 
hoping the problem will go away. So I look forward to a 
constructive year with this committee and this subcommittee, 
and you have to be an integral part of that, Mr. Secretary.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Reid follows:]
  Statement of Hon. Harry Reid, U.S. Senator from the State of Nevada
    Thank you Senator Smith for holding this hearing. I would also like 
to thank our witnesses on the second panel for coming Thurman Davis, 
Acting Administrator of the General Services Administration, and Judge 
Jane Roth. I look forward to working with both of you, and in 
particular to discussing energy efficiency in Federal buildings.
    However, today I will focus on transportation.
    Welcome Secretary Mineta. There are few people better qualified 
than you to lead the Department of Transportation and I am pleased that 
President Bush made such an excellent choice in your appointment.
    That said, you have a tough job ahead of you. The importance of 
transportation issues is increasing thanks to growing public 
frustration over delayed flights, congested roads, and overcrowded mass 
transit facilities. Our transportation system is bursting at the seams 
as demand overwhelms our infrastructure's limited supply.
    Just this week, a new study by the Texas Transportation Institute 
estimated that in 1999 traffic congestion cost $78 billion in wasted 
fuel and lost productivity. And to no one's surprise, the study 
confirmed that traffic congestion has tripled since 1982, with the 
average person now spending 36 hours a year stuck in traffic. I have 
experienced this trend firsthand in my home State of Nevada. Las Vegas, 
the fastest growing metropolitan area in the country, has seen the 
average traffic delay per person quadruple since 1982. In fact, one 
related study showed Las Vegas to have the second worst ``congestion 
burden'' in the Nation. And with continuing growth, this problem is 
only going to get worse.
    As the new ranking Democrat on the Environment and Public Works 
Committee, I take my leadership responsibilities on this issue 
seriously, Mr. Secretary, and I look forward to working closely with 
you throughout the TEA-21 reauthorization process.
    I would like to take this opportunity to raise one issue of 
particular concern. Our needs in transportation are enormous and we 
will have to find ways to address these needs while reauthorizing 
surface transportation programs in 2003. A critical piece of the 
solution will be more funding. We cannot solve our traffic problems 
without more and better roads. We also cannot solve our problems 
without substantially increasing our investment in mass transit to give 
commuters another transportation option. And we desperately need to 
invest billions of dollars in high-speed rail corridors across the 
Nation, not to mention magnetic levitation. And this does not even 
begin to touch on our aviation and coast guard needs. The bottom line, 
Mr. Secretary, is that more budgetary resources are going to be 
necessary to address our transportation problems, and I am concerned 
that the budget proposal this Administration put forth does not leave 
room for these needs in future years. I am concerned that once we pass 
giant tax cuts, there just won't be anything left for our other 
priorities.
    Mr. Secretary, we cannot ignore out transportation infrastructure 
problems. You know that better than anyone and I hope that you will be 
a voice of reason within the Bush Administration, sounding the alarm on 
this issue. We cannot close our eyes and hope this problem goes away. 
We need to meet it head on.
    Again, thank you for coming and I look forward to working with you 
very closely on transportation issues over the next few years.

    Senator Inhofe. Thank you, Senator Reid.
    Senator Chafee.
    Senator Chafee. Thank you. I would just like to welcome 
fellow mayor and now Secretary Mineta. I look forward to your 
testimony.
    Senator Inhofe. Senator Smith.

             OPENING STATEMENT OF HON. BOB SMITH, 
          U.S. SENATOR FROM THE STATE OF NEW HAMPSHIRE

    Senator Smith. Let me just say welcome, Mr. Secretary, a 
distinguished House colleague. I had the privilege of serving 
with you for I do not know how many years, I think six at 
least. Welcome. Good to see you here. How is it sitting in that 
cabinet meeting with all those Republicans?
    [Laughter.]
    Mr. Mineta. Fine.
    [Laughter.]
    [The prepared statement of Senator Smith follows:]
          Statement of. Hon. Bob Smith, U.S. Senator from the 
                         State of New Hampshire
    Thank you Mr. Chairman. I would like to extend a warm welcome to 
Secretary Mineta on his first appearance before this committee as the 
new Secretary of Transportation--it's good to see you again.
    We are all aware of his vast experience with transportation issues 
from his days as the House committee chairman. I do want to commend you 
for the budget's full funding of TEA-21 guarantees. We all know how 
important full funding is because highways are the backbone to all 
other modes of transportation. For example, in New Hampshire the 
Manchester Airport Access Road will serve the fastest growing airport 
in the country. The project is expected to cost $75 million and 
construction will be completed by 2004. Another project in my State is 
the widening of I-93 in southern New Hampshire, which will cost $280 
million. This project will include park and ride lots, and express bus 
lanes serving travel to Boston, with construction beginning in 2003. 
Being a small State, with a relatively small allocation of Federal 
dollars, these major projects take a big chunk out of available funds--
so my State needs every penny it gets and more.
    As you know, TEA-21 provides that annual funding reflects actual 
gas tax receipts--RABA adjustment. Due to the strong economy, this 
budget contains $4.5 billion more than what was estimated in TEA-21. I 
am pleased that this budget restrains from significant diversions of 
these funds to non-highway projects, as was the case in the past.
    We are interested in taking a closer look at the new program 
proposals that are contained in this budget, but this committee has 
resisted any mid-course changes to TEA-21 in the past, and will 
continue to resist it during this Congress. For now, we want to work 
with you to be prepared to meet these needs in the next reauthorization 
bill that we will be crafting over the next couple years.
    With TEA-21's continued funding increases, one of this committee's 
highest priorities is environmental streamlining. I was proud to have 
co-authored the provision in TEA-21 to make sure project construction 
is not delayed. I am working closely with Federal and State agencies in 
New Hampshire on a pilot project, the widening of I-93. This project is 
of the utmost importance to New Hampshire and me.
    Over the next couple of years, this project will provide one model 
for how to raise issues early, work together on solutions, stay on 
schedule, and fully address all environmental standards. This issue 
requires leadership from the Secretary, and from the Federal Highway 
Administration.
    I will certainly urge that the next Federal Highway Administrator 
makes environmental streamlining a priority. I am pleased to support 
the budget request for increased planning funds to implement 
environmental streamlining.
    The President's budget highlights the TEA-21 innovative financing 
program. It provides $123 million to leverage up to $2.4 billion in 
Federal credit assistance for about $7 billion in infrastructure 
investments.
    We need to become better at innovative financing, because we cannot 
meet the Nation's tremendous infrastructure needs now and in the future 
with our old institutional mold for laying down the interstate system. 
I intend to continue my predecessor's efforts in this area by 
introducing a bill to allow the private sector to take a more active 
role in building and operating transportation infrastructure through 
tax-exempt bond financing.
    I believe that increased private sector involvement in 
transportation infrastructure is imperative if we are to meet the needs 
of the 21st century. I hope this bill will receive full support from 
the Administration and my colleagues here on the committee.
    Mr. Secretary, thank you again for coming here today, and thank you 
Mr. Chairman for holding this important hearing.

    Senator Inhofe. Senator Smith, I mentioned before you came 
in that you and I both have this conflict with the confirmation 
of our Service Secretaries, so you and I will be trading off 
here.
    I think it is kind of ironic, Secretary Mineta, that you 
are certainly one of the two architects of ISTEA and now you 
are coming in to administer the second generation. We are 
looking forward to that. We are pleased to recognize you at 
this time for any opening statement that you might have. If you 
could confine your opening statement to 5 minutes or so, your 
entire statement will be made a part of the record.
    Senator Reid. Mr. Chairman, before you leave, could I have 
permission to submit my questions in writing to the Secretary 
and have him respond in the next couple of days?
    Senator Inhofe. Of course. During the course of this----
    Senator Reid. No. I am going to have to leave. I will 
submit them and ask the Secretary to get back to me.
    Senator Inhofe. Yes. We will do that.

       STATEMENT OF HON. NORMAN Y. MINETA, SECRETARY OF 
  TRANSPORTATION, DEPARTMENT OF TRANSPORTATION, WASHINGTON, DC

    Secretary Mineta. Mr. Chairman, Chairman Smith, members of 
the subcommittee, it really is a great pleasure for me to have 
this opportunity to be before you today and to have this 
opportunity to work with you on the challenges that face our 
Nation's transportation system.
    First of all, I thought I was looking at a House committee 
as I was looking at all of my former colleagues here. But I 
have got to admit, the view is radically different from this 
side of the table as compared to that side. But I do look 
forward to working with all of you.
    Transportation is key to our Nation's well-being, whether 
measured as economic growth, as international competitiveness, 
or as quality of life. A safe and efficient transportation 
system is essential to keeping people and goods moving and for 
cities and communities to be prosperous. Congestion and delay 
not only waste our time as individuals, they also burden our 
businesses and our entire economy with inefficiency and higher 
costs. So, transportation is vital to the productivity and, 
therefore, the success of virtually every business in America.
    As a whole, the multi-modal transportation system of this 
Nation works well in maintaining the strong economic 
performance of the United States, and Congress deserves a great 
deal of the credit for this sustained good performance. 
Congressional enactment of TEA-21 and AIR-21 put in place 
levels of capital investment that will help improve safety and 
relieve congestion. The Bush Administration strongly supports 
and is requesting full funding of the guaranteed levels for 
surface transportation and for the authorized capital and 
operating levels for air transportation as part of the 
President's fiscal year 2002 budget.
    The most fundamental challenge that we face is to get 
everyone working together in a spirit of partnership to solve 
these problems. So, as Secretary, I intend to devote the bulk 
of my energies to working across party lines, reaching across 
sectoral divides, and building consensus to achieve solutions.
    Let me touch very briefly on several topics covered more 
fully in my written testimony.
    First of all, safety. Without a doubt, the United States 
has an enviable transportation safety record. We lead the world 
in safety in many modes of transportation. Working together we 
can and will improve this record. Safety is the 
Administration's highest priority in transportation. Our 2002 
budget includes $7.3 billion for transportation safety 
programs, some 7.5 percent above fiscal year 2001.
    The Administration's fiscal year 2002 budget request 
provides full funding for highway and highway safety programs 
at the level guaranteed under TEA-21. We will continue to work 
with State and local highway engineers and with the consulting 
and construction industries to provide guidance on ways to make 
the highway system safer.
    And as it relates to motor carrier safety, we propose $400 
million for 2002. That represents about a 49 percent increase 
above 2001. That increase is devoted to enforcement and 
infrastructure needs at our southern border.
    Mobility.--When I took this job, I knew that a central 
challenge for the Department would be to address the gap 
between the demand for transportation and the capacity of our 
transportation infrastructure. So I want to discuss, in 
particular, the congestion problems that we have in highways. 
Our latest Conditions and Performance Report to Congress 
projects that by 2003 highway capital investment by all levels 
of government will reach the level of our ``cost to maintain'' 
scenario. Now this scenario projects the investment required to 
maintain the average physical condition of highways and bridges 
at current levels, while still allowing for some comparably 
attractive investments in capacity expansion.
    Improving management of our resources.--While expansion of 
our transportation system capacity is necessary, we also need 
to make more efficient use of our existing infrastructure. The 
search for new technological and innovative solutions to our 
mobility challenges is well supported in the fiscal year 2002 
budget.
    Ensuring mobility for all Americans.--Despite the capacity 
challenges we face, many of us take the tremendous mobility 
options we have for granted. President Bush wants to address 
the mobility gap for Americans who do not have mobility 
options. The budget requests funding within the New Freedom 
Initiative for two new programs relevant to transportation to 
help integrate Americans with disabilities into the work force.
    Streamlining the Environmental Review Process.--The 
Administration's goal is to lessen the environmental effects of 
transportation, and the budget includes $6.6 billion, an almost 
8 percent funding increase, for these efforts. We are looking 
at ways to make the process of environmental review more 
efficient while ensuring environmental protection and concern 
for public sensitivity about noise, air, and water quality, 
other natural resources, and communities.
    In conclusion, Mr. Chairman and members of the committee, 
the United States enjoys the safest and best transportation 
system in the world. Nevertheless, we face safety and capacity 
challenges. The funding requested in the President's fiscal 
year 2002 budget, as well as the management and accountability 
improvements that we will make over the next year, will help us 
to meet these challenges.
    So I look forward to working with all of you and with the 
Members of Congress over the coming year to ensure that a safe 
transportation system continues to support a strong economy and 
improve the quality of life for all of the American people. 
Thank you very much, Mr. Chairman. I am ready to take your 
questions.
    Senator Inhofe. Thank you, Mr. Secretary. We have had an 
occasion to look at your testimony, your written submitted 
testimony, and there are some things of great interest to us. 
In there, you said, ``Slow decisionmaking does not translate 
into better environmental results.'' I think this goes to the 
heart of what we tried to accomplish in TEA-21. But I am 
disappointed that there is still no reasonable guess as to when 
the new Administration will be issuing a rule on environmental 
streamlining. I wonder if you have any ideas on when we can 
expect such a rule, and your thoughts on that issue. I think 
probably environmental streamlining is a concern I have heard 
more than any single concern that people are facing right now.
    Secretary Mineta. Mr. Chairman, because of the capacity 
challenges that we all face, trying to get projects from 
initiation to completion in as short as possible time is really 
a very large priority of our Department. It is a priority in 
which I am vastly interested. So the whole process is one that 
we want to address in a sensitive way that does not also impact 
in a negative way in terms of the environmental concerns that 
people have.
    I think there are things that we can do in a departmental 
and administrative way. As an example, in the aviation field, 
when a decision is made to go ahead with a new runway--usually 
there is an FAA local team that is put together to take a look 
at that application. They look at it and nurture it, they go 
through the process, package it up, and then send it to 
Washington, DC, for the national FAA office to take a look at 
it. And then the national team goes through the process and 
deals with the issues. What I am now saying is, when we get 
those applications for local projects and there is a local team 
put together, that we superimpose on it the national team, so 
that we are working simultaneously rather than consecutively in 
order to cut down the time period.
    I think the same thing with State environmental impact 
reports and Federal environmental impact statements. We ought 
to do those together so that they will be moving along in order 
to be able to cut down the time period and be able to deal with 
a lot of the mutual concerns at the same time.
    Senator Inhofe. I think so, too. That will be music to a 
lot of ears around the country. What you might be thinking 
about, maybe for the record, is get as specific a time line as 
you would be looking at right now in terms of how we have been 
doing things and how we are going to be doing things in the 
future. Because I think that is a very important thing. I know 
that you are not prepared to do this right now, and you do not 
have the help that you need yet, but if you could do that, that 
would be helpful.
    Secretary Mineta. I will submit that for the record.
    Senator Inhofe. All right. That would be great. Mr. 
Secretary, I want to say also that I came over from the House 
to the Senate in 1994. Of course, I served with you for 8 years 
prior to that time in the Transportation Committee in the 
House, then I chaired the Clean Air Committee after I got over 
here, and it was not until this year. So in that interim period 
of time, 6 or 7 years, I was not really into the transportation 
issues as much. I was shocked in terms of our infrastructure 
needs, the congestion that is out there, and you mentioned also 
the gap between demand for transportation and the capacity of 
our transportation infrastructure. I am sure you are familiar 
with the Society of Engineers, ``Report Card on the State of 
the Nation's Infrastructure.'' So you are coming in at a time 
that is going to be very difficult and at a time when we are 
going to have to do some acceleration and meet these needs. Do 
you have any thoughts about the changes that have taken place 
just since you have been out and are assuming this new position 
and how you are going to try to meet those increased needs?
    Secretary Mineta. First of all, there are many areas I 
think where, through the use of technology, we can improve the 
use of the infrastructure we have. If I could use an example. 
In New York they were doing manual toll collection. They were 
doing 400 cars per-lane per-hour. Electronic toll collection 
was introduced and at that point they were doing 1,100 cars 
per-lane per-hour. Now that is up to close to 1,400 cars per-
lane per-hour. So by going to a technology solution, using 
intelligent transportation systems, without additional lanes, 
which you could not have built in New York City, they were able 
to increase the through-put. I think there are a number of 
things of that nature that we should be able to do in terms of 
the use of technology, just by making better use of the 
concrete that is already there.
    Airports.--All the airplanes want to take off between 7 
o'clock and 10 o'clock. They all want to land between 4 o'clock 
and 7 o'clock in the evening. So we have this sort of two 
periods in which we have heavy use of runways. And then you, as 
a pilot, know, Senator, we have this vast period from let's say 
11 o'clock until 3 o'clock in which there is not as heavy use 
of that concrete. Is there a way that we can move some of that 
traffic that is at the ``dumbbell'' hours and move them to the 
``bar'' in-between in order to get more efficient use of that 
concrete. I think that is what we have got to be doing without 
having to resort to necessarily more concrete. More concrete is 
still needed in many regions. But I think we also have to be 
looking at more efficient use of what we have there already.
    Senator Inhofe. You are probably aware, Oklahoma is the 
first State to try this electronic tickets. It has worked very, 
very well. So we were the leader there.
    One last thing and then I will ask Senator Smith to chair 
this meeting and recognize Senator Baucus. You have probably 
seen that there have been some recommendations by the American 
Road Builders and Transportation Association and other 
associations to increase Federal gas tax. At the same time, we 
hear people demanding that it be repealed altogether because of 
the high cost of fuel. Do you have any comments about that?
    Secretary Mineta. Actually, as far as any repeal is 
concerned, Mr. Chairman, I would be in opposition to it. I 
think that is where the Administration is. Given our needs in 
terms of infrastructure, the continued income into the Highway 
Trust Fund would be required, and there would be no thought 
about repealing the gas tax.
    Senator Inhofe. Yes. I felt it necessary to bring that up.
    Senator Baucus.
    Senator Baucus. Thank you, Mr. Chairman.
    If I may followup on that, Mr. Secretary. I am quite 
confident that the Administration would not be in favor of 
total repeal. There is an issue last year, though, to repeal 
part of it, not all of it but part, say the 4.3 cents. I am 
wondering what the Administration's view on that might be.
    Secretary Mineta. I do not believe that there is any 
portion of it that is under consideration for repeal. Right 
now, I think from what I understand it is the status quo--do 
not increase it, do not repeal it. I remember when there was 
some discussion in the past about whether or not the gas tax 
should be a percentage of the cost of gasoline, so that it 
would go up as the price of gasoline went up. But I have not 
heard of any discussion of that recently.
    Senator Baucus. I appreciate that because I think it would 
be a mistake, frankly, a big mistake to repeal any portion of 
the Federal gas tax. First of all, as we all know, that means 
fewer resources into the Highway Trust Fund and all the 
consequences that would flow from that just as we are trying to 
get more efficiency in our highways. Second, I am not sure it 
would actually reduce gasoline prices. My hunch is that if 
there were a partial rollback in Federal gasoline taxes it 
would not be reflected at the pump. We would still have 
virtually the same problems that we now have. But I appreciate 
very much your response.
    Could you give us a few more thoughts about environmental 
streamlining. You said you are spending about $6.6 billion. 
Everyone is for streamlining and virtually no one is for 
degradation of the environment. So what more precisely do you 
have in mind?
    Secretary Mineta. Senator, in terms of some of the 
specifics, as you know, there were regulations being proposed 
last year, and then they were pulled back. We are in the 
process right now of taking a look at that whole issue of 
issuing the regulations for environmental streamlining. Right 
now, it is a little premature for me to even get into this 
thing because I am not really conversant on what specifics we 
are going to be dealing with. This is something I prefer to 
submit to the committee in writing.
    [The information to be provided follows:]

    We at the Department of Transportation remain convinced that a 
coordinated set of initiatives can go far to expedite the completion of 
important transportation projects, in the highway, transit, and airport 
areas. DOT's goal is to reduce unnecessary delays in the environmental 
review and permitting process, while protecting the environment and 
complying with the more than 60 environmental laws enacted by Congress 
over time. The support and cooperation of involved Federal agencies is 
a prerequisite for reaching good transportation/environment decisions 
more quickly. The Department has worked hard to gain interagency 
cooperation through initiatives that include: (1) executing a national 
Memorandum of Understanding with EPA, COE, DOI, Department of 
Agriculture, U.S. Army Corps of Engineers, and the Advisory Council on 
Historic Preservation, formalizing their commitment to work with us on 
streamlining; (2) entering into programmatic agreements with other 
agencies to allow groups of projects that meet certain criteria to be 
processed in more streamlined ways; (3) participating in pilot 
streamlining projects with State DOTs and Federal resource agencies; 
(4) convening an interagency workshop for the HQ and field offices of 
other Federal agencies to identify and address streamlining issues; (5) 
developing proposed dispute resolution procedures through which we 
would resolve disagreements; (6) developing procedures and models that 
permit State DOT's to reimburse Federal resource agencies for 
additional positions to expedite environmental reviews; (7) analyzing 
data on EISs to ascertain causes of delays and areas needing attention; 
(8) developing baseline performance information by which to gauge 
progress in environmental streamlining; and (9) showcasing exemplary 
environmental procedures and projects of State DOT's, as models for 
other States and to build credibility with Federal resource agencies.
    In response to the committee's specific inquiry, it is the case 
that some steps would involve support from Congress; for example, fully 
funding FHWA's request in the fiscal year 2002 President's budget for 
$13 million for streamlining pilot projects, data collection, dispute 
resolution procedures, and other deployment of streamlining; 
communicating the importance of streamlining to Federal resource 
agencies; supporting Administration efforts to use innovative methods 
to finance the Federal staffing needed to expedite environmental 
reviews and permit actions required by Federal laws; working with the 
Administration to harmonize Federal environmental laws with NEPA, so as 
to maximize opportunities for concurrent reviews; and working with the 
Administration during the reauthorization of TEA-21 and environmental 
laws, to find more efficient, effective and flexible mechanisms to 
achieve national environmental goals.

    Senator Baucus. That is fine. And knowing you, Mr. 
Secretary, I know that you are going to have a very balanced 
approach to all of this, and I mean look very closely, very 
hard at any recommendation to make sure that it is fair, that 
it is balanced. This country basically wants to have 
everything. It is human nature to want everything. We want 
streamlining, but we also want clean air, clean water, and do 
not want solid waste dumped in the ground. So I urge you to 
just make sure that there is no environmental degradation when 
we do streamline.
    One other question I have is with respect to section 305 in 
the President's budget proposal for the Federal Highway 
Administration. It basically says that none of the funds 
appropriated in this act shall remain available for obligation 
beyond the current fiscal year, et cetera, unless expressly so 
provided herein, provided that not to exceed 5 percent of any 
appropriation made available for the current fiscal year for 
the Department of Transportation may be transferred between 
such appropriations. My concern is whether that means that 
funds, the 5 percent, could be transferred, say, from the 
Federal Highway Administration to, for example, the Federal 
Railroad Administration. What is contemplated by that section?
    Secretary Mineta. I think we are saying within the modes. 
We are saying within the modes, but we are trying to do some of 
the things that we think are of priority interest. Most of it I 
think, again, in terms of any deviation from the TEA-21 bill, 
is related to RABA. And there, we have moved some funds around 
in order to deal with new initiatives, or to deal with new 
priorities such as trying to comply with the arbitration panel 
of NAFTA on our having to comply with the NAFTA law on opening 
the southern border.
    Senator Baucus. Could you provide a more detailed 
explanation for the record on that.
    Secretary Mineta. Relating to section 305?
    Senator Baucus. Correct. On what is intended, and what is 
the point of the section, and what does the Administration have 
in mind.
    [The information to be provided follows:]
    [Note: Please see the supplemental information on page 13.]
    Senator Baucus. Finally, I would just like all of us to 
think a little bit about, sort of the bigger picture, sort of a 
nagging question; and that is, how do we plan the next highway 
bill to address, for want of a better expression, all this 
traffic congestion? It is just getting worse. You touched on it 
with electronic pass-through systems, which I think are very 
helpful. But I have a hunch that the problem is going to be 
severe in the next several years. It is just getting worse and 
worse. There is probably some mathematical equation where it is 
going up arithmetically or geometrically or exponentially. I 
just think that we have an obligation now to go the extra mile 
and put a lot of really smart heads together to figure out, oh, 
my gosh, what are we going to do--because these highway bills 
tend to be in 6-year intervals--what are we going to do now in 
writing the next highway bill that makes an honest, good faith, 
solid effort to address additional congestion on our highways.
    Secretary Mineta. Well, as you are so very well aware, most 
all, I guess I would be safe in saying, highway transportation 
planning is a bottoms-up approach; it comes from local 
government, State government, and then, to the extent that 
those plans fit into the national plan, those would then move 
forward. But to some extent local authorities, when they are 
planning for something, can only plan for current needs and not 
build into it additional capacity because of the concern about 
inducing growth. So, because of the sustainable communities 
kind of philosophy that is prevailing today, when you build a 
highway, by the time it opens, after you have completed 
construction, it is probably very close to capacity. So we are 
not in a position to build in a lot of extra capacity once the 
project is completed.
    And so to that extent, I think we are always sort of a day 
late and a dollar short. On the other hand, growth is at this 
rate [hand demonstration] and maybe the dollar amount is like 
this [hand demonstration]. So the faster we go, the behinder we 
get. That is, to me, a fact of life of trying to match 
resources with needs, and needs are going to have to be 
determined on a priority basis. So to that extent, I think we 
have to be hard-nosed about making some of these decisions.
    Senator Baucus. I appreciate that. It is a question of 
alternatives and choice. But with increased productivity and 
increased efficiency and more creativity, we ought to be able 
to somewhat address that problem.
    Secretary Mineta. That is right. That is why I said 
technology. Absolutely.
    Senator Baucus. I would just encourage, and I know you are 
anyway, but I just encourage all of us to give it a hard look.
    Secretary Mineta. In ISTEA, when we first put in ISTEA, we 
put in what was then known as ``IVHS,'' Intelligent Vehicle 
Highway Systems. We put $600 million into ISTEA originally 
because we were trying to kick-start this whole approach. And 
most of it went into research and development. Today, what I am 
more interested in is deployment, not more R&D. And what I am 
also thinking about is--just as I hate to always use this 
example--is ATIS, Advance Travel Information Sign. I do not 
need that sign to say ``congestion ahead.'' I am already in the 
middle of traffic going 5 miles an hour. What I need that sign 
to tell me is how to get out of the jam I am in. Is there an 
alternative way to go so I can avoid the congestion ahead? To 
me, those are the kinds of things that would be helpful. And 
that is where I think we have a lot more work to do.
    There are ways that we are already saving a tremendous 
amount of money utilizing intelligent transportation systems. 
With sensors that are embedded in the road, highway departments 
can deploy the sand trucks at one temperature, and as it gets 
colder they will deploy the trucks to get out and spread 
something else, and finally they get to the point of having to 
get the trucks out there to spread the salt. I know in the case 
of Minnesota, they have already indicated how many millions of 
dollars that they have saved in terms of overtime, in terms of 
supplies because of what they have done in terms of utilizing 
intelligent transportation systems.
    Senator Baucus. I appreciate that. You might also just do 
some studies on traffic growth trends, particularly around 
cities, and be a bit provocative about it, get some people's 
attention so that more people are thinking about trying to find 
some solutions to all of this. I know that commuters' problems 
are getting worse, not better.
    Secretary Mineta. Absolutely.
    Senator Baucus. And it is just something that we need to 
address.
    Thank you, Mr. Chairman, very much.
    Senator Smith [assuming the chair]. Thank you, Senator 
Baucus.
    Senator Chafee.
    Senator Chafee. Mr. Secretary, we are going to be voting on 
a tax cut in several hours. And in hearing some of the 
testimony here about the infrastructure needs, certainly 
Senator Inhofe mentioned that, the needs for infrastructure, 
the decaying infrastructure around the country, and Senator 
Reid talked about investment in Mag-Lev, you mentioned 
increasing our intelligent transportation systems, I am sure 
all that comes with a cost. Is there a part of you that wishes 
we could devote some of this tax cut into what Senator Graham 
from Texas calls ``non-recurring expenses,'' especially in 
transportation, whether it is investment in mass transit or 
some of the other needs I mentioned?
    Secretary Mineta. Well, I think what we have submitted in 
this budget is a matching not only of financial resources to 
the needs that exist, there is also the question of ``is the 
transportation industry capable of utilizing what is there?'' 
If there is a tremendous new sum of money going in, and just in 
highways alone it is $33 billion in 2002 that is being 
requested, the question about whether or not the industry can 
absorb that amount without being sloppy at doing the work is a 
concern.
    Having been a member of the Investigations and Oversight 
Subcommittee of the Public Works and Transportation Committee 
on the House side, the history of that subcommittee was it was 
created right after the 1956 highway bill because of the graft 
and corruption that occurred. I remember when I came to that 
subcommittee in 1977 it had the largest staff of any of the 
subcommittees. Professional staff at that point was made up of 
27 retired FBI employees who did nothing but look at contracts, 
looking at jobs across the country. I want to make sure, as we 
have this infusion of new money, that we get a 10-sack concrete 
job and that we not end up with a 7-sack concrete job.
    So I am always trying to make sure that we are getting 
value for the money that is expended. I want to make sure that 
we are able to absorb the funding. I know the needs are there. 
The question is, is the industry able to handle it, including 
the State and local officials?
    Senator Chafee. Is it fair to ask that if we could assume 
that we were getting that 10-sacks of concrete instead of the 7 
sacks, that we could manage that with increased resources for 
some of these needs?
    Secretary Mineta. I am not really sure at what level we do 
not get the 10-sack concrete job. Right now, given the 
tremendous increase in the amounts that are available, I think 
given proper inspection of work force, I think we can handle 
what is there now. At what point we get diminishing returns, I 
have not really looked at. But that is an interesting question 
and it is something I am going to have to know as we prepare 
for the reauthorization of TEA-21. That is, how much more we 
ought to be increasing levels to meet the demand that is out 
there, how do we get capacity up, and how much more can we 
increase, which is going to be based on that very question that 
you are posing.
    Senator Chafee. Thank you very much, Mr. Secretary.
    Secretary Mineta. Incidently, I just saw Jim Repass and he 
said to say hello.
    Senator Chafee. Thank you, Mr. Secretary.
    Senator Smith. Thank you, Senator Chafee.
    Good morning, Mr. Secretary. I want to, first of all, 
commend you for your budget in that you refrain from trying to 
divert any of the $4.5 billion in RABA funding, extra dollars, 
if you will, due to the strong economy. In the past, we have 
seen these funds try to be diverted away to non-highway uses. I 
think you are doing the right thing. They were collected for 
that purpose and I believe they should be used for that 
purpose.
    You mentioned you want to take a little more time on the 
environmental streamlining, and several of us have asked you 
questions about that, so I think you can see that it is a 
rather high priority. I will not press you on it. I know you 
want to take some time to think it through. But I think where 
there was concern on a lot of our parts was that there seemed 
to be, I think we had a hearing last fall with some of the 
highway folks, and there seemed to be a little misunderstanding 
about the streamlining, what we wanted to do with it. It seemed 
to be confusing to some. It seemed like it was causing more 
regulation and more concerns as opposed to less.
    As one who participated in the drafting of those 
provisions, I think it is clear that we were looking really to 
provide some concurrency so that we do not have this delay 
after delay after delay, a resolution dispute process, time 
periods for review. I have been working on sort of a pilot 
project on I-93 and we would be happy to submit some of the 
information that we have, if we have not already done it at the 
staff level, as to how that is working. It is amazing when you 
find out that a number of the agencies and entities that are 
involved in the building of a highway, whether it is fish and 
Wildlife, the EPA, the DOT, New Hampshire DOT in this case, or 
whatever, sometimes they do not all sit down together. And when 
they do, it is amazing how fast things move along. So that is 
really what the intent was. I would hope that we could work 
with you to be sure that is really where we go on that specific 
project.
    Secretary Mineta. I would like to hear your results on that 
pilot program on I-93. That would be helpful. I think part of 
the problem when you have Corps of Engineers, EPA, National 
Marine and Fisheries, there is really no, so to speak, lead 
Agency and each is delegated their responsibilities. And so you 
are sort of the tail waiting for the something else to happen. 
So to try to say to another Agency, ``Hey, hurry up.'' ``Get a 
life.'' ``Get over it.'' But you just cannot.
    Senator Smith. I think you need a lead Agency. And speaking 
for myself, having that be in your shop would not trouble me at 
all. I think it is the place where it should be. But I do think 
that it is amazing that sometimes you just do not know who goes 
next and, therefore, there are delays that occur. Highway 101 
in New Hampshire took 25 years to build--I think it was 
probably even before your time in Congress and mine--it took 25 
years to do just basically a few miles of highway. There were 
several deaths, and largely due to all kinds of delays that 
came about after the highway was laid out, there was very 
little concurrency, frankly, and there were legitimate 
environmental concerns that were addressed, but it just took a 
long, long time to do it.
    Secretary Mineta. While I was at Commerce, Mr. Chairman, 
the whole issue of the San Francisco Airport and the building 
of the additional runways came up. Part of the conversation was 
whether or not they have to have some Bay fill in terms of the 
runway. I said to the San Francisco Airport folks, ``Look, at 
Commerce we have got Coastal Zone Management and we have got 
National Marine Fisheries, can we at Department of Commerce 
help you in terms of the environmental impact report that you 
have to prepare for the possibility that you are going to go 
into the Bay.'' I think there are those kinds of ways we can, 
Department of Commerce, or EPA, or Department of 
Transportation, we can work together to make sure that we try 
to compress that time period.
    Senator Smith. This is just using the pilot as an example. 
We have had I think four meetings, if I am not mistaken, and it 
has worked well. There does not seem to be any animosity or 
clashing, just working through it. And it does seem to work.
    I might just add a footnote on this. I do not know if you 
have picked, you have not announced anyway, your Federal 
Highway Administrator nominee. I would hope that when you do 
that the streamlining issue could be important to that person 
as well. Because I think you are hearing from a lot of members 
that there is a lot of concern about that.
    Secretary Mineta. Sounds like I am going to have to tatoo 
``environmental streamlining'' on my forehead.
    Senator Smith. I would ask another question. Let me first 
of all say I think I understand what your view is because your 
budget reflects it, but in your highlights, your innovative 
financing program, this year's innovative financing provides 
$123 million which we think can leverage up to $2.5 billion in 
Federal credit assistance for maybe $7 billion or so in 
infrastructure investments. I believe that innovative financing 
kind of gets us out of the box a little bit, breaks the mold, 
if you will. I commend you for that and I hope that we can move 
forward to do more creativeness, if you will, in innovative 
financing and getting the private sector involved in some of 
these matters.
    Secretary Mineta. Absolutely, the public-private financing. 
And you folks were very instrumental in terms of TIFIA 
financing, Garvey bonds, other kinds----
    Senator Smith. Tax exempt bonds, right.
    Secretary Mineta. Tax exempt bonds, other kinds of 
financing mechanisms. And, again, we will keep exploring them. 
The big thing is this whole issue of public-private 
partnerships and trying to make sure that is encouraged.
    Senator Smith. I see my colleague, Senator Warner, has 
arrived. Senator Warner, myself, and Senator Inhofe are 
juggling back and forth. We have the Service nominees for the 
Army, Navy, Air Force, and so we have been going back and 
forth. So I apologize, I am going to go back to the committee 
where Senator Warner just came from.
    Secretary Mineta. No problem.
    Senator Smith. At this point, I will yield to Senator 
Warner.
    Secretary Mineta. Mr. Chairman, I am also very proud to be 
a Service Secretary. I am Secretary for the Coast Guard.
    Senator Smith. That is right. That is exactly right.

           OPENING STATEMENT OF HON. JOHN W. WARNER, 
         U.S. SENATOR FROM THE COMMONWEALTH OF VIRGINIA

    Senator Warner [assuming the chair]. You know, Chairman 
Smith, I am also serving on this panel looking at terrorism. We 
had our distinguished former colleague and now Secretary before 
us and he brought that up. I think it is the first time in the 
23 years that I have been in the Senate that I have ever heard 
anybody say that.
    Secretary Mineta. Well, I am proud to be Secretary for the 
Coast Guard, sir.
    Senator Warner. Well, repeat it over and over again. I like 
that. And I think the men and the women of the United States 
Coast Guard appreciate that. They are always sort of struggling 
and there is a lot of competition between the Services of our 
great Nation, as it should be. But anyway, let me go to the 
matters at hand here.
    I was privileged some years ago, each of us in Congress has 
a little apogee now and then, but I was at the right place at 
the right time to be chairman of this subcommittee which you 
are appearing before today when we enacted the 1995 and 1998 
highway bills. And now we are up for reauthorization here 
probably in 2003. But we as a committee have to bring to the 
attention of our Secretaries of Transportation--and incidently, 
you know, 60 percent of your budget comes through this 
committee, pretty substantial part of your budget--we have to 
bring to their attention the requirements of the Administration 
to fulfill certain commitments by law which are in those 
legislations.
    For example, one of the most significant achievements of 
TEA-21 was fulfilling the promise that gas taxes consumers pay 
at the gas pump will be used to maintain and expand our network 
of highways. At this time, with 2 years remaining on the 
authorization of TEA-21, our first priority must be to ensure 
that this important legislation is implemented. While there may 
be some good ideas out there for new spending from time to 
time, they must be considered during the comprehensive 
reauthorization of TEA-21.
    I want you to sort of check the balance sheets and make 
sure that all of that money is not harbored. I know how we work 
it in the accounting of the Government to offset deficits and 
so forth. But it is law, it comes in at the gas pump, into the 
Highway Trust Fund, and it is supposed to go out. One of the 
landmark decisions we made was to eliminate the donee/donor 
disparity between the States, so that we now have a floor of 90 
cents on the dollar going back.
    I have strongly stated during past appearances, that is 
when other predecessors have been before this subcommittee, the 
President's budget is not totally--and I say this 
respectfully--consistent with TEA-21. We have your commitment 
here this morning to go back and examine that. I would 
appreciate it if you would provide for the record your response 
as to agreement or nonconcurrence with my observation.
    [The prepared statement of Senator Warner follows:]
        Statement of Hon. John W. Warner, U.S. Senator from the 
                        Commonwealth of Virginia
    I wish to join with other members in welcoming Secretary Mineta to 
the committee. This is your first appearance before the committee, but 
I hope you will make it a practice to come before the committee 
regularly and call on us whenever we can work with you.
    Mr. Secretary, I was privileged to be chairman of this subcommittee 
for 5 years, during which time we enacted the National Highway System 
Designation Act in 1995 and TEA-21 in 1998.
    One of the most significant achievements of TEA-21 was fulfilling 
the promise that gas taxes consumers pay at the gap pump will be used 
to maintain and expand our network of highways.
    At this time, with 2 years remaining on the authorization of TEA-
21, our first priority must be to ensure that this important 
legislation is implemented. While there may be many good ideas out 
there for new spending programs, they must be considered during the 
comprehensive reauthorization of TEA-21.
    So, Mr. Secretary, as I have strongly stated during past 
appearances by your predecessors, the President's budget is contrary to 
TEA-21, and I don't believe this is a wise course of action.
    The President's budget proposes to spending Highway Trust Fund 
dollars on programs not authorized by this committee. It proposes to 
spending Highway Trust Fund dollars on special programs, that may have 
value, but they have not been considered during the authorization 
process.
    The overall result of your budget proposal will be to reduce 
critically needed transportation dollars to our States to fund these 
new programs.
    If we begin opening up TEA-21 now, in a piecemeal fashion, I am 
concerned that the traveling public will suffer, that safety on our 
highways will suffer, and that our States struggling to come to grips 
with severe traffic congestion will suffer by changing the rules in the 
middle of the game.
    Mr. Secretary, I share these views with you and want you to know 
that I am looking forward to working with you to develop the new 
authorization bill in 2003. We should not, however, make major changes 
now without consideration to all of the needs of our transportation 
network.
    Mr. Secretary, traffic congestion remains a complex problem for 
most urban communities resulting in lost time and productivity in the 
workplace, increased air pollution, and less time for people to spend 
with their families.
    The metropolitan Washington region, regrettably, is well-known for 
the many problems resulting from this gridlock.
    There are many important transportation projects on the drawing 
board that will make a difference in reducing congestion--the new 
Wilson Bridge, Metrorail to Tysons and rail to Dulles, extension of the 
HOV network, and others.
    The problem is that these projects won't happen overnight while our 
congestion is worsening. The only thing we can do now is to provide 
incentives to increase transit ridership and telecommuting.

    Secretary Mineta. Well, first of all, let me respond to you 
in writing. There are variations from TEA-21, admittedly. As 
you have indicated, the President's budget fully guarantees the 
funding under TEA-21 for the Highway program as well as for 
transit. But to the extent that we are using some of the RABA 
funds for other things, like compliance with the ruling of the 
NAFTA arbitration panel that has ruled now that we have to 
comply with NAFTA and open up the southern border, and to that 
extent, we are using some of the RABA funds for infrastructure 
needs for increasing the number of motor carrier safety 
inspectors for the opening up of the border.
    The President met with President Fox earlier this year on 
March 22, it was our team from DOT, in conjunction with the 
U.S. Trade Representative, that met with the Mexican officials 
and set out a schedule for how to open up the border on the 
first of January 2002.
    Senator Warner. I think you and I will have a very friendly 
but very thorough dialog on this, because I find in the 
President's program that Highway Trust Fund dollars are being 
spent on programs that have not been authorized by this 
committee. That is a fairly blunt factual statement, which you 
may address and come back to me on.
    [The information to be provided follows:]

    I believe firmly in the principle of honoring the provision of TEA-
21--primarily to provide for the highway and transit preservation and 
capacity increases we so badly need. However, the President's budget 
does request that Congress make minor realignments to meet newly 
emerging needs, such as meeting our obligations under the North 
American Free Trade Agreement (NAFTA) to open our southern border to 
commercial vehicle traffic, under a comprehensive safety regime, 
beginning in January 2002. I would also note the significance to 
disable Americans of the President's New Freedom Initiative proposal. 
Taken together, the increases would enable the Administration to 
fulfill its commitments to increasing transportation safety, including 
border-crossing safety, and improving the efficiency of our existing 
infrastructure. The Department stands ready to work with the committee 
to adequately fund the initiatives in question.
    Under the President's budget, the amount of fiscal year 2002 
obligation limitation distributed to the States would be about $427 
million less than what would be received under a TEA-21 distribution 
without the proposed modifications. This difference is attributable to 
providing additional funding for the following initiatives: New Freedom 
Initiative ($145 million); Border Infrastructure Improvements ($56.3 
million); additional funding for the National Corridor Planning and 
Development and the Coordinated Border Infrastructure Programs ($30 
million); planning and technology research and deployment and 
initiatives critical to safety and infrastructure improvements ($25 
million); additional funds for Federal Motor Carrier Safety 
Administration (FMCSA) operations and research ($45.6 million); full 
funding of research and technology programs within the Federal-aid 
obligation limitation ($39.1 million); and the net of adjustments for 
differences between outlay rates for FHWA and FMCSA ($108 million) and 
changes in the pro rata share computations resulting from the 
initiatives listed above (an increase in obligation authority of $21.8 
million).

    Secretary Mineta. Right. That is right.
    Senator Warner. This budget proposes to spend Highway Trust 
Fund dollars on special programs that may have great value, Mr. 
Secretary, but they have not been considered during the 
authorization process by the Congress. So having been 
privileged to serve in this body, I think you understand the 
concern that we have as a co-equal branch of government and our 
responsibilities.
    The overall result of your budget proposal will be to 
reduce critically needed transportation dollars to the 50 
States. That is, again, a very blunt observation, but I do make 
it. If we begin opening up TEA-21 now in a piecemeal fashion, I 
am concerned that the traveling public will suffer, that safety 
on our highways may well suffer, and that our States struggling 
to come to grips with severe congestion on our highways, 
particularly in the region which I am privileged to represent 
in northern Virginia, will suffer likewise.
    Now I share your views in many ways. And I share these 
views with you most respectfully. And we will respond to the 
submission I am asking you to make for the record today to take 
me on, if you desire. I could not imagine a more desirable 
person to wrestle with in the public before the press than you. 
We will just have a grand struggle right out there on this 
subject, particularly as summer comes on and highways get 
congested and the pollution goes up. We will have at it.
    [Laughter.]
    Senator Warner. Now let's address this Metropolitan 
Washington Region, because we have really got gridlock second 
to none here. There are many important transportation projects 
on the drawing board that will make a difference in the future 
in reducing that congestion. Foremost among them, the new 
Wilson Bridge, Metro/rail to Tyson's Corner, and rail/bus 
service to Dulles, the extension of the HOV network, and so 
forth. I will be working with you in the years to come on that. 
But all this takes time. Right now, today, that congestion 
exists and the responsibility devolves upon you and me and 
others to see what we can do with interim measures to 
alleviate, if only in small ways, this congestion.
    So I bring to your attention two things. Your Department is 
commended for being a leader among the Federal agencies and 
departments in the promotion of the Transit Benefits Program. 
Others are lagging behind that sector. I would like to call to 
your attention and urge your active involvement in ensuring 
that the Department complies with the current Federal law on 
telecommuting. This year agencies are mandated to allow up to 
25 percent of eligible workers to telecommute. And you are 
thoroughly familiar with that.
    Secretary Mineta. It seems to be working.
    Senator Warner. As far as we know, the employees are not 
abusing that. They are grateful to have that added time off the 
highways. Hopefully, that time can be devoted to their families 
and other needs to maintain lifestyle.
    Since the Department decides which positions are eligible 
for telecommuting, I urge you to allow those Federal employees 
interested to do so to the extent you possibly can do it. 
Recent studies have shown that workers who telecommute 
occasionally show increased productivity. I believe it is also 
good for retention of the Federal work force. And that is an 
aging work force and on the rise. I do not know whether or not 
we have the assurance that the high quality of young people 
coming in can match the high quality of people that we have 
today. Further, a study by George Mason University contends 
that for every 1 percent of the work force that telecommutes 
there is a 10 percent reduction in traffic. Now that is quite a 
statistic, but there it is. And that is a distinguished 
educational institution in our State.
    Can you give us some thoughts on telecommuting from the 
experience you have had in the brief time you have been there 
in your Department and how you might encourage your fellow 
department heads, secretaries to do likewise in their 
departments.
    Secretary Mineta. Senator Warner, probably the biggest 
direct experience I had on that issue was at the time of the 
Northridge earthquake in southern California. I remember where 
I-5 and State Route 14 joined, that structure had come down. 
And so we did two things at that time. One is, we put a 
temporary rail line up into Palm Dale and Los Angeles. The 
other was to set up a number of telecommuting centers. There 
was no question that it had an impact on the amount of traffic 
on the road.
    In our Department, we have a lot of people across the 
country, whether they be Federal Highway Administration, 
Federal Railway Administration, people who are doing work out 
of their homes, away from their offices because of the nature 
of their responsibilities. So we are working at this issue of 
telecommuting. We are going to be bringing more attention to 
this on a departmental basis in order to utilize telecommuting 
in urban centers where the gridlock is a lot more apparent than 
it would be, let's say, in Resume Speed, IA. So we want to 
utilize telecommuting as an alternative to commuting to a 
workplace to do their work.
    Senator Warner. That is very interesting. So that, in your 
judgment, is a proven system?
    Secretary Mineta. We are using it right now, and we intend 
to expand on its use.
    Senator Warner. We also have programs whereby employees in 
the Federal Government can get some compensation if they resort 
to carpooling and/or public transportation. Are you a supporter 
for those concepts?
    Secretary Mineta. In fact, we are going from the $65 a 
month to $100. We are increasing the amount that is available 
under law to our employees from the present level.
    Senator Warner. Well, again, many of those initiatives have 
come from this committee. We will keep working with you. I hope 
you can come up with some short-term initiatives to help 
alleviate this.
    Secretary Mineta. These are areas in which there is no 
silver bullet. For every community, there is a different 
approach. There is no cookie-cutter approach to trying to deal 
with transportation problems. Los Angeles is such a relatively 
low density population center that extending light rail or 
subways there would not have the same impact as it does here or 
other regions of the country where you have higher densities 
and you have concentrated movements of corridors of travel. I 
think maybe in the San Francisco Bay area, again, you can 
identify certain corridors. But there are some places in the 
country where you have a lot of traffic, gridlock, but a cookie 
cutter approach will not answer the question.
    Senator Warner. I return to my observation about my view 
that there is a disparity between your budget and the 
requirements under law on the TEA-21.
    Secretary Mineta. Admittedly, as I said, Mr. Chairman.
    Senator Warner. Right. We understand that.
    Secretary Mineta. The $427 million I know is a deviation 
from TEA-21 requirements.
    Senator Warner. We have, fortunately, in this committee a 
chairman and a ranking member and others who have spent a lot 
of years on the committee and have a good deal of a corporate 
knowledge of transportation issues. And those were landmark 
pieces of legislation. As such, they could be a deficiency 
which you feel has to be addressed now. Now I defer to my 
chairman and ranking member here, but if there were one or two, 
if somehow we could package it up and not have it be viewed as 
encroaching on the reauthorization of the highway bill in the 
years to come, perhaps we might look at a quick legislative 
fix. Maybe I am being a little presumptuous. When we did TEA-21 
we did our best. But as you well know having served in the 
Congress, sometimes our best in the years to come is disproven 
by facts and experience. So take a look at it, counsel the 
chairman and ranking member.
    Secretary Mineta. I will. For instance, one of the 
initiatives that the President has embarked on this year is 
what is referred to as the New Freedom Initiative in order to 
be able to give more transportation mobility options to those 
who are covered under the Americans with Disabilities Act. So, 
again, recognizing that there are $427 million in deviations 
from TEA-21, $145 million of that was for the New Freedom 
Initiative.
    I recognize, having been chairman of an authorizing 
committee, I recognize the prerogative that comes with that 
responsibility.
    Senator Warner. Well, we are fortunate on this committee to 
have had the wisdom of a marvelous Senator John Chafee, whose 
son proudly serves here today, and pushed entire new frontiers. 
And he would be the first to say that we put them into law and 
if somehow they are not working well, let's try a new frontier. 
But we should never stand still in our efforts to work as a 
Congress with a President to improve the transportation for our 
citizens.
    And I conclude with one other observation which relates to 
the civil aviation side. I have the highest respect for Dan 
Golden and what he has done. He is a man of remarkable 
enthusiasm and vision, drive. But he and I have had an ongoing 
debate for several years about the reduction of funding in the 
NASA budget which is applied toward NASA's area of 
responsibility for civil aviation.
    It is very significant, Mr. Secretary, how the space 
activity somehow I think has kept on going; indeed, I support 
space. But if we cannot do our jobs every day here at home and 
do them in a more efficient manner and maintain some quality of 
life, all of which are being attacked by the congestion on 
America's highways and in the airways, then it seems to me we 
have got to go back and reevaluate have we made the proper 
allocation between this Nation's dedication to space and this 
Nation's dedication to just the every day mundane struggle to 
get to and from work, be it on surface transportation or in the 
airways.
    I would like to have you provide for the record your 
analysis of those expenditures out of the NASA budget as they 
impact in your judgment on civil aviation, primarily in the 
area of safety, and whether or not it would be wise for the 
Congress to once again consider that allocation and give more 
emphasis to the requirements today of civil aviation. Now this 
is not a popular subject. But I have never sat around here 
trying to be popular. Mr. Golden and I have had a very 
respectful dialog as recently as just a few weeks ago when he 
was before the Commerce Committee on this very, very point. 
Because I am concerned as I visit and utilize these airports 
and listen to my constituents. We have two major airports for 
America serving the Nation's Capital, and I keep abreast of 
those problems.
    [The information to be provided follows:]

    The U.S. Department of Transportation is heavily engaged with NASA 
in the joint planning, funding, and execution of aviation research 
programs in such diverse areas as advanced air traffic management 
systems, aircraft noise and emission reduction, aircraft structural 
safety, atmospheric hazards to flight, and aviation human factors. 
Decreased aeronautics funding has caused individual NASA programs to 
take longer to develop and to be concluded at reduced levels of 
technical maturity. Effectively this has resulted in the Department and 
industry funding the final stages of development. We have long been 
aware of the reduced funding at NASA and have planned accordingly, with 
the result that the attainment of the Department's Strategic Goals are 
not at risk.

    Senator Warner. So I thank you. And I thank you again for 
continuing public service. You have a remarkable career and you 
bring to bear on this office, as you have on previous offices, 
a wealth of experience and leadership. Welcome.
    Secretary Mineta. Thank you very much, Senator Warner. 
Having served on the Science Committee on the House side, I am 
very well aware of that. I remember when I used to talk to Dan 
Golden about that same subject matter. He used to always say 
that the ``A'' in NASA was very important. But after I left 
Congress and I was with a private company, I would go back to 
Dan and say that what is happening in aeronautics, because of 
the fact that he had to keep putting money into the shuttle and 
the International Space Station, it was draining money away 
from aeronautics.
    Senator Warner. That is it.
    Secretary Mineta. And I said that if this continued, Lewis 
Center, Langley, and Ames were going to get shut down because 
the aeronautics budget was going down. Now just recently, in 
terms of preparation for my testimony before the Transportation 
Appropriations Subcommittee, I took a look at the FAA-NASA 
relationship on aviation research. It has gone down 
tremendously. So that in terms of not only NASA's share, but 
even our share at FAA on research and development has gone 
down. I think, as I recall the figure now, I think we are----
    Senator Warner. About 40 percent.
    Secretary Mineta. I was going to say at less than 50 
percent of where we were on the whole research budget. So when 
it comes to aviation noise or other kinds of considerations, we 
are really eating into the future prospects. But the only 
problem is that those decisions get made at a higher pay grade.
    Senator Warner. Oh, now do not beg off on that. You are now 
the Secretary of Transportation.
    Secretary Mineta. Yes, sir, but I am still staff.
    Senator Warner. Do not use that anymore. You are at the 
table.
    Secretary Mineta. I am at the table, without a doubt.
    Senator Warner. We may be a co-equal body but we are lowly 
535. You are but one. You know the subject and I am so 
heartened by what you tell me. Here is an aviator right over 
here. I was talking about the disparity and the declining 
budget in NASA toward civil aviation. I said to my friend Dan 
Golden the other day in the Commerce Committee that the burden 
of proof is on you to show that those reductions have not 
contributed to the worsening situation that we see every day in 
civil aviation, the congestion at the airports and all other 
types of things. He respectfully accepted the question.
    Secretary Mineta. I am very proud to be the Secretary of 
the Department of Transportation. But I am only staff to the 
President of the United States.
    Senator Warner. I am not going to accept that, not from a 
strong man like you.
    [Laughter.]
    Senator Warner. I thank you, Mr. Chairman, and the witness.
    Senator Inhofe [resuming the chair]. Thank you, Senator 
Warner.
    We will now excuse the first panel. We have a vote in 
progress. I do not know whether you know that, Senator Warner, 
there is a vote taking place right now. There is 10 minutes 
left. So what we are going to do is excuse this panel. It will 
take about 5 minutes to go vote. There is only one vote, so we 
will be right back.
    And, again, Norm, I am looking forward to working with you.
    Secretary Mineta. Absolutely. Thank you, Mr. Chairman.
    [Recess.]
    Senator Inhofe. The hearing will come to order.
    Welcome, Administrator Davis and Judge Roth. I note, Mr. 
Davis, you are accompanied by Mr. Jenkins.
    Let's start with you, Judge Roth, for opening remarks, and 
then Administrator Davis. Ladies first.

 STATEMENT OF HON. JANE R. ROTH, JUDGE, U.S. COURT OF APPEALS 
             FOR THE THIRD CIRCUIT, WASHINGTON, DC

    Judge Roth. Thank you, Senator. Senator Inhofe, on behalf 
of the entire judiciary, I would like to express our 
appreciation for the authorizations of courthouse projects that 
this subcommittee recommended and the full committee approved 
last year.
    For fiscal year 2002, President Bush's budget request 
includes $216.8 million for courthouse construction projects, 
and $130.3 million for court-related repair and alterations 
projects. The subcommittee's letter to the White House in 
support of funding for courthouse construction was very helpful 
in achieving this result.
    The Committee on Environment and Public Works has 
previously provided authorizations for 11 of the 12 courthouse 
projects in the President's budget request. Some of these 
projects are on the judiciary's prioritized list for fiscal 
year 2002 and some are from previous years and may need to have 
their authorizations increased for inflation.
    The Judicial Conference has, however, proposed 9 new 
projects for fiscal year 2002 that were not in the President's 
budget request, for a total of 20 project at a total cost of 
approximately $665 million. These additional projects are 
sorely needed. They include: Rockford, IL; Cedar Rapids, IA; 
Nashville, TN; Savannah, GA; Fort Pierce, FL; Jackson, MS; 
Austin, TX; San Diego, CA; and San Jose, CA. The Senate has 
already provided authorizations for four of these projects, 
although these resolutions may need to be increased due to 
inflation. In past years, the committee has requested that GSA 
provide written information on projects that were not included 
in the President's budget. We urge the subcommittee to make a 
similar request this year. I have attached a chart to this 
statement that summarizes the judiciary's fiscal year 2002 plan 
and the President's budget request. We have also provided the 
subcommittee staff with a fact sheet on each courthouse project 
that describes the current situation and the need for the 
project.
    We understand from GSA that three of the 20 projects might 
be delayed until next year due to circumstances beyond the 
judiciary's or GSA's control. GSA tells us that the delay of 
these three projects will bring the total cost from $665 
million down to $480 million. These projects, in Salt Lake 
City, UT; Cape Girardeau, MO; and Orlando, FL, could be 
authorized in a future year. Two other projects, Eugene, OR and 
Little Rock, AR, are not ready for construction funding as 
anticipated, but do need site and/or design money this year.
    The Judicial Conference also supports construction of a 
Federal office building in Atlanta, GA, to house the Court of 
Appeals staff and potentially other Federal agencies.
    The judiciary does not agree with OMB's unilateral decision 
to eliminate small amounts of space that the judiciary needs 
due to special requirements in some courts. Shortsightedly 
making these courthouses smaller than needed will only 
necessitate the judiciary returning to Congress to request 
additions to relatively new courthouses at greater expense to 
taxpayers. We hope you will authorize the projects based on the 
requirements submitted by the courts. Details of these changes 
will be provided to the subcommittee staff.
    An example of the problems caused when a facility is built 
smaller than needed is the Brooklyn, NY courthouse annex. 
Additional funding is needed to build out a total of eight 
courtrooms and eight chambers in the annex as planned and 
authorized to accommodate the judges who will be working when 
the annex opens and to permit the planned renovation of the 
existing courthouse. The judiciary urges the subcommittee to 
ensure that GSA constructs the necessary space. If this is not 
done, the new building will be full on the day it opens, and 
indeed the entire complex may not be able to accommodate the 
court when the annex opens. In our view, responsible planning 
and responsible spending justifies further action by the 
subcommittee to complete this important project. I will submit 
for the record a separate statement by Judge Raymond Dearie of 
the Eastern District of New York--Judge Dearie is in the 
hearing room with us today--that elaborates on the serious 
housing problem that will be created if GSA does not build 
enough space in Brooklyn.
    In my statement, I have discussed how the judiciary over 
the past decade has embarked on a number of programs to ensure 
that courthouses are built only where needed to replace 
facilities that are full to capacity and often aged, obsolete, 
and lacking in security. Our long-range planning efforts, 
prioritization of projects, and design guidelines have ensured 
that our projects are needed, are functional, and are 
economical.
    But let me close by noting that the workload of the Federal 
courts continues to increase, necessitating additional judges 
and court staff. In the last 10 years, criminal cases have 
increased 32 percent, civil cases 20 percent, and bankruptcy 
filings 68 percent. Congress provided 9 new Federal district 
judgeships in fiscal year 2000 and 10 more in 2001. The 
Judicial Conference of the United States is currently 
requesting that 54 more Article III judgeships be created. The 
judiciary's problems are particularly acute along the southwest 
border, where drug and immigration enforcement efforts have 
caused the workload to more than double and where proximity to 
the Mexican border magnifies security risks. Three of the 
twenty courthouse projects requested for fiscal year 2002 are 
located along the southwest border.
    In conclusion, the judiciary asks that you authorize, in 
accordance with the judiciary's stated needs, the new 
courthouse projects on the attached list that have not already 
been authorized or that need their authorizations increased.
    Thank you for the opportunity to testify before the 
subcommittee. I will be happy to take any questions.
    Senator Inhofe. Thank you, Judge Roth.
    Administrator Davis.

STATEMENT OF THURMAN DAVIS, SR., ACTING ADMINISTRATOR, GENERAL 
SERVICES ADMINISTRATION; ACCOMPANIED BY WILLIAM JENKINS, ACTING 
    DEPUTY ADMINISTRATOR, PUBLIC BUILDINGS SERVICE, GENERAL 
                    SERVICES ADMINISTRATION

    Mr. Davis. Thank you, Mr. Chairman. We have submitted a 
complete statement for the record, so I will summarize if I 
may.
    Senator Inhofe. That would be great.
    Mr. Davis. In the Public Buildings Service, our Capital 
Investment and Leasing Program plays a key role in providing 
the necessary resources to maintain current real property 
assets and acquire new replacement assets. The capital programs 
support several portfolio objectives: maximizing Federal 
Buildings Fund income, minimizing the drain on unproductive 
assets, preserving the historic and cultural assets placed in 
GSA's trust, and managing other diverse responsibilities 
integral to the management of the Nation's largest real estate 
portfolio. All proposed projects are evaluated in the context 
of the entire national portfolio. We consider three options 
when evaluating our client Agencys' requirements. These 
include: construction and acquisition of new facilities, repair 
and alteration of existing facilities, or leasing space from 
the private sector.
    Our first capital program priority is the repair and 
alteration of our existing inventory to ensure that its value 
and condition does not decline. More than 43 percent of our own 
buildings are over 50 years old and 51 percent are between the 
ages of 21 and 50 years old. We are requesting a Repairs and 
Alterations program this year of $826.7 million for an 
increased emphasis on the overall maintenance and viability of 
these assets. The highlights of GSA's fiscal year 2002 program 
include: $370 million for the basic program; $400.8 million for 
the construction phase of the Modernization and Alterations 
program. Our annual Repairs and Alterations program is 
approximately 2.5 percent of the inventory's replacement value, 
which is roughly about $33 billion. That falls within the range 
of a 2 to 4 percent of the private sector's practices.
    To allocate the limited resources of the Federal Buildings 
Fund for Repair and Alterations, we evaluate and rank our 
proposals based on economic justifications, project timing and 
execution, physical urgency, client/Agency needs, and 
historical significance. By applying these criteria to our 
decisionmaking process, we prioritize our major repair and 
alteration projects and ensure that the most important projects 
in our national portfolio are funded.
    We are requesting a Construction and Acquisition of 
Facilities program this year of $663 million. This includes: 
$216.8 million for 12 Federal judiciary projects; $276.4 
million advance appropriations approved in the fiscal year 2001 
Appropriations Act for 4 Federal judiciary projects; $17.339 
million for design and construction of six border stations; $34 
million for the construction of the National Oceanic and 
Atmospheric Administration facility out in Suitland, MD; $4.6 
million for the U.S. Mission to the United Nations; and $2.8 
million for the U.S. Census Bureau facility out in Suitland, 
MD.
    We recommend new construction where it meets the new 
housing needs of specific Federal agencies or to consolidate 
several dispersed agencies with economically feasible long-term 
needs in a given location. PBS traditionally pursues 
construction and ownership solutions for special purpose and 
unique facilities, such as border stations and courthouses, 
which are not readily available in the real estate market.
    This concludes our opening remarks. We would be pleased to 
take your questions.
    Senator Chafee [assuming the chair]. Thank you very much, 
sir. I am taking over the gavel for the time being. Thank you 
for your patience all morning and enduring the recess. I will 
be reading your testimony at the appropriate time. And if there 
are any questions from the members, they will submit them in 
writing.
    So, since I just arrived, who is next?
    Judge Roth.
    Judge Roth. I have already gone.
    Senator Chafee. Thank you.
    Mr. Davis. We all have spoken. So we have made all of our 
opening remarks already.
    Senator Chafee. Everybody has given their testimony?
    Mr. Davis. Yes, sir.
    Senator Chafee. Thank you very much. Spend your money 
wisely.
    Mr. Davis. OK. Thank you.
    Senator Chafee. Thank you very much.
    With that, we will conclude the hearing.
    [Whereupon, at 12:08 p.m., the subcommittee adjourned, to 
reconvene at the call of the chair.]
    [Additional statements submitted for the record follow:]
    Statement of Hon. Norman Y. Mineta, Secretary of Transportation
    Mr. Chairman, members of the subcommittee, it is a great pleasure 
to appear before you today and to have the opportunity to work with you 
on the challenges that face our Nation's transportation system.
    Transportation is key to our Nation's well-being, whether measured 
as economic growth, as international competitiveness, or as quality of 
life. Three decades ago, when I was Mayor of San Jose, CA, I learned 
that the tool that made the most difference in my community was 
transportation. Nothing else had as great an impact on our economic 
development, on the pattern of growth, or on the quality of life. What 
I have found in the years since is that this is true not just locally, 
but also nationally. A safe and efficient transportation system is 
essential to keeping people and goods moving and cities and communities 
prosperous. Congestion and delay not only waste our time as 
individuals, they also burden our businesses and our entire economy 
with inefficiency and higher costs. The bottom line is that 
transportation is pivotal in generating and enabling economic growth, 
in determining the patterns of that growth, and in determining the 
competitiveness of our businesses in the world economy. Transportation 
is vital to the productivity and, therefore, the success of virtually 
every business in America.
    As a whole, the multi-modal transportation system of this Nation 
works well in maintaining the strong economic performance of the United 
States and, more broadly, world commerce. This committee and the rest 
of Congress deserve a great deal of the credit for this sustained good 
performance. Congressional enactment of TEA-21 and AIR-21 put in place 
levels of capital investment that will be important in improving safety 
and relieving congestion across the board. The Bush Administration is 
requesting full funding of the guaranteed levels for surface 
transportation and the authorized capital and operating levels for air 
transportation, as part of the President's 2002 budget, and we look 
forward to working with Congress to enact these levels.
    Still, we can, and must, do more. We must strengthen our commitment 
to keeping safety our paramount concern, particularly at a time when 
the national focus is on system efficiency, while trying to squeeze 
additional capacity from the system wherever possible. Safety must 
always be our highest priority in transportation.
    The most fundamental challenge we face--and the most daunting--is 
not just increasing safety, reducing congestion, or modernizing the 
aviation system. These are enormous challenges, to be sure, but our 
biggest challenge is to get everyone working together in a spirit of 
partnership to solve these problems. We all created these problems, and 
together we can solve them. So, as Secretary, I intend to devote the 
bulk of my energies to working across party lines, reaching across 
divides, and building consensus to achieve solutions. Working together 
we can ensure the safety of the traveling public and manage the gap 
between the demand for transportation and the capacity of the 
transportation infrastructure.
                                 safety
    The United States has an enviable transportation safety record. We 
lead the world in safety in many modes of transportation--but we must 
constantly search for improvement. Working together we can and will 
improve this record. Safety is the Administration's highest priority in 
transportation. Our 2002 budget includes $7.3 billion for 
transportation safety programs, 7.5 percent above 2001. Continued and 
increased investments in highway safety, aviation safety, rail safety, 
motor carrier safety, pipeline safety, and hazardous materials safety 
are necessary and critical to the future success of our transportation 
system as a whole.
    Despite significant improvements over the past three decades, 
traffic crashes continue to represent a leading public health problem. 
Our highways claim more lives than any other mode of transportation. 
Although the number of highway fatalities in recent years has been held 
relatively flat, despite significantly rising numbers of vehicles on 
our roads, preliminary data for 2000 reveals that the number of highway 
fatalities increased slightly while the number of vehicle-miles 
traveled remained essentially the same. And this occurred even though 
seat belt use rose to a record high 71 percent. Over the coming year, 
the Department will review our motor vehicle safety efforts, with 
emphasis on identifying the most effective means to provide the public 
with the greatest possible safety improvement for each dollar spent. 
Highway safety improvements are critical to reducing these fatalities. 
Success will depend on a balanced approach that addresses the 
behavioral, vehicular, and roadway infrastructure and operations safety 
problems and opportunities.
    Within DOT, we are pursuing a multi-faceted agenda to improve 
transportation safety that encompasses legislation, common-sense 
regulations, driver behavior programs, enhanced law enforcement, and 
infrastructure-based solutions. But safe transportation is a shared 
responsibility. The Federal Government is but one player. To succeed in 
addressing the safety issue, a combination of improved education, 
enforcement, engineering, and emergency services is needed. The Federal 
Government must take an active leadership role; the Department must 
take an active leadership role. I take this responsibility very 
seriously. I believe that, working with State and local governments, 
public interest groups, industry, and private citizens, together we can 
meet this challenge.
    The Administration's fiscal year 2002 budget request provides full 
funding for highways and highway safety programs at the level 
guaranteed under the Transportation Equity Act for the 21st Century 
(TEA-21)--$32 billion. This is an increase of $2 billion above the 
fiscal year 2001 enacted level. The increased resources will allow us 
to maintain our high-quality highway network, while achieving our goal 
of improving safety.
    The fiscal year 2002 budget also proposes that highway research and 
technology programs be excluded from the proportionate obligation 
limitation reduction, so that all contract authority provided by TEA-21 
will be available for use. The Department will conduct appropriate 
research and development programs that underpin behavioral, vehicular, 
and roadway safety. The increased research and technology resources 
will be used to carry out a comprehensive program aimed at reducing 
fatalities and injuries through providing new technologies and tools to 
highway agencies. Our efforts are focused on the types of crashes 
considered high-priority, because of number and severity. These include 
run-off-road, speed-related, intersection-related, and crashes 
involving pedestrians and bicyclists.
    The roadway can be designed, built, and operated in such a way as 
to reduce the number and severity of crashes. The Interstate highway 
system, one of the safest roadways in the world, is an excellent 
example of safety by design. We will continue to work with the State 
and local highway engineers, and with the consulting and construction 
industries to provide guidance on ways to make the highway system 
safer. We all have a vested interest in creating a safer, more 
efficient, transportation system for the American people.
    As you know, Intelligent Transportation Systems (ITS) offers a 
unique opportunity for greater public safety and it can enhance the 
capacity of our emergency response system to save lives. For example, 
we all know that telecommunications companies are working to improve 
emergency notification systems--specifically wireless E-911--and we are 
supporting this important work. We need a comprehensive end-to-end 
system of emergency notification and response. The system should 
automatically route emergency calls to the closest public safety 
answering point and inform the dispatcher of the caller's location, 
provide data about the severity of the crash, and notify the necessary 
responders, as well as communicate this information to traffic 
management centers. Such a system will also enable the judicious use of 
emergency resources by responding with only that equipment necessary 
for managing a crash. Further, a comprehensive emergency response 
system will not only help to save lives at the time of a crash, but 
also help to prevent other crashes in the future by providing data that 
will allow us to build safer cars and roadways.
    Although great progress has been made recently in increasing the 
safety at highway-rail crossings, the Department is involved in 
developing technology and procedures to continue that trend. Several 
Department projects are being conducted that look at ITS as a means to 
improve safety and mobility at highway-rail grade crossings. For 
example, ITS technology is being developed to determine when an 
obstruction is on the crossing and make that information available to 
the engineer so he can take the proper action. With the recent 
designation of high-speed rail corridors, more sophisticated warning 
systems will be required for crossings on those routes.
    The intelligent vehicle initiative (IVI) is aimed at preventing 
crashes by fostering the introduction of driver assistance safety 
products. This program will increase traffic safety by expediting the 
commercial availability of advanced vehicle control and safety systems 
that may be augmented by interaction with the infrastructure. In order 
to achieve this, the Department must ensure that safety is not 
compromised by the introduction of in-vehicle systems. A particular 
interest for the IVI is the safety impact of combining multiple 
systems, such as route guidance and navigation, adaptive cruise 
control, cellular telephones, and in-vehicle computers. We will 
investigate the impact that these systems may have on driver behavior 
by measuring any changes in the level of driver workload and 
distraction.
    The second part of the Federal role in IVI, addresses our 
responsibility for reducing deaths, injuries and economic losses 
resulting from motor vehicle crashes. This role, which is a cornerstone 
of the Department's mission, will be carried out by facilitating the 
development, deployment, and evaluation of driver-assistance safety 
products and systems aimed at reducing rear end, rollover, and run-off-
road crashes.
    The President's 2002 budget also includes $400 million, 49 percent 
above 2001, for motor carrier safety, with a total of $100 million, $88 
million above 2001, devoted to enforcement and infrastructure needs on 
our southern border. This increase is essential to allowing the United 
States to honor the North American Free Trade Agreement safely and 
responsibly.
                                mobility
    When I took this job, I knew that a central challenge for the 
Department would be to address the gap between demand for 
transportation and the capacity of our transportation infrastructure. 
Even though the physical condition of our infrastructure--the highway 
and runway pavement conditions and the condition of our bridges--is 
improving, the demand for the use of that infrastructure is increasing. 
The gap between capacity and demand generates the traffic we all face 
on the highways, at our airports, and at our ports. Congestion and 
inefficiency in transportation are not just inconvenient and 
aggravating--though they certainly are that--they are also a tax that 
burdens every business and every individual. Congestion on our highways 
and delays at our airports are increasing. We have to find ways to 
lighten that burden.
    The Nation's transportation system is complex and intertwined, and 
congestion in any one mode--whether it be aviation, highways, or rail--
impacts the flow of transportation in every mode. Thus, focusing on 
highway congestion merely shifts the bottleneck to aviation, rail, or 
transit, rather than managing or eliminating it. Meeting the congestion 
challenge will require working together to develop an intermodal 
solution. We cannot focus our efforts on highway congestion or aviation 
congestion; we must focus our efforts on transportation congestion.
    I want to discuss, in particular, the congestion problems we have 
in highways. Our latest Conditions and Performance (C&P) report to 
Congress--the 1999 Status of the Nation's Highways, Bridges, and 
Transit: Conditions and Performance--projects that by 2003 highway 
capital investment by all levels of government will reach the level of 
our ``Cost to Maintain'' scenario ($56.6 billion in constant 1997 
dollars). This scenario projects the investment required to maintain 
the average physical conditions of highways and bridges at current 
levels, while still allowing for some comparably attractive investments 
in capacity expansion. The Federal-aid highways funding levels proposed 
in the President's 2002 budget, along with the projected investments of 
our State and local government partners, should put us on track to 
achieve this goal.
    While we are pleased with the progress we have made, we are 
predicting that congestion will continue to increase at current levels 
of investment. The 1999 C&P report projected that maintaining average 
travel time costs, or time lost by travelers due to delay, would 
require an additional investment of $17.1 billion annually by all 
levels of government. Reducing highway congestion will not be easy. 
Addressing this problem will require a mixture of investments by all 
levels of government to improve the operations and efficiency of our 
existing facilities and the selective addition of new capacity. To be 
effective in dealing with specific bottlenecks in the system we will 
need to be prepared to use whatever mix of improvements is most cost 
effective in each individual case.
    There isn't a day that goes by without a metropolitan newspaper or 
TV station reporting on the anger, frustration, and seeming futility of 
congestion. FHWA's Highway Statistics reports that, from 1980 to 1998, 
vehicle travel increased 72 percent while miles of public roads 
increased only 1 percent. A recent Texas Transportation Institute (TTI) 
study estimates the cost of congestion in just 68 urban areas has grown 
from $21 billion in 1982 to $78 billion in 1999 (36 hours per driver 
per year and 6.8 billion gallons of wasted fuel). This means that the 
average length of the congested period increased from about 2 to 3 
hours in 1982, to 5 or 6 hours by 1999. And this is no longer just a 
phenomenon of the big city. The average length of congested daily 
travel for small urban areas tripled between 1982 and 1999.
    A report released by the Federal Highway Administration in 
February, Moving Ahead: The American Public Speaks on Roadways and 
Transportation in Communities, further confirms the highway congestion 
problem. The report's survey results indicate that although 65 percent 
(a 15 percentage point increase since the completion of a similar 1995 
study by the National Partnership for Highway Quality) of the highway 
travelers are satisfied with the major highways they travel most often, 
there are several areas that require attention. For example, the 
traveling public wants more operational improvements to traffic flow, 
continued improvement in pavement condition, and more effective ways to 
deal with or to decrease traffic congestion in work zones.
    President Bush's budget request proposes full funding for the 
transportation capital improvements critically necessary to solving our 
capacity challenges over the long run. Highway, transit, aviation, and 
rail infrastructure investments total $42.8 billion, 39 percent above 
the average annual investment over the prior 8 years. This investment 
is not the sole answer to our capacity constraints, but it will help. 
It includes:
    <bullet> A Federal-aid highway obligation limitation of $31.6 
billion, almost 7 percent above 2001.
    <bullet> An airport grant obligation limitation of $3.3 billion, 
the level contained in AIR-21.
    <bullet> Total transit investment of $6.7 billion, almost 8 percent 
above 2001.
Improving Management of Our Resources
    While strategic expansion of our transportation system capacity is 
necessary, it is not the only answer to managing growth and congestion. 
We need to make more efficient use of our existing infrastructure. The 
search for new technological and innovative solutions to our mobility 
challenges is well supported in the 2002 budget, with investment in 
technology, research, and development proposed at $1.2 billion, 7.5 
percent above 2001. The budget includes a total of $504 million for 
highway-related research, 30 percent above 2001.
    Highways are the very backbone of our Nation's transportation 
system, and the Eisenhower Interstate Highway System did an 
extraordinary job of knitting our country together and making efficient 
nationwide highway transportation a reality both for people and for 
goods. The result was a quantum leap in the productivity and the 
competitiveness of our economy. But we are now losing that productivity 
to bottlenecks in the system, and gains made nationwide are too often 
being lost to lack of coordination among the affected parties.
    Intelligent Transportation Systems and Operations can make a 
difference in how we attack the congestion and productivity problems. 
In the past, we have developed a number of strategies to help solve 
particular operating problems. These include retiming traffic signals, 
installing ramp-metering lights, creating high occupancy vehicle (HOV) 
and high occupancy toll (HOT) lanes, and initiating various management 
activities to deal with single issue problems such as work zones, 
parking, or access. With the advent of ITS, many of these techniques 
can be used dynamically, or on the fly, to adjust to changing 
conditions. These techniques are not new. But, while they have been 
used, they were not being coordinated to reduce congestion.
    We first became aware of this when we had to deal with unique 
special events such as the Olympic Games in Los Angeles and Atlanta 
and, of course, in Salt Lake City next year. Unusual demands were 
placed on the infrastructure and transportation system. In order to 
cope with these demands, various operational groups came together in a 
truly coordinated effort to cope with these increased demands by 
forming a ``Task Force.''
    All the parts of the task force--ranging from transit, to first 
responders, to tow truck operators, to media--worked together to 
facilitate the smooth flow of vehicle traffic and pedestrians.
    This concept is being further enhanced through our efforts in 
increasing interoperability among communication systems for public 
safety and by using ITS data gathering techniques and equipment to 
provide managers with the most up-to-date information on all aspects of 
a situation as quickly as possible. The new Traffic Management Centers 
facilitate integration of the efforts of agencies such as police and 
other municipal staff to more effectively respond to transportation 
disruptions and public safety needs.
    Effective solutions to transportation bottlenecks must involve a 
high degree of local, metropolitan, and State involvement to build the 
broad spectrum of support necessary to overcome resistance and to solve 
the problem. We recognize that this cannot be a one-size-fits-all 
approach, and that the combination of solutions needed in one location 
will not be the same combination of solutions needed in another 
location.
    Every instance requires its own mix of new highway capacity, better 
management of existing capacity, Intelligent Transportation Systems, 
transit, pedestrian improvements, and so on. To be effective in dealing 
with these bottlenecks we have to be prepared to use whatever mix of 
transportation alternatives will work, and we have to take a balanced 
approach to all alternatives. We have to constantly be looking for what 
works and what is the most cost-effective solution to the problem.
    Major action is underway at the Department to tackle surface 
transportation congestion. Technology offers particular promise. 
Federal research helps build stronger roads and bridges. With new 
technologies and new, longer lasting materials that are easier to 
apply, we can ``get in, get it done, and get out.'' The safer and less 
disruptive that work zones are to the user, the better.
    We are working closely with our partners in the urbanized areas to 
develop regional architectures that will support ITS and operations 
technologies. These technologies will be key in reducing travel delay 
and improving mobility for the traveling public and the freight 
industry. The technologies include: traveler information systems, 
emergency response systems, electronic toll collection, traffic 
responsive signal systems, and state-of-the-art transportation 
management systems. The Bush Administration proposes $253 million in 
ITS initiatives for 2002, a 32 percent increase over the current year. 
The challenge now is to deploy the systems so that there is enough 
information to say something more than: ``Congestion ahead.'' Wouldn't 
it be great if, instead, that electronic sign told you: ``Take exit 34. 
Left on Main. Go 3 miles. Re-enter highway.'' Now, that is an 
intelligent transportation solution. This information would come from a 
variety of sensors and input devices, including the Global Positioning 
System (GPS), coordinated through a Traffic Management Center (TMC) 
with multi-agency participation. That must be our management goal.
    Other ways of using existing transportation facilities and services 
more effectively can also relieve congestion. High occupancy vehicle 
lanes, incentives for ridesharing, and other options are available for 
more livable transportation systems. Telecommuting offers another 
approach to reduce demand on capacity constrained highways by allowing 
employees to work at home or at centers close to home.
    One long-term strategy we are continuing to explore for highways is 
value pricing. Several States have implemented value pricing on a pilot 
basis on highways financed with the proceeds of tolls. The concept of 
assessing relatively higher prices for travel during peak congestion 
periods is the same as that used in other sectors of the economy to 
respond to peak-use demands. For example, hotel rooms cost more during 
peak tourist seasons. By using fees which vary by time-of-day and 
location of use to manage demand and reduce congestion, system 
performance is improved. It provides improved service to transportation 
users, makes more efficient use of existing transportation capacity, 
and reduces the need for future capacity expansion.
    Nonetheless, in addition to maximizing our system capacity through 
improved operations, we recognize that we must improve our capacity 
with new facilities when appropriate. We may also be able to make 
increased use of private sector roads and private funding of airport 
capacity to bridge the gap between capacity and supply. We commit 
ourselves to work with all of our partners and stakeholders in the 
other modes, the environmental community, and others when instituting 
new facilities. We are working very closely with the States, MPOs, and 
local governments to integrate land use policies with the planning 
process. These issues remain under the purview of State and local 
officials, but we can serve as a technical resource to encourage 
positive land use planning. In addition, we are committed to better 
understanding and responding to the needs of the freight community, in 
all areas of land use, transportation planning, and system operation. 
If we are to balance the mutual goals of productivity, safety, 
environment, and quality of life, we must consider both passenger and 
freight concerns in the planning and program development processes.
    I also must let you know that one of my priorities is to ensure 
that the Federal Government gets what it pays for and that major 
transportation projects are managed wisely and appropriately. I have 
seen too many instances of large cost increases in transportation 
projects that make the projects appear unconstrained and out of 
control. We at the Department need to be in front of this, not behind 
it! The Department has improved the oversight processes used to monitor 
the progress of major transportation projects and identify problems 
early, establish core competencies for project managers, and hold 
project managers accountable for the quality of project oversight and 
performance. I feel strongly that with the increased Federal investment 
in transportation infrastructure in the past few years, we also need to 
be especially aware of the potential for waste, fraud and abuse and 
develop mechanisms to identify it early and prevent it. If we pay for a 
10-sack concrete job, we should get a 10-sack concrete job, not a 7-
sack job.
    We will not stand behind projects that are not justified. For 
example, on April 4, 2001, DOT's Inspector General issued an Interim 
Report on the Seattle Central Link Light Rail Project, recommending 
that Federal funds and funding decisions for the Project be held in 
abeyance until FTA and Sound Transit complete a specific set of actions 
related to cost estimation, project scope, cost control, and until 
overall financing plans have been addressed. I have accepted the IG's 
recommendations, and FTA has begun implementing the actions identified 
in the IG's report.
    I know that the cost of the Central Artery Tunnel Project in Boston 
is of concern to this committee. I share this concern. While there is 
no guarantee that the cost will not further increase, Federal funds for 
this project were capped at $8.549 billion last year. I have asked the 
Department's Inspector General (IG) to look into the recent 
Massachusetts Inspector General's report stating that the total cost 
will exceed $18 billion. Although I have not yet received our IG's 
report, I do not intend, at this time, to recommend any increase in the 
Federal funding cap.
    Because of concerns over significant cost and schedule overruns in 
large scale transportation infrastructure projects, my predecessor 
Secretary Slater created a DOT task force to make recommendations to 
strengthen DOT's oversight of these large projects. The Department's 
Inspector General and the General Accounting Office have also reviewed 
DOT's oversight of large scale projects, and made recommendations to 
strengthen that oversight. The IG stated that there was a need to 
identify and apply best practices to oversight of major projects and 
find systematic solutions to problems. The General Accounting Office 
recommendations for oversight of large highway and transit projects 
included recommendations similar to the IG's regarding requiring more 
refined cost estimates and finance plans. The DOT task force's 
recommendations are now being implemented, and I will followup on this 
implementation.
Ensuring Mobility for All Americans
    Despite the capacity challenges we face, many of us take the 
tremendous mobility options we have for granted. President Bush wants 
to address the mobility gap for Americans who do not have mobility 
options. The budget requests funding within the New Freedom Initiative 
for two new programs relevant to transportation. These programs will 
help Americans with disabilities by increasing access to assistive 
technologies, expanding educational opportunities, and promoting 
increased access into the work force and daily community life. From the 
Revenue Aligned Budget Authority (RABA), the Administration requests 
$145 million for the transportation component of the New Freedom 
Initiative. The proposal calls for the Federal Transit Administration 
(FTA) to administer the program on a reimbursable basis from the FHWA. 
There is already a strong linkage between the highway and transit 
programs under current law, as transit is an eligible expense of some 
of the highway programs. In fiscal year 2000 for example, States flexed 
$1.6 billion of highway funding for transit programs.
    The transportation programs proposed for the New Freedom Initiative 
are:
    (1) $45 million to be used for pilot programs run by State or local 
governments in regional, urban, and rural areas. These pilot programs 
will be selected on the basis of the use of innovative approaches to 
developing transportation plans that serve people with disabilities. 
The Administration will work with Congress to evaluate the 
effectiveness of these programs and encourage the expansion of 
successful initiatives.
    (2) $100 million to be used to establish a competitive matching 
grant program to promote access to alternative methods of 
transportation. Potential grant recipients include Centers for 
Independent Living, Assistive Technology Centers, vocational 
rehabilitation centers, and other community-based organizations that 
seek to integrate Americans with disabilities into the work force.
    The $145 million provided from RABA is the only component of the 
New Freedom Initiative funded within the Department of Transportation 
and is part of a much larger program that includes the Small Business 
Administration, the Department of Education, and the Department of 
Housing and Urban Development. Key proposals receiving funding in the 
President's budget include $20 million for a new Access to Telework 
Fund, to provide Federal matching funds to States to guarantee low-
interest loans for individuals with disabilities to purchase equipment 
necessary to telework from home, and a $1 billion increase for special 
education programs, including Part B grants to States both proposals 
under the Department of Education.
    The Administration believes that every American should have the 
opportunity to participate fully in society and engage in productive 
work. Unfortunately, millions of Americans with disabilities are locked 
out of the workplace because they are denied the tools and access 
necessary for success. Through the ``New Freedom initiative,'' the 
Administration plans to help integrate Americans with disabilities into 
the work force.
             streamlining the environmental review process
    The Administration's goal is to lessen the environmental effects of 
transportation, and the budget includes $6.6 billion, an almost 8 
percent funding increase, for these efforts. They include the Federal 
Highway Administration's Congestion Mitigation and Air Quality 
Improvement (CMAQ) Program, Coast Guard's response to oil spills, and 
our efforts to reduce airplane noise.
    The CMAQ Program, in particular, is a highly flexible, innovative, 
and successful program. This is a program that can make a difference in 
addressing congestion in urban areas and, in doing so, we will assist 
areas that do not meet Federal air standards to reaching their air 
quality goals. CMAQ has funded valuable projects, such as alternative 
fuels, transit, traffic flow improvements, auto emissions inspections, 
ridesharing, teleworking, and bicycle and pedestrian projects. It's a 
good example of a Federal/State/local partnership working together to 
meet multiple goals and improve the lives of our citizens.
    While ensuring environmental protection and responding to public 
concerns about noise, air and water quality, other natural resources, 
and communities, we are also looking at ways to make the process of 
environmental review more efficient. Options include improving staff 
resources, fostering interagency cooperation, and more intelligent use 
of current streamlining tools.
    Slow decisionmaking does not translate into better environmental 
results. The important thing is to get the appropriate Federal and 
State environmental safeguards identified early and built in as the 
project progresses. Local cooperation is a key component of improving 
the environmental process. Local officials must be our active partners 
in this effort if we are to make significant progress. That means, for 
example, that we have to deal with local problems of surface traffic 
congestion and continue to reduce the problems of aircraft noise and 
air pollution near airports.
    I know how important environmental streamlining is for meeting the 
transportation demands of the 21st Century, especially for highways and 
transit under TEA-21. On May 25, 2000, the Department published 
interrelated notices of proposed rulemaking (NPRMs) in the Federal 
Register. The proposed regulatory revisions reflected statutory changes 
made by TEA-21 in the areas of: (1) metropolitan and statewide 
planning, (2) consistency with the national ITS architecture and 
standards, and (3) NEPA implementation for projects funded or approved 
by FHWA and FTA.
    The final rule for the ITS architecture and standards was published 
on January 8, 2001, and went into effect on April 8, 2001. Regarding 
the proposed NEPA and Planning rulemakings, I know that your full 
committee held a hearing on September 12, 2000, to discuss them and 
that significant issues were brought out at that hearing. I also 
received and have responded to the March 20 letter from the leaders of 
your committee and I appreciate the grave concerns expressed about the 
NPRMs. I can assure you that this matter is of the highest priority for 
the Department of Transportation and that most careful consideration is 
being given to our options. I will be reviewing the NEPA NPRM, along 
with the companion NPRM on transportation planning, to decide how best 
to implement the congressional intent to reduce project development 
time. I value your comments highly and I will keep this subcommittee 
and the leadership of the committee fully informed.
    Guiding projects through the planning and review processes faster, 
while ensuring environmental protection, is a complex undertaking, with 
conflicting interests among stakeholders. But it is one we must work on 
expeditiously, because it is critically important to our transportation 
system and our economy.
    In addition to the proposed rulemakings, the Department is taking, 
and has taken, other steps to streamline the environmental process for 
highway and transit projects. FHWA and FTA have enhanced interagency 
coordination by signing a National Memorandum of Understanding (MOU) on 
Environmental Streamlining between the Department and six other Federal 
agencies. This formalized the agencies' commitments to expedite Federal 
highway and transit projects while fulfilling their responsibilities to 
protect the environment. Similarly, three regional MOUs have been 
signed and some type of streamlining activity has been initiated in 
about 30 States. A Federal interagency working group was formed and has 
been meeting regularly to advance streamlining among the affected 
Federal agencies at the national level and throughout the field 
offices. The working group engages State transportation and other 
industry and environmental interests in pursuing streamlining goals. 
For example, this past November, the Department conducted a national 
training workshop on streamlining for Federal agencies. Congressional 
staff also presented their concerns to the group.
    An environmental streamlining action plan has been drafted, 
providing a blueprint for national and State level activities. The 
action plan promotes the use of existing Federal Agency powers for 
administrative delegation of authorities to States and pilot projects 
to promote expedited reviews; encourages the use of flexible mitigation 
approaches, such as wetland banking or compensation strategies that 
promote investment in environmentally sensitive geographic regions, in 
lieu of project site-specific mitigation only; establishes performance 
evaluation measures, including the development of timeframes at the 
project level; and specifies the development of a dispute resolution 
system. The action plan is periodically updated and used to track 
progress.
    The Department expects to promote and provide technical support for 
the expanded use of Federal agencies' existing administrative 
authorities to achieve process efficiencies and concurrent, rather than 
consecutive, reviews. This includes delegation of authority from 
Federal agencies such as the U.S. Army Corps of Engineers and the 
Advisory Council on Historic Preservation, to State agencies to act on 
their behalf in carrying out Federal regulations, partnership 
agreements for conducting concurrent reviews, and project agreements 
for specific time commitments. The Department is also working to 
address the TEA-21 requirements for elevation to the Secretarial level 
of interagency disputes that are causing delays.
                               conclusion
    In conclusion, the United States enjoys the safest and the best 
transportation system in the world. Nevertheless, we face safety and 
capacity challenges. The funding requested in President Bush's 2002 
budget, as well as the management and accountability improvements we 
will make over the next year, will help us to meet those challenges.
    I look forward to working with this subcommittee and all Members of 
Congress over the coming year to ensure that a safe transportation 
system continues to support a strong economy and improve the quality of 
life for all of our people.
                                 ______
                                 
     Response by Hon. Norman Mineta to an Additional Question from 
                             Senator Smith
                   truck safety at u.s./mexico border
    Question. Mr. Secretary, the President's budget proposal requests 
funding for increased motor carrier safety oversight and enforcement 
activities and for building inspection facilities at the U.S./Mexico 
border, but we have few details on how this money will be distributed.
    I am concerned that opening the borders in full compliance with 
NAFTA may be imminent, and yet under the previous Administration little 
progress was made to ensure Mexican trucks entering this country will 
comply with U.S. safety standards.
    Can you tell us whether there will be a comprehensive 
implementation plan to address the various near and long-term needs for 
cross border truck safety before the border is further opened?
    Response. FMCSA has prepared a comprehensive draft plan to ensure 
that the NAFTA cross-border provisions are implemented effectively and 
on time. To guide the development and implementation of the plan, the 
FMCSA has established several teams to identify and implement the 
various program activities that will be necessary to integrate Mexican 
operations fully into our operating, safety, and enforcement programs. 
Activities encompassed in the draft plan circulated for review include 
very specific screening and monitoring procedures to ensure safe 
carrier, vehicle and driver operations in the United States.
    Here are some of major program strategies, activities, and 
milestones planned or undertaken to date to prepare for the opening of 
the Southern border.
    <bullet> Rulemaking.--On May 3, 2001, DOT published in the Federal 
Register proposed regulations governing the application process for 
Mexican-domiciled carriers that wish to operate in the United States 
and the process by which DOT will review the safety records of carriers 
during the first 18 months of their U.S. operations. The new 
requirements will ensure that carriers understand and are able to 
comply with U.S. requirements. Final regulations will be published by 
November 2001.
    <bullet> Resources.--To support comprehensive State and Federal 
motor carrier safety enforcement activities, the Department is 
requesting $88.2 million in additional funds in its fiscal year 2002 
budget. The request includes $13.9 million to hire an additional 85 
Federal staff to perform safety inspections and conduct safety audits 
of Mexican carriers. We have also requested $54 million to provide the 
Federal share for new/modified State inspection facilities construction 
(23 border crossings with truck traffic are currently without permanent 
State inspection facilities). We have requested $2.3 million for 
immediate Federal construction needs to provide areas to park vehicles 
placed out-of-service. The Department is also proposing that an 
additional $18 million be available to support the staffing of State 
facilities and increase State motor carrier border inspection 
activities. All Federal enforcement personnel will be hired and trained 
by December 2001.
    <bullet> Education and Outreach.--The FMCSA, in concert with the 
border States, will be conducting a series of safety compliance 
seminars to educate Mexican carriers and drivers on what they need to 
know to operate in compliance with Federal and State regulations. The 
seminars will include a very detailed explanation of new application 
requirements. These safety compliance seminars are in addition to 
ongoing efforts to translate and distribute educational materials to 
Mexican carriers and drivers. The seminars will be conducted from 
August to November 2001.
    <bullet> Application Processing Procedures.--Procedures are being 
developed to ensure that all applications are evaluated accurately and 
consistently and only qualified carriers are approved to operate. 
Procedures will be developed by September 2001. An application-
processing center will also be established by September 2001 to 
specifically review, evaluate, and process new applications from 
Mexican carriers.
    <bullet> Safety Review Procedures.--To ensure the safe operation of 
the Mexican carriers, the rulemaking requires that safety reviews of 
each carrier's operations be performed. Within 18 months of receiving 
authority, all Mexican carriers must submit to a safety review by 
providing records to a Federal safety investigator and participating in 
a review of its operating procedures. Procedures for conducting the 
review will be in place by August 2001.
    <bullet> Safety Data Bases.--The FMCSA will focus on improving the 
information systems available to Federal and State enforcement 
officials in order to verify application information directly with 
Mexican transportation officials, automate the review of the 
applications, provide real-time safety performance and other data to 
Federal and State inspectors and effectively monitor the safety 
performance of Mexican motor carriers operating in the United States. 
All inspectors will have access to available U.S. and Mexican driver 
licensing, carrier, and other safety data bases by January 1, 2002.
    <bullet> NAFTA Coordination.--We will continue to work with Mexico 
to increase regulatory compatibility between our countries, establish 
cooperative agreements on the exchange of safety information, and 
provide technical assistance to build compatible compliance and 
enforcement programs in Mexico. The adoption and implementation of 
comparable programs in Mexico will provide greater assurance that 
vehicles entering the United States are already in compliance with 
safety standards.
                                 ______
                                 
     Responses by Hon. Norman Mineta to Additional Questions from 
                             Senator Inhofe
                            work zone safety
    Question 1. The historic Federal investment in highway improvements 
provided by TEA-21 is resulting in a dramatic increase in highway 
construction projects across the Nation. While this is good news for 
the safety and efficiency of our highway and bridge network, it also 
means more roadway construction work zones in the short term.
    I have been concerned about the public safety threat posed by 
roadway work zones to American motorists and the men and women of the 
construction industry for some time. In 1999, 868 people were killed 
and 39,000 injured in roadway work zone accidents. It has come to my 
attention that a disproportionate number of work zone accidents involve 
commercial motor vehicles. Specifically, in 1999 26 percent of these 
work zone fatalities resulted from crashes involving large trucks--
while commercial vehicles only make up about 3.3 percent of all 
vehicles and 7.5 percent of U.S. vehicle miles traveled.
    The Federal Highway Administration was previously involved in the 
National Work Zone Safety Information Clearinghouse to help promote 
solutions to work zone safety challenges by providing information about 
a wide range of work zone safety technical and operational issues. With 
the enactment of the Federal Motor Carrier Safety Improvement Act, 
Congress provided substantially more Federal resources for commercial 
motor vehicle safety activities, including some discretionary funds for 
national priorities under the Motor Carrier Safety Assistance Program.
    Given the safety challenge posed by commercial motor vehicles 
moving through construction work zones, wouldn't Federal involvement be 
appropriate to help ensure we are doing all that we can to make the 
Nation's roadways as safe as possible for all who use them? Also, do 
you believe an information-based entity, such as the National Work Zone 
Safety Information Clearinghouse, could play a valuable role in this 
type of endeavor?
    Response. Trucks are clearly over represented in work zone crashes, 
and clearly warrant Federal involvement. The Federal Highway 
Administration (FHWA) and Federal Motor Carrier Safety Administration 
(FMCSA) have numerous efforts underway to address work zone safety and 
operations, all focused on heightening awareness and developing 
solutions for this issue. The two agencies continue to evaluate ways to 
improve work zone safety for both passenger vehicles and large trucks, 
and States, at their option, can use their Motor Carrier Safety 
Assistance Program funds (both basic and high priority funds) for 
public information efforts, including work zone safety enforcement 
initiatives aimed at commercial vehicles.
    The National Work Zone Information Clearinghouse certainly plays a 
role in this type of endeavor. The industry/government partnership 
created by the Clearinghouse focuses on compiling and making readily 
available the latest work zone safety related information, for 
researchers, business, industry, Government Agencies and the public, 
and provides a forum for exchange and coordination of solutions and 
ideas. As originally envisioned, the Clearinghouse is now successfully 
operating without funding from FHWA, handling over 24,000 information 
requests annually.
                         hours of service rule
    Question 2. Clearly, there are significant problems with the 
proposed rule regarding Hours of Service if only in the public 
relations battle. What is the intention of the Bush Administration with 
respect to the proposed rule?
    Response. We are still considering the various options available to 
us based on our analysis of the 53,000 comments received. Our decision 
will depend on whether we need more information or additional comments 
that would require a supplemental notice of proposed rulemaking, or 
have the basis for issuing a final rule. The Department's fiscal year 
2001 appropriations legislation prohibits the Department from issuing a 
final rule before October 1, 2001, but allows other stages of 
rulemaking to proceed. We expect to make a decision on our options this 
summer and are committed to keeping you informed about whatever steps 
we take.

    Question 3. It has been suggested to me that the proposed rule as 
currently drafted would actually put more trucks on the roads during 
daylight hours thereby increasing the safety risk to the public. Is 
this a concern and if not why not?
    Response. The regulatory evaluation to the proposed rule discussed 
the impact of both shifts in traffic to daytime and the increased use 
of inexperienced commercial vehicle drivers. Because of uncertainty 
regarding both the magnitude and consequences of these changes, we did 
not attempt to quantify the safety impacts of these possible changes. 
In recognition of the uncertainty, we asked anyone who may have 
specific data on this point, to bring it forward so that we could more 
accurately identify the impacts.
    The FMCSA held three public roundtable discussions in September and 
October 2000 to gather specific data on this issue. If our review of 
the comments and additional analyses demonstrate that more drivers and 
more vehicles may be needed particularly during peak daytime hours, we 
could consider this fact as part of any subsequent evaluation and 
subsequent changes in our proposal.

    Question 4. As you and your staff are likely aware, Sec. 345 of the 
1995 National Highway System Designation Act (Public Law 104-59) 
granted limited exemptions under the Hours-of-Service regulations for 
transportation of agricultural commodities and farm supplies, 
transportation and operation of ground water well drilling rigs, 
transportation of construction materials and equipment, drivers of 
utility service vehicles, and snow and ice removal.
    The language in this Section states: ``If the Secretary determines 
that public safety has been adversely affected by an exemption granted 
under this section, the Secretary shall report to the Congress on this 
determination.'' To the best of my knowledge, Congress has not received 
any such report. Is it your understanding that the Department of 
Transportation has submitted a report to the Congress that examines the 
vehicle safety performance of drivers of commercial motor vehicles 
which transport agricultural commodities and farm supplies, drivers 
which transport and operate ground water well drilling rigs, drivers 
which transport construction materials and equipment, drivers of 
utility service vehicles, and drivers of snow and ice removal 
equipment?
    Response. The Department of Transportation has not submitted a 
report to the Congress that examines the vehicle safety performance of 
drivers of commercial motor vehicles under Sec. 345 of the NHS Act.

    Question 5. The language further states: ``The Secretary may 
conduct a rulemaking proceeding to determine whether granting any 
exemption provided by subsection (a) (other than paragraph (2)) is not 
in the public interest and would have a significant adverse impact on 
the safety of commercial motor vehicles.''
    Again, has the Department of Transportation made a determination 
that the exemption granted specifically to the drivers of commercial 
motor vehicles covered under SEC. 345 is ``not in the public interest'' 
and ``would have a significant adverse impact on the safety of 
commercial motor vehicles?'' If so, what research, evidence or criteria 
has the Department used to satisfy this congressionally mandated two-
pronged test?
    Response. The Department of Transportation has not made a 
determination that the exemption granted specifically to the drivers of 
commercial motor vehicles covered under Sec. 345 is ``not in the public 
interest'' and ``would have a significant adverse impact on the safety 
of commercial motor vehicles.''

    Question 6. Does the Agency consider this rulemaking to be an 
appropriate review of the 1995 National Highway System Designation Act 
exemptions? lf so, what data supports such a sweeping deletion of the 
exemptions across the board in almost all industries? Also, has the 
Agency properly considered the costs to the economy of such sweeping 
deletions? What data supports the sudden decision to remove tree 
farming and timbering from agriculture?
    Response. The FHWA received a petition on July 1, 1996, from the 
Advocates for Highway and Auto Safety (AHAS) seeking rulemaking to 
reevaluate the Sec. 345 exemptions. The NPRM granted the AHAS petition 
and FMCSA is considering it as a part of the Hours of Service 
rulemaking.
    Although the FMCSA has not conducted specific monitoring programs 
for currently exempted drivers, a significant amount of the sleep and 
fatigue research evaluated in preparing the NPRM suggests that a 24-
hour restart provision, like that authorized by the Sec. 345, may not 
be sufficient to overcome accumulated fatigue. We have at least six 
such studies and we can supply additional information directly from the 
public docket upon request. The FMCSA, therefore, proposed in the NPRM 
a slightly longer break in the interests of public safety. The NPRM 
would require drivers to take a ``weekend'' of at least 32 consecutive 
hours, including two consecutive midnight to 6 a.m. periods.
    The NPRM also proposed narrow definitions for significant terms 
used in Sec. 345 that the statute does not define. The FMCSA has had 
difficulty enforcing Sec. 345 when the carrier is operating outside the 
broad conditions contained in Sec. 345. The terms farmer, agricultural 
commodity, and farm supply have been ambiguous to FMCSA and our State 
enforcement partners. In addition, Federal statutes are ambiguous 
concerning whether tree farms and timber harvesting meet current 
statutory definitions of a farmer and agricultural commodities, 
respectively. See 7 USC 1a(4), 7 USC 499a(b)(4), 7 USC 608c(2), 7 USC 
1428(c), 7 USC 1441, 7 USC 1631, 7 USC 1731, 7 USC 1736o(c), 7 USC 
5602, 7 USC 7412, 12 USC 1141j(g), 15 USC 714, 21 USC 346a(a), and 42 
USC 1755.
    The regulatory evaluation to the proposed rule discussed the impact 
of exemptions. Because of uncertainty regarding both the magnitude and 
consequences of these changes, FMCSA did not attempt to quantify the 
safety impacts of these possible changes. In recognition of the 
uncertainty, FMCSA asked anyone who may have specific data on the 
exemptions, to bring it forward so that FMCSA could more accurately 
identify the impacts.
    The FMCSA held three public roundtable discussions in September and 
October 2000, and invited discussion of the question of exemptions, 
including the proposed definitions of who is a farmer. Consistent with 
our statutory mandate in the Motor Carrier Safety Improvement Act of 
1999 that ``the Administrator shall consider the assignment and 
maintenance of safety as the highest priority,'' the Agency intends to 
carefully consider requests for exemption that are supported by sound, 
compelling safety data.
                                 ______
                                 
     Responses by Hon. Norman Mineta to Additional Questions from 
                              Senator Reid
                                gas tax
    Question 1. Last year there was a serious effort in Congress to 
repeal or suspend the gas tax. This effort was defeated in the Senate 
because most Senators understood that suspending the gas tax would do 
little to reduce gas prices, threaten critical highway, transit, and 
aviation spending, and provide windfall profits to the oil companies 
and OPEC.
    Unfortunately, it now appears that there will be another effort 
this year to suspend the gas tax. So far the Bush Administration has 
refused to come out strongly against this shortsighted proposal. What 
is your position on temporarily suspending the gas tax? Can we expect 
President Bush to strongly oppose any effort in Congress to suspend or 
repeal and portion of the Federal gasoline or diesel tax?
    Response. Instead of reacting to short-term price fluctuations, I 
believe that we can most benefit consumers by addressing the problem of 
fuel costs through solutions that increase supplies and provide for 
long-term energy needs. The President's energy plan offers such 
solutions.
                          magnetic levitation
    Question 2. I was very disappointed earlier this year when the Las 
Vegas magnetic levitation project was not chosen as one of the two 
finalists by the previous Secretary of Transportation. The Las Vegas 
project provides the fastest and least expensive way to test this new 
technology and begins the process of connecting two of our Nation's 
fastest growing metropolitan areas--Los Angeles and Las Vegas.
    I hope we can revisit this selection process with the new 
Administration. In addition, I am interested in hearing of the new 
Administration's commitment to the magnetic levitation program. Does 
your decision not to include funding for this program in your fiscal 
year 2002 budget request indicate a lack of interest?
    Response. I appreciate your strong expression of interest in the 
Department's role in future Maglev developments, and your support for a 
Los Angeles--Las Vegas application of this technology. However, because 
of my prior employment with Lockheed Martin Corporation, which was 
involved in one of the two projects selected by former Secretary Rodney 
E. Slater, I am recused from departmental decisionmaking on this 
subject matter. I have advised Deputy Secretary Michael P. Jackson of 
your interest in future advances in this program at the Department.
                            high-speed rail
    Question 3. One component of our transportation system that has 
been consistently under funded and underutilized is our passenger rail 
infrastructure. Last year, despite strong support, the High-Speed Rail 
Investment Act did not make it into the final budget package and many 
of us in the leadership made commitments to the legislation's sponsors 
that we would do our best to move the legislation forward this year.
    Senators Joe Biden and Kay Bailey Hutchison reintroduced this 
legislation earlier this year and now have 57 sponsors. Mr. Secretary, 
I know that you understand the importance of providing high-speed rail 
in selected corridors as a transportation option. Can you tell me if 
the Bush Administration will be supporting passage of the High-Speed 
Rail Investment Act?
    Response. I support the principle embodied in the bill of providing 
a dependable source of capital investment for high-speed rail 
development that is not in competition with other transportation 
funding priorities. I have not had an opportunity to discuss the 
specifics of the legislation with its most important constituencies, 
Amtrak and the States. Nor have I had a chance to discuss the funding 
concept Federal tax credits in lieu of interest on the bonds--with 
Secretary of the Treasury O'Neill. But I believe that finding sources 
of funding for high-speed rail capital investments is important and I 
will work within the Bush Administration to quickly develop our 
position on the high-speed rail investment legislation.
                              dot building
    Question 4. In November 1997, this committee authorized the General 
Services Administration to procure a new headquarters building for the 
Department of Transportation. Recent news articles have suggested that 
there has been a delay in this procurement. Would you explain the 
reason for this delay? What is the present status of this project?
    Is it true that the Department of Transportation is housed in a 
building where the lease has expired for over a year? What is DOT 
paying for its current headquarters space and how does that payment 
compare to market rates in the District of Columbia?
    Response. In July 1997, the House Committee on Transportation and 
Infrastructure passed a Committee Resolution providing GSA with 
authority (in the absence of funding for Federal construction) to enter 
into an operating lease for a headquarters building for the Department 
of Transportation (DOT). In November 1997, the Senate Committee on 
Environment and Public Works also passed a Committee Resolution 
authorizing GSA's procurement of a DOT Headquarters lease. The Omnibus 
Consolidated and Emergency Supplemental Appropriations Act, 1999, 
directed GSA to enter into an operating lease to acquire space for the 
DOT headquarters. Pub. L. 105-277, 112 Stat. 2681, 2681-505. That Act 
also provided that the lease meet the guidelines for operating leases 
set forth in the joint statement of the managers for the conference 
report to the Balanced Budget Agreement of 1997, as determined by the 
Director of the Office of Management and Budget.
    GSA issued the Solicitation for Offers (SFO) for the DOT 
Headquarters lease procurement in November 1999. Phase I proposals were 
received in December 1999. Five finalists were identified to compete in 
Phase II of the procurement in March 2000, and their initial Phase II 
proposals were received in June 2000. Following extensive discussions 
with the offers and requests for revised proposals, GSA began 
consulting with OMB in October 2000 with regard to the budgetary 
scoring issues referenced in the Act. This process is ongoing.
    It is important to note that while information regarding this 
procurement has been widely reported in the press, including reports of 
the purported winner, this information is entirely speculative and 
premature. In fact, the procurement remains open and on-going pending 
resolution of scoring issues with OMB and GSA's publication of the 
Final Environmental Impact Statement (FEIS). We hope to reach 
resolution with OMB on these issues in the near future and publish the 
FEIS thereafter.
    DOT is currently housed in predominantly two leased facilities, the 
Nassif Building and the Transpoint Building. GSA's lease at the 
Transpoint Building does not expire until May 15, 2003. With respect to 
the Nassif Building, GSA's lease expired on March 31, 2000. Since that 
time, a series of standstill agreements have been executed with the 
building's landlord to provide the Government with the legal right to 
continue to occupy the space. Under these agreements, GSA continues to 
pay the landlord at the rental rate in effect as of the lease 
expiration date, approximately $31,000,000 per year net utilities.
    GSA is actively seeking to negotiate an extension to the lease 
consistent with the committee resolutions recently passed authorizing 
GSA's execution of an interim lease for DOT. Should an interim lease be 
negotiated, the agreed upon rent would be retroactive to April 1, 2000 
and we would be required to pay the difference between the rent we are 
paying, $31,000,000 and the negotiated rent.
    The incumbent landlord of the Nassif Building recently withdrew 
from the procurement for the new DOT headquarters building, opting 
instead to seek a 10-year lease extension. However, its interim lease 
proposal is longer and more expensive than the one authorized by the 
Committee Resolutions, which cap the annual rent at $37,851,057 (fully 
serviced) or $34,890,093 (net utilities). We believe the prospectus cap 
reflects a fair market rent for the Nassif Building.
                                 ______
                                 
     Response by Hon. Norman Mineta to an Additional Question from 
                             Senator Warner
                              dot building
    Question. In November 1997, with close consultation with the 
Department and GSA, this committee authorized GSA to acquire new space 
for the Department of Transportation headquarters.
    At that time, the committee was advised that the resolution 
provided the executive branch all of the authority needed to accomplish 
this goal. Given that the Department has been in a hold-over lease 
status since before 1997--paying premium rental rates for a substandard 
facility--we have been anxious for this important project to move 
forward.
    We have waited patiently as GSA and DOT went through the 
procurement process, and as was recently announced in the press, a 
winner has been selected. Yet, I would like to ask why no official 
announcement has been made by GSA or the Department? It appears that 
once again, no progress is being made.
    Can you advise the committee about the status of this procurement, 
and when a selection will be publicly announced?
    Also, I would be interested in knowing if the Department's General 
Counsel has expressed any concern about the Government's exposure to 
litigation? The apparently successful offeror, having been identified 
in the press, might have some reason to enforce his claim.
    Response. In July 1997, the House Committee on Transportation and 
Infrastructure passed a Committee Resolution providing GSA with 
authority (in the absence of funding for Federal construction) to enter 
into an operating lease for a headquarters building for the Department 
of Transportation (DOT). In November 1997, the Senate Committee on 
Environment and Public Works also passed a Committee Resolution 
authorizing GSA's procurement of a DOT Headquarters lease. The Omnibus 
Consolidated and Emergency Supplemental Appropriations Act, 1999, 
directed GSA to enter into an operating lease to acquire space for the 
DOT headquarters. Pub. L. 105-277, 112 Stat. 2681, 2681-505. That Act 
also provided that the lease meet the guidelines for operating leases 
set forth in the joint statement of the managers for the conference 
report to the Balanced Budget Agreement of 1997, as determined by the 
Director of the Office of Management and Budget.
    GSA issued the Solicitation for Offers (SFO) for the DOT 
Headquarters lease procurement in November 1999. Phase I proposals were 
received in December 1999. Five finalists were identified to compete in 
Phase II of the procurement in March 2000, and their initial Phase II 
proposals were received in June 2000. Following extensive discussions 
with the offerors and requests for revised proposals, GSA began 
consulting with OMB in October 2000 with regard to the budgetary 
scoring issues referenced in the Act. This process is ongoing.
    It is important to note that while information regarding this 
procurement has been widely reported in the press, including reports of 
the purported winner, this information is entirely speculative and 
premature. In fact, the procurement remains open and on-going pending 
resolution of scoring issues with OMB and GSA's publication of the 
Final Environmental Impact Statement (FEIS). We hope to reach 
resolution with OMB on these issues in the near future and publish the 
FEIS thereafter.
    With respect to DOT's current housing arrangements, the Agency is 
presently housed predominantly in two leased facilities, the Nassif 
Building and the Transpoint Building. GSA's lease for DOT at the 
Transpoint Building does not expire until May 2003. With respect to the 
Nassif Building, GSA's lease expired in March 2000. Since that time, a 
series of stand still agreements have been executed with the building's 
landlord to provide the Government with the legal right to continue to 
occupy that space. Under these agreements, GSA continues to pay the 
landlord at the rental rate in effect as of the lease expiration date. 
GSA is actively seeking to negotiate an extension to the lease 
consistent with the Committee Resolutions recently passed authorizing 
GSA's execution of an interim lease for DOT. The incumbent landlord of 
the Nassif Building recently withdrew from the procurement, opting 
instead to seek a 10-year lease extension. However, its interim lease 
proposal is longer and more expensive than authorized by the Committee 
Resolutions.
    Finally, as to concerns regarding litigation, this is a concern for 
any action of this size and scope. However, the GSA project team has 
carefully consulted with the GSA General Counsel to ensure that actions 
are reasonable and in accordance with applicable laws and regulations, 
and continues to do so.
                               __________
      Statement of Hon. Jane R. Roth, Judge, U.S. Court of Appeals
    Mr. Chairman and members of the subcommittee: I appreciate the 
opportunity to testify in my capacity as the chairman of the Judicial 
Conference's Committee on Security and Facilities.\1\ Chairman Inhofe, 
I look forward to working with you, Senator Baucus, the other members 
of the Subcommittee, and your staffs in the future.
---------------------------------------------------------------------------
    \1\ The Judicial Conference of the United States is the judiciary's 
policymaking body.
---------------------------------------------------------------------------
    On behalf of the entire judiciary, I would like to express our 
appreciation for the authorizations of courthouse projects that this 
subcommittee recommended and the full committee approved last year. 
Unfortunately, not all these projects have received appropriations yet. 
We hope to get those much needed projects funded and moving ahead this 
year.
                  fiscal year 2002 courthouse program
    President Bush's fiscal year 2002 budget request includes $216.8 
million for courthouse construction projects and $130.3 million for 
court-related repair and alteration projects. The subcommittee's letter 
to the White House in support of funding for courthouse construction 
was very helpful in achieving this result. While the judiciary 
appreciates the fact that some courthouse construction funding was 
included in the Administration's budget request, the Judicial 
Conference proposes 20 projects for funding in fiscal year 2002 at a 
total cost of approximately $665 million.\2\
---------------------------------------------------------------------------
    \2\ The judiciary determined this amount by applying a factor for 
inflation to previous GSA estimates.
---------------------------------------------------------------------------
    The judiciary supports the President's budget request for 
courthouse projects. The Committee on Environment and Public Works has 
previously provided authorizations for 11 of the 12 courthouse 
construction projects in the President's budget request. Some of the 
projects are on the judiciary's prioritized list for fiscal year 2002 
and some are from previous years and may need to have their 
authorizations increased for inflation.
    There are also nine new projects not included in the President's 
budget which the judiciary supports for fiscal year 2002: Rockford, IL; 
Cedar Rapids, IA; Nashville, TN; Savannah, GA; Fort Pierce, FL; 
Jackson, MS; Austin, TX; San Diego, CA; and San Jose, CA. The Senate 
has already provided authorizations for four of these projects, 
although these resolutions may need to be increased now to match GSA's 
latest estimates due to inflation. In past years, the committee has 
requested 11(b) studies for projects which were not included in the 
President's budget. We urge the subcommittee to make a similar request 
this year. I have attached a chart to this statement that summarizes 
the judiciary's fiscal year 2002 plan and the President's budget 
request.
    We understand from GSA that three projects might be delayed until 
next year due to circumstances beyond the judiciary's or GSA's control. 
These projects, in Salt Lake City, UT; Cape Girardeau, MO; and Orlando, 
FL, could be authorized in a future year. Two other projects, Eugene, 
OR and Little Rock, AR, are not ready for construction funding as 
anticipated, but do need additional site and/or design money this year. 
The requests for additional site and design money for Eugene and Little 
Rock are included in the President's budget request for fiscal year 
2002.
    The Judicial Conference also supports construction of a Federal 
office building to house the court of appeals staff and potentially 
other Federal agencies in Atlanta, GA.
      some fiscal year 2002 courthouses have special requirements
    The judiciary is in disagreement with OMB's unilateral decision to 
eliminate small amounts of space which the judiciary needs due to 
special requirements in some courts. Our planning guidelines are 
intended to recognize that some courts operate differently from others 
and handle different types of cases. For example, for some projects on 
our fiscal year 2002 list, the judicial councils of the various 
circuits have determined that a senior judge\3\ will need exclusive use 
of a courtroom for longer than 10 years. Such special requirements 
result in minor increases in square footage and minimal costs in the 
long term. The judiciary plans to use these courthouses for decades 
into the future; shortsightedly making them smaller than needed will 
only necessitate the judiciary returning to Congress to request 
additions to relatively new courthouses at greater expense to 
taxpayers. We hope you will authorize the projects based on the 
requirements submitted by the courts. Details of these changes will be 
provided to subcommittee staff.
---------------------------------------------------------------------------
    \3\ Senior judges are those judges who are eligible to retire but 
who continue to try cases.
---------------------------------------------------------------------------
    An example of the problems caused when a facility is built smaller 
than needed is the Brooklyn, NY courthouse annex. Additional funding is 
needed to build out a total of eight courtrooms and eight chambers in 
the annex as planned and authorized to accommodate the judges that will 
be working when the annex opens and to permit the planned renovation of 
the existing courthouse. The judiciary urges the subcommittee to ensure 
that GSA constructs the necessary space. If this is not done, the new 
building will be full on the day it opens, and indeed the entire 
complex may not be able to accommodate the court when the annex opens. 
In our view, responsible planning and responsible spending justifies 
further action by the subcommittee to complete this important project. 
I will submit for the record a separate statement by Judge Raymond 
Dearie of the Eastern District of New York which elaborates on the 
serious housing problem that will be created if GSA does not build 
enough space in Brooklyn.
                          the project backlog
    Ten years ago, the judiciary, Congress, and the GSA embarked on a 
construction program to replace court facilities. Some existing 
courthouses are at full capacity with no room for expansion. Most are 
aged and obsolete, cannot provide adequate security, and cannot 
accommodate emerging technology. Due to a lack of funding, the program 
is now seriously behind schedule. In fiscal years 1998 through 2000, 
the previous Administration did not include any funding for courthouses 
in its budget request. In fiscal year 2001, the Administration included 
funding in its budget for only 7 of the 21 courthouses approved by the 
Judicial Conference. Congress has appropriated funds for courthouse 
construction only twice in the last 4 years. This has created the 
backlog.
    Delayed funding of courthouse projects can result in significant 
cost increases. Although GSA has estimated that construction costs were 
increasing an average of 3-4 percent for each year of delay, there have 
been some situations where escalation factors have been significantly 
higher. As a result, had the 20 projects the judiciary supports in 
fiscal year 2002 been built when they were originally scheduled, the 
projected costs would have been approximately $50 million lower than 
they are today due to inflation.
                        need for new courthouses
    In spite of these delays, the workload of the Federal courts 
continues to increase, necessitating additional judges and court staff. 
In the last 10 years, criminal cases have increased 32 percent, civil 
cases have increased 20 percent, and bankruptcy filings have increased 
68 percent. Congress provided 9 new Federal district judgeships in 
fiscal year 2000 and 10 more in fiscal year 2001. The Judicial 
Conference of the United States is currently requesting that 54 more 
Article III judgeships be created. Furthermore, about 127,000 persons 
are under the supervision of the judiciary's probation and pretrial 
services officers. These officers need space to conduct drug testing 
and to hold meetings with those under supervision.
    Many of the courthouses in use today are more than 50 years old and 
do not meet the needs of a modern-day justice system. A major problem 
is security for the jurors, witnesses, court employees, judges and the 
public. Oftentimes, the courthouses lack separate routes of circulation 
so that prisoners are transported through the same areas and elevators 
as judges, jurors and members of the public. Some courthouses do not 
have holding cells adjacent to courtrooms or sally ports for bringing 
prisoners into the courthouses in a secure manner. The courthouses 
frequently have operational problems such as inadequate heating and 
ventilation systems and electrical systems that are incompatible with 
modern technology requirements. For example, in some older courthouses, 
the infrastructure will not allow the wiring necessary for courtroom 
technologies such as video evidence presentation systems, video-
conferencing systems, and electronic methods of taking the record, 
which will streamline trials and improve the quality of justice.
    A courthouse project is not proposed for consideration unless the 
district's long-range facility plan indicates that there is no more 
room for judges in the existing facility. Usually this determination is 
made after all executive branch agencies and court-related units 
(probation, pretrial services, and the bankruptcy court) have been 
moved from the existing building. Therefore, the projects on the 
judiciary's Five-Year Plan are urgently needed when they are placed on 
the plan and delays only exacerbate operational problems. We have 
provided subcommittee staff with a fact sheet on each courthouse 
project that describes the current housing situation and the need for a 
project at that location.
    The judiciary's problems are particularly acute along the southwest 
border, where drug and immigration enforcement efforts have caused the 
workload to more than double and where proximity to the Mexican border 
magnifies security risks. Three of the twenty courthouse projects 
requested for fiscal year 2002 are located along the southwest border. 
We have provided copies of a video on the southwest border court 
problems to committee staff. I would like to have shown it to the 
subcommittee as part of my testimony today, but time constraints have 
made that impossible. I urge you, however, to take the time to view it 
in the near future.
                            cost containment
    The Federal judiciary, working with GSA, has taken many steps to 
economize and ensure better management of the courthouse construction 
program without sacrificing functionality. The courthouse construction 
process has become increasingly rigorous, disciplined and structured 
over the past several years as a result of these actions.
    On the recommendation of the National Academy of Public 
Administration, the judiciary began its long-range facilities planning 
process in 1988. The objective of the planning process is to determine 
the ability of existing facilities to meet the judiciary's projected 
future space needs. The planning process was designed to provide the 
judiciary with a systematic, a political method of identifying and 
defining the need for new courthouse projects. In January 2001, the 
General Accounting Office issued a very positive report to Congress 
about the judiciary's long-range planning process. In May 2000, the 
consulting firm of Ernst & Young, which was retained by the judiciary 
to study the courthouse program, found that the facilities planning 
process has been effective. The judiciary received GSA's Annual 
Achievement Award for Real Property Innovation for the long range 
planning process in 1998.
    In 1993, GSA instituted a benchmarking process to evaluate the cost 
of proposed new construction projects and to help identify potential 
savings. Baseline benchmarks were established for Federal courthouses 
based on industry data. The benchmarks are then adjusted for project 
specific conditions such as costs for seismic construction and 
geographic location. For example, a benchmark would suggest a range of 
acceptable costs for a courthouse project in Washington, DC from $145 
to $170 per square foot in 1993 dollars. The benchmarks have been 
adjusted over time to incorporate security construction criteria 
adopted by GSA subsequent to the bombing of the Murrah Federal Building 
in Oklahoma City and to accommodate technological advancements. GSA 
uses benchmarks to compare costs of Federal construction with private 
sector buildings and to compare courthouse projects nationwide. 
Construction cost estimates are now based on the benchmarks.
    In 1996, at the urging of Congress, the judiciary began 
prioritizing courthouse construction projects against defined criteria. 
The judiciary uses a scoring system to develop an annual, prioritized 
Five-Year Courthouse Project Plan. Congress uses the scoring system and 
the Five-Year Plan to allocate resources for courthouse construction, 
funding permitting. Ernst & Young found that the scoring process was 
logical and appropriately focused on facilitating judicial functions. 
The scoring criteria take into account security problems; building 
conditions; the number of judges affected by a lack of space; and the 
length of time the facility has not been able to accommodate additional 
judges.
    Courthouse construction conforms to the U.S. Courts Design Guide, 
which identifies the functional requirements for courthouses. The 1997 
edition incorporates new criteria in response to economic constraints. 
In 1997, a cost estimating consultant determined that these changes 
would result in an average of 5 percent savings in the cost of 
projects. These changes include: prohibiting the use of exotic 
hardwoods; encouraging GSA's private sector design architects to 
develop a selection of finishes that responds to construction cost 
limitations, optimizes long-term value, and satisfies functional 
requirements; defining in greater detail the amount of circulation 
areas needed in order to limit this space; prohibiting architects or 
court staff from adding spaces not contemplated in design; and 
encouraging shared use of space common to all court offices, such as 
conference and training rooms.
                                summary
    The judiciary is truly grateful for the resources provided for the 
courthouse construction program so far. However, recent delays in 
courthouse funding have created a backlog of facilities that need 
replacement. The judiciary has outgrown these facilities and they 
suffer from serious security and infrastructure problems. Improvements 
made to the planning process and design standards over the years help 
to ensure that the courthouse program meets the judiciary's workload 
needs in an economical and functional manner. Therefore, the judiciary 
asks that you authorize, in accordance with the judiciary's stated 
needs, the new courthouse projects on the attached list that have not 
already been authorized or that need their authorizations increased.
    Thank you for the opportunity to testify before the subcommittee. I 
would be pleased to answer any questions you might have at this time.
                                 ______
                                 

                           Judicial Branch Courthouse Construction Program for FY 2002
                                              (Dollars in Millions)
----------------------------------------------------------------------------------------------------------------
                                                                                  Amount
   Project (In Priority Order Approved by     Project Phase on Judiciary's    Recommended by    Amount Requested
            Judicial Conference)                          Plan               the Judiciary in    in President's
                                                                                 FY 2002             Budget
----------------------------------------------------------------------------------------------------------------
From Previous Plans:
Brooklyn, NY...............................  Design & Construct...........            $32.000            $3.361*
Washington, DC.............................  Construction.................              6.595              6.595
Buffalo, NY................................  Site & Design................              0.716              0.716
Springfield, MA............................  Design & Construct...........              6.473              6.473
Miami, FL..................................  Construction.................             15.000                  0
 
On FY 2002 Plan:
 
1. Fresno, CA..............................  Construction.................              121.2            121.225
2. Erie, PA................................  Construction.................               30.7             30.739
3. Eugene, OR..............................  Construction.................               75.2            4.470**
4. El Paso, TX.............................  Site & Design................               11.1             11.193
5. Mobile, AL..............................  Site & Design................               11.3             11.290
6. Norfolk, VA.............................  Site & Design................               11.8             11.609
7. Las Cruces, NM..........................  Design.......................                4.1              4.110
8. Salt Lake City, UT......................  Construction.................               76.5               0***
9. Little Rock, AR.........................  Design & Construct...........               75.0            5.022**
10. Rockford, IL...........................  Site & Design................                4.9                  0
11. Cedar Rapids, IA.......................  Site & Design................               15.1                  0
12. Nashville, TN..........................  Site & Design................               14.3                  0
13. Savannah, GA...........................  Construction.................               46.5                  0
14. Fort Pierce, FL........................  Site & Design................                4.5                  0
15. Jackson, MS............................  Site & Design................               12.3                  0
16. Austin, TX.............................  Site & Design................                8.5                  0
17. San Diego, CA..........................  Design.......................               14.3                  0
18. Cape Girardeau, MO.....................  Construction.................               36.9               0***
19. Orlando, FL............................  Construction.................               71.3               0***
20. San Jose, CA...........................  Site & Design................               19.4                 0
----------------------------------------------------------------------------------------------------------------
*Only a portion of this money is for the new courthouse annex, with the remainder to be spent on design of U.S.
  Attorney space in the General Post Office. GSA's prospectus does not specify how the funding request is to be
  divided.
**These funds are for additional site and/or design only and do not include construction money as planned. A
  prolonged site selection process for the Eugene project and a change in design plans for the Little Rock
  project resulted in their not being ready for construction in fiscal year 2002.
***GSA indicates these projects may not be ready for any additional funding in fiscal year 2002.

                                 ______
                                 
     Responses by Judge Jane R. Roth, to Additional Questions from 
                             Senator Inhofe
    Question 1. There has been much confusion over the issue of sharing 
courtrooms. We have a desire to make sure that courthouses are used to 
the fullest extent possible and have surmised that sharing of 
courtrooms only makes sense. However, I have learned over the years 
that what seems to be a logical solution does not necessarily mean it 
is so. I understand the sharing of courtrooms is one such case. Please 
explain to the subcommittee what the current position of the Judicial 
Conference is on courtroom sharing and how such a procedure affects the 
function of the courts.
    Response. The Judicial Conference policy, adopted in 1997, is to 
provide one courtroom for every active district judge. With regard to 
visiting judges and senior judges who do not draw a caseload requiring 
substantial use of a courtroom, the policy requires that the circuit 
judicial councils determine how many courtrooms a proposed facility 
needs. The policy provides the following planning assumptions:
    (1) If a senior judge will be provided with a courtroom, it will be 
occupied by the judge for 10 years after taking senior status;
    (2) It will take 3 years for a new judgeship to be established and 
for the judge to begin work once a court's caseload warrants an 
additional judgeship;
    (3) A replacement judge will begin working 2 years after the judge 
being replaced takes senior status; and
    (4) Active judges will take senior status in the year they are 
eligible.
    Courtroom sharing occurs throughout the judiciary where it is 
feasible. In particular, courtrooms are regularly shared by senior 
judges who do not carry a substantial caseload. The comprehensive 
assessment of the judiciary's space and facilities program completed by 
Ernst and Young in 2000 found, for those projects for which data was 
available, a 5:4 ratio of district judges to courtrooms in the Five 
Year Courthouse Project Plan.
    The judiciary has carefully considered the issue of courtroom 
sharing and has concluded that further sharing of courtrooms would be 
onerous. For an active trial judge, a courtroom is an indispensable 
resource. If a judge does not have ready access to a courtroom, justice 
will be delayed and in some cases, denied. A courtroom is integral to 
the constitutional guarantees of the 1st amendment right of assembly, 
5th amendment right of due process, 6th amendment right to a public 
criminal trial, and 7th amendment right to a civil jury trial.
    Courtroom scheduling is a dynamic part of a judge's case management 
activities to control hundreds of cases. In our judicial system, 
individual judges are accountable for the management of cases assigned 
to them and for the movement of their dockets. Judicial experience 
demonstrates that civil cases settle when courtroom availability is 
assured. If it becomes clear that a courtroom may not be available, 
settlements will be much more difficult to obtain. In addition, 
priority must be given to criminal cases due to the short timeframe 
established under the Speedy Trial Act. It is not possible to predict 
accurately the length of trials, hearings or other proceedings or to 
predict if a particular trial or proceeding will occur. The notice 
requirements established by the due process clause of the Constitution 
prevent one matter from being quickly substituted for another to fill 
an unexpectedly available facility. Security concerns would also be a 
major factor if criminal defendants were forced to be moved around the 
courthouse or brought to courtrooms that lack holding cells.
    The General Services Administration has estimated that it costs 
about $1.5 million to construct a courtroom and its associated spaces 
(including jury rooms, attorney conference rooms, public waiting rooms, 
and prisoner holding cells). If a courthouse has a life expectancy of 
30 years (a conservative figure), the cost of one courtroom is about 
$50,000 a year. The cost to the system and to litigants will likely be 
much greater than the savings that would be achieved by sharing. In 
addition to new administrative costs that would be incurred by the 
Government because of the need to juggle courtrooms, the last-minute 
cancellation of even one civil jury trial due to the lack of a 
courtroom can result in many thousands of dollars in legal fees and 
expert witness costs for the litigants. Delays in criminal proceedings 
would add costs for the Department of Justice's U.S. Attorneys and U.S. 
Marshals. Given the expected continued growth of Federal cases in most 
districts, sharing courtrooms would shorten the useful life of a 
courthouse and simply escalate future costs for needed expansion of 
courthouses that would be under-built.

    Question 2. When I served as the ranking minority member on the 
House counterpart to this subcommittee, there was real concern about 
how courthouses were designed and planned. As your testimony notes, the 
courts in consultation with GSA have developed a new process whereby 
courthouse planning is done. Thank you for the effort and work the 
courts have put into that process. How is the new system working? Is it 
allowing the courts the flexibility it needs to address your unique 
housing requirements?
    Response. The judiciary's facilities planning process is working 
very well. The goal of this process is to provide the judiciary and GSA 
with a systematic, objective method of identifying and defining space 
requirements. That goal is being achieved. Congress has been making 
authorization and funding decisions based on the judiciary's planning 
process for several years. Recent objective assessments of the process 
by Ernst and Young and the U.S. General Accounting Office find that it 
accurately represents the judiciary's space needs.
    The judiciary's long-range facilities planning process examines the 
ability of existing facilities to meet the judiciary's projected future 
space needs. Historical caseload data form the basis for projecting 
court space requirements. Projected numbers of judges and staff are 
derived from these caseload projections. Available space in the 
currently occupied buildings is then compared against projected future 
space requirements to determine if existing buildings can house 
projected judges and staff. If a district's long-range facilities plan 
shows that a building cannot accommodate projected growth, the 
judiciary advises GSA that there is the potential need for additional 
space at a given location. The judiciary gives each new construction 
project a score that reflects its relative urgency. The judiciary 
scores projects based on four criteria: year out of space; security 
problems; physical condition of building; and number of judges affected 
by lack of facility space. The judiciary's Five-Year Courthouse Project 
Plan lists the projects by score over 5 years.
    Within the confines of the long-range planning process and the 
scoring system there is sufficient flexibility so that each judicial 
district can consider its own particular circumstances and needs. 
Variations in court practices and the flexibility that courts have to 
determine how to spend their personnel and other operating funds affect 
the composition of their work force, which in turn, affects the court's 
space needs. The Administrative Office of the U.S. Courts does compare 
the personnel projections provided by local courts to its own 
statistical data and discusses differences with the districts to help 
them improve their predictions. These controls are in place to ensure 
consistent application of the planning methodology.
    While the long-range facilities planning process is essentially 
sound, the judiciary is undertaking several refinements and 
modifications that have been recommended by Ernst and Young to improve 
the process further. These improvements should enhance reliability and 
consistency, promote greater accountability, and potentially save 
money.
                               __________
         Statement of Hon. Raymond J. Dearie, District Judge, 
                      Eastern District of New York
    Mr. Chairman and members of the subcommittee: On behalf of the 
court in the Eastern District of New York, I appreciate the opportunity 
to submit a statement regarding the Brooklyn, NY courthouse project 
that is pending authorization before your subcommittee. When the 
existing building was constructed more than 40 years ago, the planners 
underestimated the anticipated growth of the court and built a facility 
far too small for the judiciary's needs. Judges in the Brooklyn 
Division have extremely heavy and complex caseloads, well above the 
national average for district judges. Three new judgeships are 
currently authorized by the Judicial Conference for the Eastern 
District--at least two of those judgeships will be assigned to the 
Brooklyn court. Moreover, senior judges continue to carry full 
caseloads to ensure the court is able to fulfill its responsibilities.
    The lack of foresight with the original building led to the need 
for this latest new courthouse project. This project has involved 
demolition of a large part of the former Federal building/courthouse 
and the construction of a new courthouse annex on that site to house 
all of the district court, followed by renovation of the remaining 
portion of the building to provide space for future growth. It has 
taken nearly 20 years to get this new courthouse annex planned, 
designed and under construction. The construction funding for this 
project was appropriated in fiscal year 1997. Unfortunately, it is now 
clear that the new courthouse annex as currently planned will also be 
too small and will not be able to house all the judges when it opens.
    The current shortfall in space results from the fact that during 
two separate procurement actions on the part of the General Services 
Administration for the courthouse, the construction bids received by 
GSA were above the funding level authorized and appropriated by 
Congress. GSA chose to redesign the project, modifying some features of 
the building and dramatically reducing the scope of the project by 
first, entirely eliminating four floors from the building and second, 
only shelling out an additional four floors. This last action means 
that four floors (9-12) in the new building, which were originally 
planned as space for eight courtrooms and eight chambers, will be left 
as shelled space and unavailable for court use.
    GSA bases the size of a courthouse on a 10-year projection of space 
needs. Projecting out 10 years to 2012, the judiciary will need to have 
34 courtrooms in Brooklyn. However, only 25 courtrooms (16 in the new 
annex and 10 in the old courthouse) will be available in 2012 if GSA 
does not build out the eight courtrooms and eight chambers planned for 
the four empty floors in the new annex. Moreover, if the eight 
courtrooms and eight chambers are built, not only will the total 
project meet the needs of the judiciary for approximately 10 years, but 
there will already be enough judges to fill the new annex upon its 
completion in 2003.
    As mentioned earlier, the second portion of this courthouse project 
involves the renovation of the existing courthouse. GSA has requested 
$3.791 million in this year's budget to design that renovation. The 
original plan was for all the judges to move to the new annex upon 
completion and leave the existing courthouse empty during the time of 
its renovation. When the renovation is completed, the additional space 
in that building will be needed for judges currently working and others 
added to the court by that time.
    Unfortunately, with the eight courtrooms and chambers cut from the 
annex, GSA is now proposing to undertake the renovation with the judges 
still occupying the existing building. It is clearly unworkable to 
occupy the courthouse during the extensive renovation that is planned. 
The noise and activity will make it impossible to hold court and the 
removal of asbestos and PCBs required in the renovation will expose the 
public and everyone in the court to hazardous materials. Last, there 
will not be a sufficient number of courtrooms and chambers available 
for the 28 to 30 judges who will need accommodation during the 
renovation.
    Certainly, the build-out of the eight courtrooms and chambers now 
would be the most efficient and the most economic way to accommodate 
space needs of the Brooklyn court. GSA's experience in Brooklyn has 
made it clear that costs are rapidly rising in the local construction 
market. The current estimate of $26 million to complete these 
courtrooms and chambers now as part of the on-going construction 
project will be significantly increased if GSA waits to do it later as 
a separate project. Providing these rooms in the new annex will also 
permit the judges to occupy the annex during renovation of the existing 
building, thus saving substantial time and costs for the renovation 
project, as GSA has recognized.
    It is also important to note that the space shortages I have 
described are all predicated upon the GSA completing the new annex and 
starting renovation of the old courthouse on the dates currently 
projected by GSA. Unfortunately, this project has a history of not 
meeting target completion dates. For example, when the construction 
contract for the new annex was finally awarded in October 1999, the 
completion was planned for May 2002. I have been informed that the 
completion date has slipped to January 2003. Any further delays in the 
project will exacerbate the crowding that will take place as new judges 
are scheduled to replace senior judges steadily through the next 
decade.
    The judiciary has been more than patient, as this project has 
evolved. We have been working under very difficult circumstances, 
managing an ever-increasing caseload in extremely overcrowded and 
dangerous conditions. Brooklyn is the only place in the country where 
the Judicial Conference of the United States has declared a judicial 
space emergency. The means of ending the inconvenience to the public 
and litigants and to permit the efficient operation of the court is 
within our grasp. The logical solution is to proceed now with building 
out the eight courtrooms and chambers which were planned for floors 9-
12 of the new annex and which are critically needed.
    I strongly urge the subcommittee to act at this time to authorize 
funding in fiscal year 2002 for the $26 million which GSA has indicated 
would be needed to complete construction of all eight courtrooms and 
eight chambers this year. On behalf of the court, I appreciate your 
interest and will be happy to answer any questions about the serious 
housing situation in Brooklyn that the subcommittee might have.
                               __________
        Statement of Thurman Davis, Sr., Acting Administrator, 
                    General Services Administration
    Good morning, Mr. Chairman and members of the subcommittee. My name 
is Thurman Davis and I am the Acting Administrator, U.S. General 
Services Administration (GSA). I am accompanied by William Jenkins, 
Acting Deputy Administrator for the Public Buildings Service of GSA. I 
am pleased to appear before you today to provide information on the 
President's fiscal year 2002 budget request for the Federal Buildings 
program.
    The Public Buildings Service manages space in approximately 8,300 
buildings. Over 1,800 are Government-owned and 6,500 are leased from 
the private sector. More than 400 of the Government's properties have 
historic significance based on their age, building type, architectural 
style, or involvement in culturally significant events. PBS customers 
include all Federal departments, independent agencies and commissions, 
the Judiciary, and Members of Congress.
    Our Capital Investment and Leasing Program plays a key role in 
providing the necessary resources to maintain current real property 
assets and acquire new or replacement assets. The capital program 
supports several portfolio objectives:
    <bullet> Maximizing Federal Buildings Fund (FBF) income;
    <bullet> Minimizing the drain of unproductive assets;
    <bullet> Preserving the historical and cultural assets placed in 
GSA's trust; and
    <bullet> Managing other diverse responsibilities integral to the 
management of the Nation's largest real estate portfolio.
    All proposed projects are evaluated in the context of the entire 
national portfolio. We consider three options when evaluating our 
client Agency requirements. These include the construction and 
acquisition of new facilities, repair and alteration of existing 
facilities, or leasing space from the private sector.
                         repair and alteration
    Our first capital program priority is the repair and alteration of 
our existing inventory to ensure that its value and condition does not 
decline. More than 43 percent of our owned buildings are over 50 years 
old and 51 percent are between the ages of 21 to 50 years old.
    We are requesting a Repairs and Alterations program of $826.7 
million for an increased emphasis on the overall maintenance and 
viability of our assets. The highlights of GSA's Fiscal Year 2002 
Program include:
    <bullet> $370,000,000 for the Basic Program;
    <bullet> $400,781,000 for the construction phase of the 
Modernization/Alterations Program;
    <bullet> $6,650,000 for Heating, Ventilation and Air Conditioning 
Modernization; and
    <bullet> $15,588,000 for the Removal of PCB.
    The facilities under PBS's stewardship have a functional 
replacement value of $33 billion, and the repair and upgrade of these 
facilities is our top priority.
    To allocate the limited resources of the Federal Buildings Fund for 
Repairs and Alterations projects, we evaluate and rank our proposals 
based on the following criteria: (1) Economic Justification, (2) 
Project Timing and Execution, (3) Physical Urgency, (4) Client/Agency 
Needs and (5) Historical Significance. PBS applies these criteria 
while:
    <bullet> Protecting the safety and health of tenants in owned and 
leased assets;
    <bullet> Altering vacant space in owned assets to relocate client 
agencies from leased space into Government-owned space when available; 
and
    <bullet> Completing planned phased modernization projects (follow-
on phases of multi-phased projects).
    When evaluating repair and alteration projects, we also closely 
examine proposed project scopes to ensure that they meet client Agency 
requirements and facility needs. We work to determine if any possible 
changes in project scope can be made to realize cost savings, without 
jeopardizing the project's goals. Refining project scopes may free up 
additional funding for more projects.
    By applying these criteria to our decisionmaking process, we 
prioritize our major repair and alteration projects and ensure that the 
most important ones in our national portfolio are funded.
                            new construction
    We are requesting a Construction and Acquisition of Facilities 
program of $663 million. The highlights of GSA's Fiscal Year 2002 
Program include:
    <bullet> $216,803,000 for 12 Federal Judiciary projects;
    <bullet> $276,400,000 advance appropriation approved in the fiscal 
year 2001 Appropriation Act for four Federal Judiciary projects;
    <bullet> $17,339,000 for design and construction of six border 
stations;
    <bullet> $9,060,000 for the design of the FDA Consolidation, 
Montgomery County, Maryland;
    <bullet> $5,000,000 for the Southeast Federal Center remediation 
site in Washington, DC;
    <bullet> $6,268,000 for the site and design of a Federal Bureau of 
Investigation in Houston, TX;
    <bullet> $34,083,000 for the construction of a National Oceanic and 
Atmospheric Administration II facility in Suitland, MD;
    <bullet> $4,617,000 for the U.S. Mission to the United Nations;
    <bullet> $2,813,000 for the U.S. Census Bureau in Suitland, MD;
    <bullet> $5,900,000 for non-prospectus construction projects; and
    <bullet> $84,406,000 for repayment to the Judgement Fund.
    We recommend new construction where it will meet the new housing 
needs of a specific Federal Agency or to consolidate several dispersed 
agencies with economically feasible long-term needs in a given 
locality. PBS traditionally pursues a construction and ownership 
solution for special purpose and unique facilities (such as border 
stations and courthouses) which are not readily available in the real 
estate market. Our construction request includes funding for site 
acquisition, design construction and management and inspection cost of 
Federal facilities.
    That concludes my prepared statement, Mr. Chairman, and I will be 
pleased to answer any questions.
                                 ______
                                 
Response by Thurman Davis to an Additional Question from Senator Warner
    Question. In November 1997, with close consultation with the 
Department and GSA, this committee authorized GSA to acquire new space 
for the Department of Transportation headquarters.
    At that time, the committee was advised that the resolution 
provided the executive branch all of the authority needed to accomplish 
this goal.
    Given that the Department has been in a hold over lease status 
since before 1997--paying premium rental rates for a substandard 
facility--we have been anxious for this important project to move 
forward.
    We have wait patiently as GSA and DOT went through the procurement 
process, and as was recently announced in the press, a winner has been 
selected. Yet, I would like to ask why no official announcement has 
been made by GSA or the Department?
    It appears that once again, no progress is being made.
    Can you advise the committee about the status of this procurement, 
and when a selection will be publicly announced?
    Also, I would be interested in knowing if the Department's General 
Counsel has expressed any concern about the Government's exposure to 
litigation? The apparently successful offeror, having been identified 
in the press, might have some reason to enforce his claim.
    Response. In July 1997, the House Committee on Transportation and 
Infrastructure passed a Committee Resolution providing GSA with 
authority (in the absence of funding for Federal construction) to enter 
into an operating lease for a headquarters building for the Department 
of Transportation (DOT). In November 1997, the Senate Committee on 
Environment and Public Works also passed a Committee Resolution 
authorizing GSA's procurement of a DOT Headquarters lease. Congress 
then fully authorized and directed GSA to enter into an operating lease 
by statute. The Omnibus Consolidated and Emergency Supplemental 
Appropriations Act, 1999 (Pub. L. 105-277, 112 Stat. 2681, 2681-505).
    GSA issued the Solicitation for Offers (SFO) for the DOT 
Headquarters lease procurement in November 1999. Phase I proposals were 
received in December 1999.
    Five finalists were identified to compete in Phase II of the 
procurement in March 2000, and their initial Phase II proposals were 
received in June 2000. Following extensive discussions with the 
offerors and requests for revised proposals, GSA began reviewing the 
budget scoring analyses based on the final proposals as evaluated with 
OMB in October 2000. This process is ongoing.
    It is important to note that while information regarding this 
procurement has been widely reported in the press, including reports of 
the purported winner, this information is entirely speculative and 
premature. In fact, the procurement remains open and ongoing pending 
resolution of scoring issues with OMB and GSA's publication of the 
Final Environmental Impact Statement. We hope to reach resolution with 
OMB on these issues in the near future. With respect to DOT's current 
housing arrangements, the Agency is presently housed predominantly in 
two leased facilities, the Nassif Building and the Transpoint Building. 
GSA's lease for DOT at the Transpoint Building does not expire until 
May 2003. With respect to the Nassif Building, GSA's lease expired in 
March 2000. Since that time, a series of stand still agreements have 
been executed with the building's landlord to provide the Government 
with the legal right to continue to occupy that space. Under these 
agreements, GSA continues to pay the landlord at the rental rate in 
effect as of the lease expiration date. GSA is actively seeking to 
negotiate an extension to the lease consistent with the Committee 
Resolutions recently passed authorizing GSA's execution of an interim 
lease for DOT. The incumbent landlord of the Nassif Building recently 
withdrew from the procurement, opting instead to seek a 10-year lease 
extension. However, its interim lease proposal is longer and more 
expensive than authorized by the Committee Resolutions.
    Finally, protests and lawsuits by competitors in any action of this 
size and scope are a concern and certainly, the longer the process 
takes, the greater the risk to the Government that such a protest or 
lawsuit will be filed. Throughout this procurement, we have consulted 
with our Office of General Counsel to ensure our actions are reasonable 
and in accord with applicable laws and regulations. We are confident 
that we have conducted a proper procurement to date and, intend to 
continue doing so.
                                 ______
                                 
 Responses by Thurman Davis to Additional Questions from Senator Inhofe
    Question 1. Could you provide my office with more figures on the 
work being proposed on the Muskogee, OK Courthouse? Your request for 
$8,214,000 sounds a bit high to me. I cannot fathom how one could spend 
that much money in Muskogee on an existing building. However, I 
understand that the alterations may be rather extensive and I would 
like to get more specific information on costs.
    Response. The renovation of the 123,510 gross square foot Muskogee, 
OK Courthouse includes the following:
    <bullet> a complete upgrade/replacement of the mechanical, plumbing 
and electrical systems;
    <bullet> installation of a building-wide fire alarm and sprinkler 
system;
    <bullet> removal of lead based paint and asbestos;
    <bullet> renovation of restrooms to comply with ADA requirements 
and;
    <bullet> renovation to the interior finishes primarily on floors 
two through four.
    This project reflects an extensive renovation and replacement of 
the operating systems of a 1915 courthouse. The project is further 
complicated by the fact that the building contains two District and one 
Magistrate courtrooms that must remain in operation during the 
renovation process.

    Question 2a. There is a prospectus in the fiscal year 2002 GSA 
Capital Investment Program requesting design funds for a 771,265 square 
foot facility for the Bureau of the Census to be built at the Suitland 
Federal Center. This includes reprogramming of design funds approved 
last year for the renovation of Building No. 3, the current 
headquarters of Census. This renovation will take place later, and 
perhaps too late for its use by 2010, the next decennial.
    Since GSA is asking for reprogramming of design funds for the 
renovation of building No. 3, just what does GSA propose to do with 
this building? Is the building really worth renovating?
    Response. GSA does not intend to renovate FOB 3 as part of a plan 
to provide long-term housing for Census, because financial analysis 
shows that the total cost to the Government is less under a scenario of 
all new construction. This scenario also meets the mission needs of 
Census more appropriately and allows employees to vacate 
environmentally contaminated areas more quickly. (New construction 
accelerates occupancy by as much as 3 years.) Thus, GSA has requested 
that the previously appropriated $5.2M design funds be reprogrammed to 
allow use for design of new construction.
    The all-new construction alternative proposes the construction of 
two new buildings totaling 1.5 million gross square feet and 3,100 
structured parking spaces on the Suitland Campus. The total development 
cost for both buildings is approximately $340 million, $9 million more 
than the combination (new construction/renovation) alternative. 
However, once swing space and move costs are taken into consideration, 
the all-new construction scenario is the most cost effective by 
approximately $40 million.
    GSA currently proposes the construction of two new buildings and 
associated parking to house Census at the Suitland Federal Center. This 
proposal modifies the request included in the fiscal year 2002 
prospectus for $8,013,000 in authority to design one new building as 
the first phase of the Census project. GSA has provided committee staff 
with a change sheet indicating that $8,187,000 in additional design 
authority is now required. The Department of Commerce will provide the 
additional funds required for design.
    Any future plan to renovate FOB 3 will depend on the identification 
of suitable tenants and the analysis of the costs of redevelopment for 
their occupancy.

    Question 2b. What other Agency will be housed in this building?
    Response. The future use of FOB 3 and the identification of 
potential occupants depend on how the two new buildings now proposed to 
accommodate Census are located on the Suitland Federal Center site. 
From a master plan perspective, if two new buildings are constructed 
proximate to FOB 3, traffic management issues may preclude certain 
future uses of the building with implications for proposed tenancy. 
Further analysis is needed to determine the most appropriate future use 
of this building, and may evaluate adaptive re-use of historic elements 
of the building in lieu of a complete renovation.

    Question 2c. Are you contemplating an infill project to expand the 
size of building No. 3?
    Response. Complete renovation of FOB 3 is a sound investment only 
if you include an infill project. The infill increases gross square 
feet only 20 percent, yet increases rentable square feet almost 50 
percent due to a new, efficient layout. Since renovation of FOB 3 is 
not now being proposed to meet the phase 2 requirements of Census, any 
future infill proposal would have to be evaluated in relation to 
alternative tenancy and the overall development potential of the 
Suitland campus.

    Question 2d. If GSA proposes to renovate this structure for Census 
after occupancy of the new building, what is the timeframe for design 
and construction of renovations to Building No. 3?
    Response. GSA does not intend to renovate FOB 3 as part of a plan 
to provide long-term housing for Census. GSA now proposes to construct 
two new buildings in proximity to FOB 3 to accommodate the total Census 
housing requirement on the Suitland Campus. This proximity will 
generate traffic management issues that may preclude renovation of the 
building for certain uses. Further analysis and discussion will be 
necessary to determine the most appropriate use of the building, 
including suitable adaptive re-use of its historic elements.

    Question 2e. Where is this renovation project on the priority list 
for funding in the out years?
    Response. GSA does not plan to propose the renovation of FOB 3 as 
phase 2 of the project to meet the requirements of Census. The analysis 
of alternative uses of the building will determine the scope, cost, and 
priority of any future year funding request.

    Question 2f. Has GSA considered other options, such as building two 
buildings for Census, or building a larger facility to accommodate all 
of Census employees, in time for the next census.
    Response. GSA has considered different options to provide a more 
suitable housing solution for Census. Analysis has shown that 
construction of two new buildings is the Government's overall least 
expensive solution. If construction of the two buildings were to begin 
in fiscal year 2003 and fiscal year 2004, this scenario would allow 
occupancy in December 2006. Census has stated that this would meet 
their decennial census requirements. To construct one large facility 
does not significantly impact timing or cost, though it would require 
all funding up front. One large building also results in a structure 
well beyond the current scale of existing Suitland structures, both on 
campus and off.

    Question 3a. The Administration is requesting over $84 million in 
funding for the Judgment Fund Repayment. What is this fund and what 
kinds of activities are funded by this fund?
    Response. The Judgment Fund is administered by the Financial 
Management Service of the Department of the Treasury. In 1956, Congress 
enacted a permanent, indefinite appropriation (The Judgment Fund) for 
the payment of final judgments which were ``not otherwise provided 
for'' (31 U.S.C. Sec. 1304(a)). The Judgment Fund is available for most 
court judgments and Justice Department compromise settlements of actual 
or imminent lawsuits against the Government. Over the years, Congress 
added several administrative claim awards such as judgments from Agency 
boards of contract appeals under the Contract Disputes Act of 1978. The 
Act provides, in pertinent part, that.
    a. Judgments.--Any judgment against the United States on a claim 
under this chapter shall be paid promptly in accordance with the 
procedures provided by section 1304 of Title 31.
    b. Monetary Awards.--Any monetary award to a contractor by an 
Agency board of contract appeals shall be paid promptly in accordance 
with the procedures contained in subsection (a) of this section.
    c. Reimbursement.--Payments made pursuant to subsections (a) and 
(b) of this section shall be reimbursed to the Judgment Fund provided 
by section 1304 of Title 31 by the Agency whose appropriations were 
used for the contract, out of available funds or by obtaining 
additional appropriations for such purposes.
    41 U.S.C. Sec. 612. The request for $84.4 million represents 
reimbursements that are due to the Judgement Fund for fiscal years 
1997-2000.

    Question 3b. If these funds are being used for cost overruns for 
courthouse construction projects, what details can you provide?
    Response. The funds are for the payment of final judgments, Justice 
Department compromise settlements, and administrative claim awards. 
Interest and attorney's fees may be included as well as considerations 
of the risk and cost to the Government of trial. Claims may arise from 
causes such as design deficiencies, differing site conditions, and 
government caused delays that increased contractor costs.

    Question 3c. Are these cost overruns a result of decisions by the 
Judiciary, or are they a result of inflation in the construction 
industry?
    Response. Some may be a result of changes requested by the 
Judiciary for changed requirements. Some are a result of unforeseen or 
changed conditions discovered during construction. They are not a 
result of inflation in the construction industry. Inflationary 
pressures are more acute during the construction contract procurement 
process (bidding). However, the contracts cannot be awarded without 
sufficient funds. Therefore, this does not contribute to claims.

    Question 3d. Please provide a list of each project, the original 
construction and total cost estimate, and the overruns that each 
project has experienced.
    Response. The original estimated construction cost (ECC) and total 
estimated project cost (TEPC), and the current ECC and TEPC including 
the claims for fiscal years 1997-2000 are as follows:

 
                                            [In Millions of Dollars]
----------------------------------------------------------------------------------------------------------------
               Project                     Orig ECC          Orig TEPC           Curr ECC          Curr TEPC
----------------------------------------------------------------------------------------------------------------
MA, Boston, John Joseph Moakley U.S.       $167,180,070       $222,820,000       $165,382,945       $235,044,000
 Courthouse.........................
NY, New York, Joseph Addabbo Federal         83,301,000         92,765,000        113,661,753        126,089,341
 Building...........................
NY, White Plains, U.S. Courthouse...         23,105,000         29,768,000         29,505,667         36,223,616
NJ, Newark, M.L. King, Jr. Federal           57,836,000         70,436,000         56,199,798         70,327,504
 Building...........................
NJ, Trenton, Clarkson S. Fisher              25,939,000         30,143,000         43,027,298         43,527,298
 Federal Building and U.S.
 Courthouse.........................
FL, Tampa, Sam M. Gibbons U.S.               68,058,000         84,564,000         61,956,840         78,462,840
 Courthouse.........................
MN, Minneapolis, U.S. Courthouse....         87,772,000         91,333,000         94,035,575         99,399,871
MO, Kansas City, Charles E.                  96,755,000        112,181,000        104,261,000        119,717,000
 Whittaker Federal Courthouse.......
CA, Los Angeles, Edward R. Roybal           137,198,000        150,046,000        161,201,860        180,413,111
 Center and Federal Building........
OR, Portland, Mark O. Hatfield U.S.         115,483,000        133,810,000        116,856,400        136,708,400
 Courthouse.........................
DC, Washington, FBI Field Office....         57,690,000        102,111,000         65,216,192        100,788,929
----------------------------------------------------------------------------------------------------------------


    Question 4. Last year only four courthouse projects were funded, 
(Los Angeles, CA; Biloxi-Gulfport, MS; Richmond, VA; and Seattle, WA) 
and four were ``Advanced funded'' (District of Columbia, Miami, FL; 
Springfield, MA; and Buffalo, NY). What is the status of the four 
projects that were advanced funded for fiscal year 2002?
    Response. Washington, DC.--The proposed increased cost for the 
Washington, DC Courthouse Annex reflects 3 percent escalation resulting 
from the 1-year delay in receiving authorization necessary to award a 
construction contract. A small additional contingency cost was also 
included due to the very active construction market and the difficulty 
GSA is now experiencing in awarding construction contracts of this 
size. The design of the project is nearing completion and the 
construction contract is scheduled for award in the second quarter of 
2002.
    Miami, FL.--In the 106th Congress, the Senate authorized the Miami 
project with a level of funding appropriate for construction of 16 
courtrooms in 2001. The House proposed a level of funding appropriate 
for construction of 12 courtrooms in the Miami courthouse in compliance 
with the U.S. Courts Design Guide, with no departures from the Design 
Guide's provisions. Most of the projects approved by Congress for the 
fiscal year 2001 courthouse construction program did not depart from 
the Design Guide's provisions. A letter from the Florida congressional 
delegation requested that the House authorize the full 16 courtroom 
courthouse. A more recent letter, dated May 23, 2001, from the Chief 
Judge of the Southern District of Florida to the chairman, subcommittee 
chairman and ranking members of the Committee on Transportation and 
Infrastructure requested that the committee authorize a courthouse with 
14 courtrooms and room to expand to a total of 16 courtrooms in future. 
House authorization for a project that meets this request is currently 
pending.
    GSA did not request additional funds for the Miami courthouse 
project in 2002 because we determined that a 12 courtroom courthouse 
could be built within the $121,900,000 in the fiscal year 2002 advance 
appropriation. If the number of courtrooms increases beyond 12, 
additional funding will be required to offset the inflation escalation 
and additional contingency requirements in Miami.
    Springfield, MA.--Site acquisition is planned by September 2001. 
Design completion is scheduled for May 2002. A site preparation and 
excavation contract is planned for award in January 2002, with the core 
& shell contract to be awarded in September 2002.
    Buffalo, NY.--GSA initiated the site selection and the architect/
engineer (A/E) procurement in April 2001. Site acquisition and A/E 
procurement will be completed when funds become available in fiscal 
year 2002.

    Question 5. What is the status of the Miami project? Will this 
project be a 12, 14, or 16 courtroom project?
    Response. In the 106th Congress, the Senate authorized the Miami 
project with a level of funding appropriate for construction of 16 
courtrooms in 2001. The House proposed a level of funding appropriate 
for construction of 12 courtrooms in the Miami courthouse in compliance 
with the U.S. Courts Design Guide, with no departures from the Design 
Guide's provisions. Most of the projects approved by Congress for the 
fiscal year 2001 courthouse construction program did not depart from 
the Design Guide's provisions. A letter from the Florida congressional 
delegation requested that the House authorize the full 16 courtroom 
courthouse. A more recent letter, dated May 23, 2001, from the Chief 
Judge of the Southern District of Florida to the chairman, subcommittee 
chairman and ranking members of the Committee on Transportation and 
Infrastructure requested that the committee authorize a courthouse with 
14 courtrooms and room to expand to a total of 16 courtrooms in future. 
House authorization for a project that meets this request is currently 
pending.
    GSA did not request additional funds for the Miami courthouse 
project in 2002 because we determined that a 12 courtroom courthouse 
could be built within the $121,900,000 in the fiscal year 2002 advance 
appropriation. If the number of courtrooms increases beyond 12, 
additional funding will be required to offset the inflation escalation 
and additional contingency requirements in Miami.

    Question 6. What is the status of the Orlando, FL courthouse 
project? How far along is the design of this project?
    Response. In March 2001, GSA, along with representatives from the 
judiciary, met with Congressmen Young and Istook to discuss this 
project. The present design meets or exceeds all of the court's 
requirements for safety and acoustics while also meeting established 
requirements for energy efficiency. However, during that meeting it 
became apparent that the court's needs changed since the design began 
with regard to the number and shape of the courtrooms. While the court 
has yet to confirm the number of each courtroom type (district, 
magistrate, or bankruptcy) and the shape desired for these courtrooms, 
GSA asked the design team to proceed with developing a revised plan for 
the building. This revised plan will be based on the court's (recently 
revised) projected number of courtrooms and limited information GSA 
received from the courts concerning the shape of each courtroom type. 
These revisions will not include dramatic changes to the building's 
exterior.
    The Design Development Phase of this project was approximately 50 
percent complete when Congress and the court asked GSA to revise the 
design to reflect new requirements. The design team is investigating 
revisions to the design that will meet the court's needs. When this is 
completed the design can again move forward.

    Question 7. There are six projects on the Judiciary's priority list 
for fiscal year 2001 that did not receive funding in fiscal year 2002 
in accordance with the funding plan. (Miami, FL; Salt Lake City, UT; 
Rockfort, IL; Cedar Rapids, IA; Nashville, TN.; and Savannah, GA.) What 
is the status of each project?
    Response. Miami, FL.--In the 106th Congress, the Senate authorized 
the Miami project with a level of funding appropriate for construction 
of 16 courtrooms in 2001. The House proposed a level of funding 
appropriate for construction of 12 courtrooms in the Miami courthouse 
in compliance with the U.S. Courts Design Guide, with no departures 
from the Design Guide's provisions. Most of the projects approved by 
Congress for the fiscal year 2001 courthouse construction program did 
not depart from the Design Guide's provisions. A letter from the 
Florida congressional delegation requested that the House authorize the 
full 16 courtroom courthouse. A more recent letter, dated May 23, 2001, 
from the Chief Judge of the Southern District of Florida to the 
chairman, subcommittee chairman and ranking members of the Committee on 
Transportation and Infrastructure requested that the committee 
authorize a courthouse with 14 courtrooms and room to expand to a total 
of 16 courtrooms in future. House authorization for a project that 
meets this request is currently pending.
    The District Court for the Southern District of Florida is 
currently evaluating its housing options for Miami to determine the 
total number of courtrooms required there. GSA did not request 
additional funds for the Miami courthouse project in 2002 because we 
determined that a 12 courtroom courthouse could be built within the 
$121,900,000 in the fiscal year 2002 advance appropriation. If the 
number of courtrooms increases beyond 12, additional funding will be 
required to offset the inflation escalation and additional contingency 
requirements in Miami.
    Salt Lake City, UT.--In 1997, $11,474,000 was appropriated for 
construction of an annex to the existing Moss Courthouse. The annex 
site contained historical structures (Odd Fellows Building and other 
historic structures). There was heavy opposition from the City, the 
historic preservation community, and the community at large due to 
adverse impacts on the historical structures and the City redevelopment 
plans. A second site across the street from the existing courthouse was 
identified for a stand-alone courthouse. After initial support from the 
City there were objections to building on the site from the City as 
well as business organizations and Senator Bennett. The landowner was 
also an unwilling seller.
    Currently, the District Court for the District of Utah, Senator 
Bennett, the city of Salt Lake and the historic preservation community 
are in discussions regarding the site location for the proposed 
project. GSA intends to submit a construction prospectus for funding in 
fiscal year 2003.
    Rockford, IL.--Following discussions with the Judiciary, the 
requirements phase of the project has been completed. Based on the 
Judiciary's prioritized funding plan for fiscal year 2002, the project 
could not be funded with the level of funding available.
    Cedar Rapids, IA.--Following discussions with the Judiciary, the 
requirements phase of the project has been completed. Based on the 
Judiciary's prioritized funding plan for fiscal year 2002, the project 
could not be funded with the level of funding available.
    Nashville, TN.--Following discussions with the Judiciary, the 
requirements phase of the project has been completed. Based on the 
Judiciary's prioritized funding plan for fiscal year 2002, the project 
could not be funded with the level of funding available.
    Savannah, GA.--The project is on hold pending resolution of 
questions on the number of district courtrooms to be provided in the 
existing historic courthouse and the new annex. The House 
Transportation and Infrastructure Committee has not authorized the 
project's construction citing the increased estimated project cost, and 
construction funding has not been appropriated.
                                 ______
                                 
Responses by Thurman Davis to Additional Questions from Senator Clinton
    Question 1a. I am very interested in the proposals included in the 
President's budget request for two projects in Brooklyn, New York. (1) 
a project in the building now under construction, and (2) a project to 
renovate the existing building. These projects are needed to alleviate 
a Judicial Space Emergency declared by the Judicial Conference in 1989.
    It is my understanding that the plans for the new annex indicate 
that only 12 district judge courtrooms and chambers and four magistrate 
judge courtrooms and chambers will be built out at occupancy, resulting 
in a total of 16 courtrooms and chambers. It is also my understanding 
that funds have been included in the President's budget request to 
provide for the build-out of three additional magistrate judge chambers 
in this new building, that the court in Brooklyn does not find this 
proposal acceptable, and that this request is being made without prior 
consultation with the court.
    The court believes instead that eight additional courtrooms and 
chambers must be constructed, not just three chambers, for a total of 
24 courtrooms and chambers. The court further believes that the new 
building will not be capable of housing all the judges currently on 
board, or that are reasonably expected to be on board, by the occupancy 
date in 2003 if the Administration chooses not to build out the 
additional eight courtrooms and chambers now.
    Response. The construction prospectus, approved by Congress in 
1996, describes the courts space needs in Brooklyn. The prospectus 
called for a 10-year requirement for 17 courtrooms for 17 district 
judges and 8 courtrooms for 8 senior district judges, for a total of 25 
courtrooms in the new annex. In addition, the prospectus called for the 
re-use of 10 courtrooms and an unassigned ceremonial courtroom for 10 
magistrate judges, for a total of 11 courtrooms in the existing Celler 
building. Overall, 25 courtrooms would be provided in the new annex and 
11 would be provided in the existing Celler building, for a total of 36 
courtrooms for 35 judges. The prospectus defined the 10-year 
projections as the total space requirement 10 years from occupancy. At 
the time the prospectus was approved, the date of occupancy was 
projected to be fiscal year 2000.
    The Courtroom Utilization Study, dated March 9, 2001, provided by 
the judiciary, quantified the dramatic reduction in the requirements 
for the Brooklyn project on which the current build-out is based. The 
March 9, 2001, study projects 12 district judges, 7 senior district 
judges (3 of which will exceed the 10-year eligibility for a courtroom 
under the U.S. Courts Design Guide), and 9 magistrate judges, for a 
total of 28 judges. The new annex construction includes build-out of 12 
district judge courtrooms and chambers and 5 magistrate judge 
courtrooms and chambers, for a total of 17 courtrooms and chambers. The 
existing Celler building will contain 11 existing courtrooms upon 
completion of the renovation project.
    The courtroom eligibility model contained within the U.S. Courts 
Design Guide assumes that Senior Judges will require a courtroom for 10 
years after they become Senior Judges. The three Senior Judges 
indicated above will not be eligible for a courtroom upon completion of 
the Annex construction project. Therefore, 25 of the Judges will be 
eligible for courtrooms in the 10-year period. There will be a total of 
28 courtrooms, 17 in the new annex and 11 in the existing building when 
construction is complete. During the phased renovation of the Celler 
building, a minimum of two floors of courtrooms, or seven to eight 
courtrooms, will remain available at any given time. Therefore, a total 
of 24 or 25 courtrooms will be available for use during the entire 
renovation period.

    Question 1b. Can you please explain why the GSA budget 
justification states that 21 courtrooms and chambers will be provided 
in the new annex, rather than the 16 courtrooms and chambers that are 
now under construction? Can you also please explain why the GSA budget 
justification states that 21 courtrooms and chambers will be provided 
in the new annex when there is a capacity in the building to construct 
24 courtrooms and chambers?
    It is my understanding that GSA's budget justification states that 
the courthouse will meet the 10-year space requirements of the court 
and that the site will accommodate the 30-year expansion requirements 
of the court. Can you please explain how the current construction plan 
meets these requirements? Can you please explain GSA's plans to address 
the needs of the court after 2011, after which time it is believed that 
the entire Brooklyn court complex will be fully occupied?
    I understand that the capacity to build four courtrooms and 
chambers for district judges and four courtrooms and chambers for 
magistrate judges is available on floors 9-12 of the building now under 
construction. Given the fact that it has taken almost 20 years to plan, 
design, and construct a new building in Brooklyn and the complex nature 
of this project, it seems that it would make good sense from a cost-
effectiveness and operational perspective to build out all of the 
available courtrooms now, so that GSA will not have to come back to 
this committee for authorization of courtrooms and chambers in the new 
building in the future.
    Response. GSA budget justification statement regarding 21 
courtrooms was in error. It should have read. ``The new Annex will 
provide 17 courtrooms and chambers.''
    There is a requirement for 25 courtrooms within 10 years. The 
capacity for 8 additional courtrooms in the new courthouse represents 
built-in 30-year expansion capability. The construction prospectus 
states that the balance of the District Court's 30-year requirements 
can be accommodated by relocating executive and courts-related agencies 
into leased space to provide additional space for the district court as 
needed. This method of temporarily moving other tenants into the 
courthouse is commonly used to provide expansion capability within 
courthouses for the long-term needs of the judiciary. The other tenants 
act as ``place-holders'' for future courtroom and chambers space, 
allowing the judiciary to temporarily offset rent payments to GSA until 
such time as the courtrooms and chambers are required.

    Question 1c. Can you please provide information on the proposal 
that GSA made to the Office of Management and Budget during this budget 
cycle concerning the build-out of the eight courtrooms and chambers? 
What is the estimated cost of the eight courtrooms and chambers based 
on: (1) an open market government estimate, and (2) a bid from the 
contractor now building the new courthouse? How much will these 
estimates increase each year that construction of the courtrooms and 
chambers on floors 9-12 is delayed?
    Response. GSA had discussions with OMB regarding the construction 
projects in Brooklyn leading up to the formulation of the 
Administration's fiscal year 2002 budget request. The purpose of these 
discussions was to determine the most appropriate method of 
accomplishing the renovation of the Celler building following 
completion of the annex project. The Administration concluded that the 
judiciary space needs could be met without constructing additional 
courtrooms at this time by utilizing a phased construction approach. 
The estimated cost to build eight courtrooms and chambers is 
$26,000,000. This estimate was provided by a contracted construction 
management firm assisting GSA with the oversight of the project, and is 
based on the open market estimate for New York City in 2003 dollars. 
GSA uses an annual rate of 3.2 percent for escalation of construction 
cost for future projects. We assume that the cost of the courtroom 
build-out will escalate at approximately that rate if the construction 
is put off to a future year.

    Question 1d. The district court project in Brooklyn also 
contemplates renovation of the existing courthouse, which has 10 
courtrooms and chambers in addition to some makeshift space for 
magistrate judges. I understand that on April 17, 2000, the court 
stated it would not agree to a renovation while the building is 
occupied. Instead, the court believes the building should be completely 
vacated so that the renovation can be completed without exposing the 
public to asbestos, other hazardous materials such as PCBs, and the 
noise and other disruption associated with renovating a 40-year-old 
building.
    Is it true that GSA relocates Federal agencies during the period 
that major renovations are taking place in other projects throughout 
the country? If so, in the case of Brooklyn, will GSA ensure that the 
court can be accommodated in the new building during the renovations of 
the existing Celler building in order to ensure there are no 
disruptions to court operations and that the public and court employees 
are not unnecessarily exposed to hazardous materials during the 
renovations?
    Response. The judiciary is a particularly challenging client to 
relocate temporarily because of its unique and expensive space 
requirements; therefore, GSA intends to renovate the Celler Building in 
phases. While it is clearly more convenient to renovate space in 
unoccupied buildings, GSA has extensive experience with the renovation 
of partially and, in some cases, fully occupied buildings. For example, 
the Department of Justice main headquarters building in Washington, DC, 
is in phase two of a three-phase complete modernization. In each phase, 
one-third of the building is being renovated while the other two-thirds 
is occupied. Similarly, in Brooklyn, by vacating two or more floors, 
GSA can mitigate the concerns of noise and hazardous materials 
exposures outlined in the question above. Excessively noisy work will 
be performed during non-business hours, and floors under renovation 
will be contained to prevent occupant and public exposure to hazardous 
materials during the demolition phase of the renovations. During the 
renovation, several floors of the Celler building will remain fully 
functional and available for the court's use.

    Question 1e. I understand that there is usually a premium cost 
associated with renovating a building while it is occupied. Can you 
please provide information on the difference in cost between renovating 
the building when it is completely vacated versus completing the 
project while the building is still occupied and in use? What premium 
will the Government have to pay the contractor for renovating the 
building if it were to be occupied by the courts during the renovation?
    Response. There is a premium for performing work in an occupied 
building; however, this cost is mitigated by the costs associated with 
providing interim space for the court's needs. The proposed Celler 
building renovation has an estimated construction cost (ECC) of 
approximately $43 million. The GSA could save approximately $9 million 
if the building was vacated prior to construction start. The $9 million 
increase consists of a need to do a percentage of the renovation work 
during off-hours, additional escalation of the project due to a longer 
construction schedule, and multiple tenant moves associated with 
swinging into and out of interim space while construction takes place. 
This $9 million is more than offset by the $26 million required to 
build-out the additional courtrooms and chambers in the new annex. 
Therefore GSA has proposed that renovations take place while the Celler 
building is partially occupied.
                                 ______
                                 
  Responses by Thurman Davis to Additional Questions from Senator Reid
    Question 1. Please detail for me the progress that GSA has made in 
implementing Executive Order 13123. How much funding has GSA requested 
in fiscal year 2002 to implement energy efficiency initiatives that 
will help to ensure compliance with Executive Order 13123? What 
specific actions does GSA plan to take in fiscal year 2001 and fiscal 
year 2002 to improve the long-term energy efficiency of Federal 
buildings?
    Response. Pursuant to Executive Order 13123, GSA completes an 
Annual Energy Scorecard identifying its actions to implement the 
Executive order (Attachment 1). According to a recent DOE evaluation of 
our scorecard, GSA is in full compliance with the Executive order 
(Attachment 2).
    There are no specific items in the fiscal year 2002 budget, 
however, all energy related projects in the prospectus and non-
prospectus program will be carried out consistently with the Executive 
order. GSA developed and submitted to the Department of Energy a fiscal 
year 2001 implementation plan to implement Executive Order 13123 
(Attachment 3).

    Question 2. President Carter and President Clinton have both signed 
Executive orders requiring the General Services Administration to look 
first at downtown locations when considering where to locate Federal 
facilities. However, despite these Executive orders, there seems to be 
a growing tend toward Federal agencies leaving downtowns and locating 
in new suburban developments.
    We are facing numerous land and traffic problems resulting from 
suburban sprawl. These Executive orders were meant to promote smart 
growth and downtown redevelopment. I would like to know how successful 
GSA has been at implementing these orders and accomplishing the goal of 
keeping Federal agencies from relocating out of urban areas and into 
the suburbs. Please provide specific information that shows GSA 
compliance with the Executive order and justification for any cases 
wherein GSA deviated from it.
    Response. GSA, in coordination with the White House, in 1996 
developed new implementing regulations (Interim Rule D-1, 41 CFR Part 
101-17.205) for Executive Order 12072 concerning the location of 
Federal facilities in urban areas. These new regulations require 
Federal agencies to give first consideration to central business areas 
when determining the delineated areas for their space requirements in 
urban areas and to provide justification for any delineated area that 
includes areas outside of central business areas. Furthermore, the 
regulations require Federal agencies to communicate with local 
officials regarding any action considering a delineated area outside 
the central business area. GSA has successfully followed these 
instructions by ensuring that: (1) Agency justifications are consistent 
with the exceptions provided by the regulation and (2) that local 
officials know about and are given the opportunity to provide 
recommendations for and objections to any space action considering a 
location outside central business areas. GSA is not aware of any 
actions where it has deviated from the above mentioned regulations. 
However, if you have questions or concerns regarding a specific space 
action, please contact us.

    Question 3. Please provide a copy of GSA's response to the recently 
completed draft GAO report, ``Better Guidance and Monitoring Needed to 
Assess Purchases of Environmentally Friendly Products.''
    Response. A copy of GSA's comments to GAO Report, ``Better Guidance 
and Monitoring Needed to Assess Purchases of Environmentally Friendly 
Products'' is attached (Attachment 4).

    Question 4. Please provide a quantitative and qualitative 
description of the solid and hazardous waste disposed of annually from 
GSA-owned or operated facilities, or where GSA has an agreement or 
contract for waste management, including the method of its disposition, 
i.e. storage, treatment, landfill, incineration, etc.
    Response. GSA does not normally collect data on the total solid and 
hazardous waste stream of all GSA-owned and operated buildings. Based 
on GSA Recycling Program (GRP) data, provided by GSA's Regional 
offices, the total solid waste stream for all GSA-owned and operated 
buildings, excluding hazardous waste, was approximately 1,409,448 tons 
in fiscal year 2000.
    GSA does not receive any data for the solid waste stream removed 
from delegated or leased buildings since the operation of these 
buildings/locations are the responsibility of the delegated Agency or 
the lessor. Should the committee wish us to request this data, we will 
forward any further information to you upon its receipt.
    Regarding the method of disposition of the solid waste, each 
municipality has its own method for disposal of its solid waste, i.e., 
landfill, incineration, etc. The vendor contracted to remove the solid 
waste from GSA's locations would dispose of it in accordance with each 
local municipality's chosen method of disposal.
    GSA has recycled approximately 43,411 tons of material from the 
office waste stream nationwide in fiscal year 2000, representing 
approximately 30.8 percent of the solid waste stream from those 
locations. This figure represents the efforts of the GRP which 
encompasses over 1,100 Federal office locations nationwide.
    This material is sold to local recycling vendors and GSA receives 
income from the sale of recycled materials as dictated by local current 
market values. GSA received approximately $918,741, nationwide, from 
the sale of this material in fiscal year 2000.
    Finally, GSA generates hazardous waste occasionally during its 
construction, repair, and other daily operations. Since this is not a 
constant waste stream, GSA does not have an annual hazardous waste 
total. Should the committee wish us to request this data from each of 
our regional offices, we will provide this material to you upon its 
receipt. When such material is generated, it is disposed of in 
accordance with all applicable Federal, State, and local regulations.

    Question 5. Please provide information on all GSA-owned, leased or 
operated facilities' annual energy consumption, including motor fuel, 
electricity, and natural gas, and the associated energy costs.
    Response. Please see GSA's annual energy data report submitted to 
the Office of Management and Budget in December 2000 (Attachment 5).

    Question 6. Does GSA encourage distributed generation of 
electricity from renewable energy sources at GSA-owned, leased or 
operated facilities? If not, does GSA plan to develop this capability 
or to incorporate such requirements into future new construction or 
building retrofit specifications?
    Response. Yes, GSA specifically encourages its 11 regional offices 
to submit line item energy program funding projects that utilize 
distributed generation technologies annually. Pending funding approval, 
GSA will rank these projects according to life-cycle cost accounting 
analyses and approve those which will significantly impact our Agency 
energy reduction and/or improve our ability to compete for low cost 
electricity in a deregulated electricity market.
  

                                <greek-d>

</pre></body></html>
